<html>
<title> - UNDERGRADUATE SCIENCE, MATH, AND ENGINEERING EDUCATION: WHAT'S WORKING?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    UNDERGRADUATE SCIENCE, MATH, AND
                 ENGINEERING EDUCATION: WHAT'S WORKING?

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2006

                               __________

                           Serial No. 109-40

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science




                    U.S. GOVERNMENT PRINTING OFFICE
26-481                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
BOB INGLIS, South Carolina           AL GREEN, Texas
DAVE G. REICHERT, Washington         CHARLIE MELANCON, Louisiana
MICHAEL E. SODREL, Indiana           DENNIS MOORE, Kansas
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                                 ------                                

                        Subcommittee on Research

                  BOB INGLIS, South Carolina, Chairman
LAMAR S. SMITH, Texas                DARLENE HOOLEY, Oregon
CURT WELDON, Pennsylvania            DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         BRIAN BAIRD, Washington
GIL GUTKNECHT, Minnesota             CHARLIE MELANCON, Louisiana
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
W. TODD AKIN, Missouri               BRAD MILLER, North Carolina
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
DAVE G. REICHERT, Washington         VACANCY
MICHAEL E. SODREL, Indiana           VACANCY
MICHAEL T. MCCAUL, Texas             VACANCY
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
             ELIZABETH GROSSMAN Subcommittee Staff Director
            JIM WILSON Democratic Professional Staff Member
      MELE WILLIAMS Professional Staff Member/Chairman's Designee
                  KARA HAAS Professional Staff Member
          AVITAL ``TALI'' BAR-SHALOM Professional Staff Member
                 RACHEL JAGODA BRUNETTE Staff Assistant


                            C O N T E N T S

                             March 15, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bob Inglis, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Dana Rohrabacher, Member, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    10

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research, Committee on Science, U.S. 
  House of Representatives.......................................    12

Prepared Statement by Representative Mark Udall, Member, 
  Committee on Science, U.S. House of Representatives............    12

                               Witnesses:

Dr. Elaine Seymour, Author, ``Talking About Leaving: Why 
  Undergraduates Leave the Sciences;'' Former Director of 
  Ethnography and Evaluation Research, University of Colorado at 
  Boulder
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    45
    Financial Disclosure.........................................    46

Dr. Carl Wieman, Distinguished Professor of Physics, University 
  of Colorado at Boulder
    Oral Statement...............................................    46
    Written Statement............................................    48
    Biography....................................................    50
    Financial Disclosure.........................................    51

Dr. John E. Burris, President, Beloit College
    Oral Statement...............................................    52
    Written Statement............................................    53
    Biography....................................................    71
    Financial Disclosure.........................................    74

Dr. Daniel L. Goroff, Vice President for Academic Affairs; Dean 
  of the Faculty, Harvey Mudd College
    Oral Statement...............................................    75
    Written Statement............................................    77
    Biography....................................................    88
    Financial Disclosure.........................................    89

Ms. Margaret Semmer Collins, Assistant Dean of Science, Business, 
  and Computer Technologies, Moraine Valley Community College
    Oral Statement...............................................    90
    Written Statement............................................    92
    Biography....................................................    98
    Financial Disclosure.........................................   101

Discussion.......................................................   102

              Appendix: Answers to Post-Hearing Questions

Elaine Seymour, Author, ``Talking About Leaving: Why 
  Undergraduates Leave the Sciences;'' Former Director of 
  Ethnography and Evaluation Research, University of Colorado at 
  Boulder........................................................   114

Dr. Carl Wieman, Distinguished Professor of Physics, University 
  of Colorado at Boulder.........................................   117

Dr. John E. Burris, President, Beloit College....................   118

Dr. Daniel L. Goroff, Vice President for Academic Affairs; Dean 
  of the Faculty, Harvey Mudd College............................   119

Ms. Margaret Semmer Collins, Assistant Dean of Science, Business, 
  and Computer Technologies, Moraine Valley Community College....   120


UNDERGRADUATE SCIENCE, MATH, AND ENGINEERING EDUCATION: WHAT'S WORKING?

                              ----------                              


                       WEDNESDAY, MARCH 15, 2006

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Bob Inglis 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    Undergraduate Science, Math and

                 Engineering Education: What's Working?

                       wednesday, march 15, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, March 15, 2006, the Research Subcommittee of the 
Committee on Science will hold a hearing to examine how colleges and 
universities are improving their undergraduate science, math, and 
engineering programs and how the Federal Government might help 
encourage and guide the reform of undergraduate science, math, and 
engineering education to improve learning and to attract more students 
to courses in those fields.

2. Witnesses

Dr. Elaine Seymour is the author of Talking About Leaving: Why 
Undergraduates Leave the Sciences and the former Director of 
Ethnography and Evaluation Research at the University of Colorado at 
Boulder.

Dr. Daniel L. Goroff is Vice President and Dean of Faculty at Harvey 
Mudd College. Prior to joining Harvey Mudd, Dr. Goroff was a professor 
of the practice of mathematics and the Assistant Director of the Derek 
Bok Center for Teaching and Learning at Harvard University. Dr. Goroff 
co-directs the Sloan Foundation Scientific and Engineering Workforce 
Project based at the National Bureau of Economic Research.

Dr. John Burris is the President of Beloit College in Wisconsin. Prior 
to his appointment, Dr. Burris served for eight years as Director of 
the Marine Biological Laboratory (MBL) in Woods Hole, Massachusetts, 
and he served for nine years as a Professor of biology at the 
Pennsylvania State University.

Dr. Carl Wieman is a distinguished Professor of physics at the 
University of Colorado at Boulder and the recipient of the 2001 Nobel 
Prize in physics. Using his Nobel award money, Dr. Wieman has launched 
an effort to reform introductory physics. Dr. Wieman currently chairs 
the National Academy of Sciences Board on Science Education.

Ms. Margaret Collins is the Assistant Dean of Science, Business and 
Computer Technology at Moraine Valley Community College in the 
southwest suburbs of Chicago, Illinois.

3. Overarching Questions

        <bullet>  What are the obstacles to recruiting and retaining 
        science, math, and engineering majors and what actions are 
        being taken to overcome them?

        <bullet>  What are the obstacles to implementing reforms in 
        undergraduate science, math, and engineering education?

        <bullet>  What role have federal agencies, particularly the 
        National Science Foundation (NSF), played in improving 
        undergraduate science, math, and engineering education? What 
        more should federal agencies be doing in this area?

4. Background

    Undergraduate education is the first step toward a career in 
science, engineering, or mathematics; it is the primary source of 
education and training for technical workers; and, it is often the last 
time non-majors will take a class in science and mathematics. Yet the 
undergraduate level is also the point at which many students who begin 
college interested in science, math, and engineering decide to move out 
of these fields.

U.S. Competitiveness
    Over the past several years, a number of industry and policy 
organizations have released reports calling for increased investment in 
science and engineering research and increased production of students 
with degrees in scientific and technical fields, including the Council 
on Competitiveness, the National Academy of Sciences, AeA (formerly the 
American Electronics Association), the Business Roundtable, Electronic 
Industries Alliance, National Association of Manufacturers, TechNet, 
and the Association of American Universities. While the companies and 
the industry sectors represented by these organizations varies widely, 
one general recommendation was common to all of the reports: the 
Federal Government needs to strengthen and re-energize investments in 
science and engineering education.
    The National Academy of Sciences, in its report Rising Above The 
Gathering Storm: Energizing and Employing America for a Brighter 
Economic Future, recommended establishing 25,000 new four-year 
scholarships to attract more U.S. undergraduate students to science, 
technology, engineering and mathematics (STEM) fields, and it 
encouraged research universities to offer two-year part-time Master's 
degrees that focus on science and mathematics content and pedagogy. 
Similarly, the Business Roundtable and other industry groups have 
recommended creating scholarships and loan forgiveness programs for 
students who pursue degrees in STEM fields and emphasize the need to 
improve recruitment and retention of STEM majors at undergraduate 
institutions.

Challenges in Undergraduate Education
    The U.S. contains a large and diverse group of institutions of 
higher education. While American graduate education in STEM fields is 
generally considered to be the best in the world, the quality of 
students' undergraduate experiences can be hindered by insufficient 
pre-college preparation, poor college instruction, and high rates of 
attrition among potential STEM majors.
            College Readiness
    Recent results of national assessments of high school science and 
mathematics suggest that few students graduate with the mathematical or 
analytical skills necessary for college-level mathematics or science. 
According to the National Center for Education Statistics, all of the 
Nation's community colleges and most four-year institutions offer 
remedial courses in reading, writing and mathematics. In addition, 
Freshman Norms\1\ trend data also reveals that more than 20 percent of 
first year college students intending to undertake a science or 
engineering major and 10 percent of those in the mathematics report 
that they believe that they will need remedial course work.
---------------------------------------------------------------------------
    \1\ Higher Education Research Institute (HERI), University of 
California at Los Angeles, The American Freshman: National Norms, 2001.
---------------------------------------------------------------------------
    Federal education efforts undertaken in the context of the 2001 No 
Child Left Behind Act are providing greater focus on math and science, 
with annual assessments in mathematics occurring now and assessments in 
science starting in 2007. But many education experts point out that, 
until the quality of STEM education at the elementary and secondary 
levels improves, some students will continue to lack the necessary 
preparation for undergraduate education in STEM fields.
            Attrition
    According to the 2005 Survey of the American Freshman, the longest 
running survey of student attitudes and plans for college, 
approximately one-third of all incoming freshmen have traditionally 
contemplated a major in a science and engineering field, with most 
intending to major in a field of natural or social science and a 
smaller percentage selecting mathematics, the computer sciences, or 
engineering. Yet, half of all students who begin in the physical or 
biological sciences and 60 percent of those in mathematics will drop 
out of these fields by their senior year, compared with the 30 percent 
drop out rate in the humanities and social sciences. The attrition 
rates are even higher for under-represented minorities.
    In research for Talking About Leaving: Why Undergraduates Leave the 
Sciences, the authors determined that the most common reasons offered 
for switching out of a science major included a lack or loss of 
interest in science, belief that another major was more interesting or 
offered a better education, poor science teaching, and an overwhelming 
curriculum. This study reinforced earlier anecdotal evidence that 
suggested that the sciences did a poor job of retaining young talent. 
In addition, and contrary to conventional wisdom that suggested that 
the students who switched out of science majors were somehow less 
academically able, the researchers discovered that those who left were 
among the most qualified students\2\ who had initially expressed the 
greatest interest in pursuing a STEM major.
---------------------------------------------------------------------------
    \2\ Most qualified students were identified by high math SAT scores 
(at least 650) and their high school preparation.
---------------------------------------------------------------------------
    Many researchers, including Stanford economist Paul Romer, believe 
that undergraduate education actively discourages more students from 
majoring in STEM fields or taking additional science or mathematics 
courses. Many colleges and universities have institutionalized a 
process partially designed to ``weed out'' all but the most committed 
students. While some amount of switching is appropriate, and few would 
disagree about the selective nature of many science and engineering 
programs, this ``science-for-the few'' approach seems to reduce the 
number of STEM majors unnecessarily and may be particularly alienating 
to women and under-represented minorities.
    According to Talking About Leaving, most of the concerns of those 
who dropped out of science majors were shared by those who continued in 
science, math, and engineering. The chief complaint, cited by 83 
percent of all respondents, was poor teaching. In the university 
setting, the traditional reward structure for faculty often favors the 
conduct of research over teaching. This can create an environment where 
faculty enthusiasm for and commitment to teaching is limited. As a 
result, undergraduates who take science and mathematics at many 
colleges and universities often find themselves in large lecture halls, 
taught by junior faculty. Student interaction with prominent research 
scientists ranges may be limited, and many of the junior faculty and 
teaching assistants may not be trained or motivated to teach well. Some 
may even be discouraged from expressing an interest in teaching or 
mentoring undergraduates.
    In addition to these problems with courses for STEM majors, many 
introductory courses for non-majors fail to foster scientific 
understanding among the non-science majors. Without a broader context, 
many students never understand the process of science or the content of 
the subject matter. According to research in the Journal of College 
Science Teaching, this narrow approach to STEM courses alienates non-
majors who graduate with the perception that science is difficult, 
boring, and irrelevant to their everyday interests.

Undergraduate Reforms
    Individual faculty, departments, professional societies, and 
institutions of higher education are increasingly involved in reform 
efforts to enhance STEM curriculum and improve undergraduate teaching. 
Many of these reforms include the reexamination and restructuring of 
introductory and lower level courses to benefit both those who go on to 
careers as STEM professionals and teachers, as well as the vast 
majority who do not plan to become STEM majors.
    The new goal of ``science-for-all'' seeks to provide opportunities 
for students of all backgrounds and interests to study science as 
practiced by scientists. Some faculty are trying to supplement lectures 
with discussion, small group work on a question or problem, and other 
short activities that are designed to break up the session and engage 
students in understanding and applying class materials. The new 
approaches attempt to present students with a coherent structure of 
general concepts that are established by experiment and to lead 
students to use problem-solving approaches that are applicable to a 
wide variety of situations--something that is typically experienced 
only in upper level courses. In addition, some colleges and 
universities are reexamining their incentive structures to encourage 
faculty to teach or mentor undergraduates and to ensure that 
introductory courses are taught by experienced faculty.

Federal Support for Undergraduate Education
    The National Science Foundation (NSF) has historically been the 
primary federal agency to provide support for undergraduate education 
in STEM fields. In 1987, the National Science Board released a report 
on Undergraduate Science, Mathematics, and Engineering Education, 
better known as the ``Neal Report'' \3\ after its chairman, Homer Neal 
of the University of Michigan. The Neal Report urged NSF to increase 
its investment in undergraduate education, and particularly to offer 
programs to involve undergraduate faculty and students in research 
activities.
---------------------------------------------------------------------------
    \3\ Undergraduate Science, Mathematics and Engineering Education, 
National Science Board, 1986.
---------------------------------------------------------------------------
            NSF Undergraduate Education
    NSF primarily funds undergraduate STEM education programs through 
its Division of Undergraduate Education (DUE). Funding for DUE programs 
at NSF has declined each year since fiscal year 2004 (FY04). FY06 
funding for DUE totaled $211 million, and the FY07 budget request is 
$196 million.
    Several NSF programs in undergraduate education were created or 
expanded by the National Science Foundation Authorization Act of 2002. 
This Act established the Science, Technology, Engineering, and 
Mathematics Talent Expansion Program (STEP) to increase the number of 
U.S. students majoring in STEM fields. Specifically, STEP provides 
funding and rewards to colleges and universities that develop creative 
and effective recruitment and retention strategies that bring more 
students into science, mathematics, and engineering programs. The FY06 
appropriation for STEP was $25.5 million; the request for FY07 is $26 
million.
    The Act also strengthened and expanded the Advanced Technological 
Education (ATE) program, which aims to expand the pool of skilled 
technicians in the U.S. by providing support to community colleges. 
Specifically, ATE supports curriculum development; professional 
development of college faculty and secondary school teachers; and 
efforts to align curricula to allow easy transition from high school to 
community colleges and community colleges to four year colleges and 
universities. The FY06 appropriation for ATE was $45 million; the 
request for FY07 is $46 million.
    A third major program in DUE is the Course, Curriculum and 
Laboratory Improvement Program (CCLI). This program supports efforts to 
create new learning materials and teaching strategies, develop faculty 
expertise, implement educational innovations, assess learning and 
evaluate innovations, and conduct research on STEM teaching and 
learning. Funding for this program has declined in the past two years, 
falling from $94 million in FY05 to $88 million in FY06. The FY07 
request is $86 million.
            Other Undergraduate Support at NSF
    In addition to the DUE programs described above, the Division of 
Human Resource Development (HRD) at NSF supports programs to increase 
the participation of under-represented students in science at all 
levels. Undergraduate programs in HRD include the Louis Stokes 
Alliances for Minority Participation Program ($35 million in FY06, $40 
million requested in FY07), the Historically Black Colleges and 
Universities Undergraduate Program ($25 million in FY06, $30 million 
requested in FY07), and the Tribal Colleges and Universities Program 
($9 million in FY06, $12 million requested in FY07).
    Through its Research Experiences for Undergraduates program, which 
is run through NSF's research directorates, NSF supports active 
participation by undergraduates in research funded by NSF. Under this 
program, undergraduate students are associated with a specific research 
project, where they work closely with faculty and other researchers, 
and are granted stipends and, in many cases, assistance with housing 
and travel. (The research work can take place at a student's home 
institution or elsewhere, usually during the summer.)
            Support for Undergraduate STEM Education at Other Agencies
    While the U.S. Department of Education (ED) supports programs to 
strengthen undergraduate education, most are targeted to particular 
institutions and most are not STEM specific. For instance, ED supports 
several programs to build the capacity of Historically Black Colleges 
and Universities, Tribal Colleges, and other minority serving 
institutions, but funds may be used for a variety of purposes so it is 
difficult to determine what, if any, portion funds STEM reform. Outside 
NSF and ED, federal science agencies, including the U.S. Department of 
Energy and the National Aeronautics and Space Administration, provide 
opportunity for undergraduates to participate in research experiences 
at their facilities.

Legislation
    While this hearing is not designed to focus on any specific 
legislation, it is worth noting that several bills have been introduced 
to strengthen STEM education in response to the various reports and 
commissions on U.S. competitiveness. Most of these bills seek to 
address the undergraduate recruitment challenge. Specifically, S. 2109 
and H.R. 4654, the National Innovation Act, expand NSF's STEM Talent 
Expansion Program from $35 million in FY07 to $150 million in FY11. S. 
2198, Protecting America's Competitive Edge (PACE) Act, awards 
scholarships to students majoring in STEM education who concurrently 
pursue their teacher certification, and H.R. 4434, introduced by 
Congressman Bart Gordon, implements the recommendations of the National 
Academy of Sciences' Rising Above the Gathering Storm report. S. 2197, 
PACE-Energy, also includes undergraduate education provisions, such as 
a scholarship program for students in STEM fields and the creation of a 
part-time, three-year Master's degree in math and science for teachers, 
but the programs are administered by the Department of Energy--not NSF.

5. Questions for Witnesses

    The panelists were asked to address the following questions in 
their testimony before the Committee:
Dr. Elaine Seymour:

        <bullet>  What has your research shown about why potential 
        science majors drop out of undergraduate science programs?

        <bullet>  What changes in undergraduate science education could 
        prevent capable students from leaving science disciplines and 
        perhaps also attract students initially not interested in 
        science? What are the principle obstacles to implementing these 
        changes?

        <bullet>  What role have federal agencies, particularly the 
        National Science Foundation, played in improving undergraduate 
        science education? What more should federal agencies be doing 
        in this area?

Dr. Daniel L. Goroff:

        <bullet>  What obstacles have you encountered at Harvey Mudd 
        College and Harvard University in recruiting and retaining STEM 
        majors and what actions have you taken to overcome them? How 
        are you measuring the effectiveness of those actions?

        <bullet>  What are the obstacles to implementing similar 
        improvements at other institutions of higher education?

        <bullet>  What role have federal agencies, particularly the 
        National Science Foundation (NSF), played in improving 
        undergraduate STEM education? What more should federal agencies 
        be doing in this area?

Dr. John Burris:

        <bullet>  What obstacles have you encountered at Beloit College 
        in recruiting and retaining STEM majors and what actions has 
        Beloit College taken to overcome them? How are you measuring 
        the effectiveness of those actions?

        <bullet>  What are the obstacles to implementing similar 
        improvements at other institutions of higher education?

        <bullet>  What role have federal agencies, particularly the 
        National Science Foundation (NSF), played in improving 
        undergraduate STEM education? What more should federal agencies 
        be doing in this area?

Dr. Carl Wieman:

        <bullet>  What obstacles have you encountered at the University 
        of Colorado in recruiting and retaining physics majors and what 
        actions have you taken to overcome them? How are you measuring 
        the effectiveness of those actions?

        <bullet>  How would your experience apply to other institutions 
        of higher education or to other fields of science?

        <bullet>  What role have federal agencies, particularly the 
        National Science Foundation (NSF), played in improving 
        undergraduate STEM education? What more should federal agencies 
        be doing in this area?

Ms. Margaret Collins:

        <bullet>  What obstacles have you encountered at Moraine Valley 
        Community College in recruiting and retaining STEM majors? What 
        actions has Moraine Valley Community College taken to overcome 
        them? How are you measuring the effectiveness of those actions?

        <bullet>  What are the obstacles to implementing similar 
        improvements at other institutions of higher education?

        <bullet>  What role have federal agencies, particularly the 
        National Science Foundation, played in improving undergraduate 
        STEM education? What more should federal agencies be doing in 
        this area?
    Chairman Inglis. Good morning. The Subcommittee will come 
to order.
    Before we begin, I would like to ask unanimous consent that 
Mr. Ehlers and Mr. Udall, who are not Members of the 
Subcommittee, be allowed to participate in today's hearing. 
Without objection, so ordered.
    And I recognize myself for an opening statement.
    And thank you to the panel for coming to share some 
thoughts about STEM education. It is crucial for us, as a 
nation, to figure out how to continue to lead in technology, 
and certainly the basis of that is an effective educational 
system.
    I had an opportunity to hear some challenging remarks from 
David McCullough, the author of one of my favorite books, 
``John Adams,'' and I am listening now to 1776. David 
McCullough said something very interesting to a group of House 
Members, and Mr. Udall may have been there. He said, ``We 
should eliminate the departments of education at colleges and 
universities.'' He said that we shouldn't have people that have 
education degrees teaching. ``We should have experts teaching 
in their fields.'' His point of view was that historians should 
teach history, not education majors. It is a very interesting 
and provocative thought. He congratulated some work being done 
at, I believe, the University of Oklahoma that is headed in 
that direction, and it starts to sound promising, because, you 
know, when you think of it, when I was in high school, if I had 
been taught by somebody who loved math, passionate about math, 
and understood the interconnectivity of math principles, 
perhaps I might have caught the math bug. If I had been taught 
by somebody in science that really loved the subject matter, 
perhaps I might have caught the bug. As it was, my most 
memorable teachers were word teachers, English teachers who 
loved English, and the result was I headed more toward words 
than to formulas.
    Now that has to be balanced. David McCullough's view has to 
be balanced with another observation. And this I have heard 
from visiting with research facilities at USC, University of 
South Carolina and Clemson University, for example, where the 
feedback that I have heard from some students is the teacher, 
the professor is just boring, as dull as a doornail, cannot 
teach, cannot inspire, cannot hold anybody's interest, and in 
some cases, a very difficult question has been raised, ``I 
can't understand what he or she is saying.'' Now English is a 
second language for them, and they say ``I literally cannot 
understand what they are saying in class.''
    Now that being the case, it seems that there is need for 
balance somewhere between David McCullough's point of view, 
which is only scientists should teach science, and the 
observation that if you don't understand education methods, 
maybe you can't really teach. And so, as always in life, there 
is a need for balance.
    I hope that that is part of what we get at here at this 
hearing today. And it seems to me, it goes to one of the 
challenges we have got, which is how do you keep students 
involved in math and science? How do you capture their 
imagination? I am a lawyer, and one of the things that I have 
observed about legal education is that it is pretty interesting 
because most law is based on cases, and instruction of the law 
is based on cases. Well, cases are really stories, a story of 
how Mrs. Pfaltzgraff was standing by the railroad track and 
something happened and the clock hit her in the noggin, and she 
sued the railroad company, as I recall. I hope my professor 
from law school isn't here and remembering that I--realizing 
that I don't remember all of the facts of that case, but it is 
something like that. There is a story.
    It seems to me, one of the challenges of science education, 
math education, engineering is making it that interesting. 
Recently, we on the Science Committee, had an opportunity to go 
to Antarctica. Yesterday, I was writing a thank-you note to one 
of the presenters down there. Truly a master teacher. The 
fellow held our interest for at least an hour, and really we 
would have begged him to go on, because he truly was a master 
teacher. He would ask--he would answer questions, but quickly 
get back to the subject that he wanted to talk about. He just 
did a masterful job. If I had had such a teacher in math and 
science, perhaps I would have continued on and not fallen into 
the dark side of the law.
    But those are--I hope we get into that. I hope we figure--
we hear some thoughts today about how we captivate the 
imagination and stimulate the interest of our students. And I 
thank the panel for joining us today.
    Mr. Udall is voting in a committee. This is going to be a 
challenge today. We need a scientific breakthrough on having 
people in two places at once, and hopefully that is going to 
happen, because just as Mr. Udall is out now voting, I have a 
markup in the Judiciary Committee downstairs, so occasionally, 
I am going to be running from this room, literally, downstairs 
three floors to vote in that committee and then coming back.
    So--but we do have Mr. Rohrabacher here, and I would be 
happy to yield to the gentleman from California for an opening 
statement.
    [The prepared statement of Chairman Inglis follows:]

               Prepared Statement of Chairman Bob Inglis

    Good morning. Today's hearing on ``Undergraduate Science, Math, and 
Engineering Education: What's Working'' may be one of the most 
important hearings this subcommittee has this year and one in which I 
take a particular interest. I firmly believe that if we are to remain 
the world's leader in innovation and technology, we must provide our 
children--at all ages--with the education and tools necessary to excel 
in math and science, and we must make sure that those entrusted with 
teaching them possess not just the knowledge but the enthusiasm to 
inspire and stimulate them to excel in math and science. This is 
imperative if we are to sustain a strong and competitive science, 
technology, engineering and math (STEM) workforce capable of solving 
the known challenges of today and carrying us beyond the unknown 
challenges of tomorrow.
    Recently, I had the privilege of accompanying National Science 
Foundation (NSF) Director Arden Bement to Mauldin Elementary School in 
my district. We witnessed a wonderful class project called ``A World in 
Motion,'' which was originally funded by the NSF through a grant to the 
Society of Automotive Engineers. We watched fifth graders race small 
cars propelled by balloons that they had designed, built and studied. 
We heard their stories of the trials and tribulations they experienced 
while trying to build the car that would travel the fastest and the 
straightest. This was not just a project to see whose car looked the 
coolest. No, they had to learn how to measure speed and distance and 
figure out what aerodynamics would be best. Needless to say, watching 
these children with their science project made me ponder the question, 
``How do we as a nation continue to capture the science and math 
imagination and enthusiasm of these students as they continue their 
education?'' For those who seemed really fired up and excited about 
what they were learning. . .and you could see it in their eyes. . .how 
do we keep that passion and motivation going to produce our next 
generation of scientists, mathematicians and engineers?
    Granted, there are several hearings we could hold to examine the 
pros and cons of what we're doing along the K-12 path. The purpose of 
today's hearing, however, is to explore what is happening at the 
undergraduate level for those students who enter college enthusiastic 
about pursing a STEM degree and for those non-majors who would still 
benefit tremendously from a better background in math and science 
education. As we hear from our witnesses on how our colleges and 
universities are improving undergraduate STEM programs, we will 
hopefully be able to determine how the Federal Government might help 
further encourage and guide the reform of undergraduate STEM education 
to improve learning and to attract more students to courses and careers 
in the STEM fields.
    While exact numbers tend to differ, all of the recent studies and 
reports that have recently been released suggest that the U.S. is being 
outpaced by China and India in terms of degrees granted in science and 
engineering. If we are to remain competitive, we must reverse this 
trend. To do so, we need to tackle several impediments that are 
affecting our ability to attract and retain students in STEM fields, 
primarily insufficient pre-college preparation, poor college 
instruction, and high rates of attrition.
    Certainly, NSF, the primary federal agency tasked with providing 
support for undergraduate STEM education--and STEM education in general 
for that matter--is working hard to overcome these challenges. Other 
agencies, including the Departments of Education and Energy as well as 
NASA also have important roles to play. We need to make sure that they 
are coordinating their education efforts to ensure that this nation is 
poised for a new generation of innovative progress and prosperity, but 
that is a topic for another day and another hearing to be held later 
this month.
    Not long ago, I read an intriguing article by a former chemical 
engineering major who left his course of study ``in shame and disgust 
to pursue the softer pleasures of a liberal arts education.'' I'll 
submit the entire Tech Central Station article, ``Confessions of an 
Engineering Washout,'' by Douglas Kern for the record, but want to 
kick-off the hearing with his telling admonition:

         If you want more engineers in the United States, you must find 
        a way for America's engineering programs to retain students 
        like, well, me: people smart enough to do the math and 
        motivated enough to at least take a bite at the engineering 
        apple, but turned off by the overwhelming course work, low 
        grades, and abysmal teaching. Find a way to teach engineering 
        to verbally oriented students who can't learn math by sense of 
        smell. Demand from (and give to) students an actual mastery of 
        the material, rather than relying on bogus on-the-curve pseudo-
        grades that hinge upon the amount of partial credit that bored 
        T.A.s choose to dole out. Write textbooks that are more than 
        just glorified problem set manuals.
    I think he makes some valid points.
    With that, I'd like to welcome our distinguished witnesses. I look 
forward to hearing from them on the strides they are making to improve 
undergraduate STEM education in the U.S., and I turn to the senior 
Democratic Member, Mr. Udall, for any opening statement he may wish to 
make.

    Mr. Rohrabacher. All right. Thank you, Mr. Chairman.
    And let me just note that I, too, am going to be running 
off, because I have a markup in my committee, in my 
International Relations Committee, where I am Senior Member, in 
which we are marking up a bill dealing with one of the greatest 
challenges we have for our country today, and that is a 
relationship with Iran. However, I am leaving a hearing that I 
believe is focusing on what America's greatest challenge to our 
future is, our total future, and that is making sure that we 
are equipped to compete in the world of the--of tomorrow by 
making sure that our children are properly educated in math and 
science and engineering.
    I would just like to make a couple thoughts for the record. 
And we had a discussion on this subject somewhat about a month 
ago. And I mentioned that we need to pay young people and other 
employees who are--have an expertise in math and science and 
engineering need to pay them better, and that is a way, 
perhaps, to attract more young people into the professions. And 
I got a lot of flack for that, Mr. Chairman. I mean, to me, it 
is a no-brainer, but I just got a lot of flack for saying that. 
But the kids who look and see that the lawyers all have the 
good--nice-looking cars and the big houses and maybe a very 
smart young person then decides to go into law rather than into 
engineering. I can understand that.
    Well, let me just note that I see cost and compensation as 
being major factors in this discussion. And cost is what we 
need to bring down the cost for young people who want to get 
degrees in math, science, and engineering so when they leave 
their school they don't end up with a mountain of debt which 
they are not then hired by some law firm to take care of that 
debt, because now it is--they are on their own where math and 
engineering students from overseas, who are here taking 
advantage of our graduate programs especially, are sponsored by 
their own government, and they end up in no debt at all where 
our students end up entirely in debt, and they are almost 
indentured servants for five or 10 years of their life. That 
needs to be addressed. And my--I have some legislation aimed 
at--well, at least providing full scholarships provided by 
every department of government that uses an engineer or a 
scientist or a mathematician to provide scholarships designed 
to--then they--the student could pay it back by working for 
that government agency, which is a thought that I would like to 
discuss with the panel.
    Second, we do not compensate our teachers in mathematics, 
science, and engineering at a different scale than we 
compensate the people who teach basket weaving and self-
fulfillment and perhaps things of--and I will tell you, no 
wonder somebody who is a scientist or someone who is an 
engineer is not going to be attracted to teaching if, indeed, 
his compensation--his or her compensation level is no more than 
somebody who basically has the skills that I was talking about. 
I am not degrading basket weaving or home economics or anything 
like that, but perhaps we need the engineers and more skilled 
people in our schools, and we need to compensate them for it.
    Finally, let me note this. When we talk about compensation, 
we have--I have had many a panel here talking about this 
problem, and I have seen this over the last--I have been a 
Member of the Science Committee now for 18 years. But you have 
these same businessmen who come here talking about the need of, 
you know, attracting our young people into these fields, and 
they are the same companies that come here lobbying us for 
massive numbers of H-1B Visas so that we can bring in people 
from overseas with these skills. And let me tell you what 
happens when you bring hundreds of thousands--we are talking 
about hundreds of thousands of engineers and mathematicians 
enter into this country over and above what our regular quota 
is for immigration. What it does is bid down wages. What it 
does, Mr. Chairman, is mean that the compensation of these 
young people, American young people, can expect is now lower 
because companies now can hire some fine young person from 
India or Pakistan or wherever to do that job at half the wage 
that they would have to pay an American to do it.
    All of these things are impacting on these--on us and 
trying to solve this problem. And I would suggest again that 
the way to make sure that we have more young people who are 
intelligent young people, because, after all, there is a 
certain level of intelligence that you go into various fields, 
but we would like young people to go into engineering and math 
and science, and the best way to do that, Mr. Chairman, is to 
make sure you pay them more money. And we shouldn't be ashamed 
of that. We live in a capitalist society, and--but we have to 
do it based on all of these factors, making sure they are not 
in debt when they get through school and making sure we don't 
bid down their wages by bringing in hundreds of thousands of 
people from overseas in order to make sure that there is less 
money in their income.
    With that, I appreciate my--you letting me have my say, and 
I will stay as long as I can, but I do have to handle this 
Iranian crisis, which is on us today, which I might add was 
created by engineers who are building nuclear power plants for 
a moolah-driven regime in Iran.
    So with that said, that is it.
    Thank you.
    Chairman Inglis. Thank you, Mr. Rohrabacher.
    I--you will be hearing from the Basket Weaver Association 
later.
    It is like the time I was on the Floor and said something 
about used car salesmen and then got calls from around the 
country.
    Mr. Udall will be back momentarily, and when he comes back, 
we will recognize him for an opening statement.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Thank you, Mr. Chairman and Ranking Member.
    Education in science, technology, engineering and mathematics, also 
called STEM, has long been a passion of mine.
    As former Ranking Member of the Research Subcommittee, I know the 
importance of STEM education and the prosperity and job security it can 
bring to our communities.
    My home State of Texas is investing heavily in nanotechnology 
industry development and in other high-tech ventures. We need domestic 
talent to fill future jobs in these areas.
    I would like to make the case of the critical importance of 
attracting ethnic minorities to STEM careers. My district is a 
``majority-minority'' area, meaning we have more minorities than any 
other ethnic group.
    I am interested what today's witnesses will tell us about how to 
captivate students' attention for STEM from a young age and hold their 
attention throughout middle school, high school, college and graduate 
school.
    STEM careers often require advanced education, hard work and 
personal sacrifice.
    How can we persuade kids to make a lifelong commitment to a STEM 
career when they are mired with student loans, academic positions are 
scarce and those that are open are quickly filled by individuals coming 
from outside the U.S.?
    Major policy changes at every level will be needed. It is my hope 
that today's hearing can help legislators uncover the greatest leverage 
points to encourage participation in STEM careers and thus drive our 
economy forward.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    I am pleased to join the Chairman in welcoming our witnesses to 
today's hearing on exploring ways to improve undergraduate science, 
technology, engineering and math education--or STEM education, for 
short.
    I would like to specifically welcome Dr. Weiman and Dr. Seymour 
that both have ties within my district at the University of Colorado. 
As many here know, Dr. Weiman won the Nobel Prize in Physics in 2001. 
However, what is most relevant to this hearing is how Dr. Weiman has 
leveraged this Prize to focus on improving undergraduate physics 
education. I hope Dr. Weiman will share with the Committee some of what 
he is doing in this area.
    Dr. Seymour, the former Director of the Ethnography and Evaluation 
Research at the University of Colorado, is also joining us today. She 
is the author of Talking About Leaving: Why Undergraduates Leave the 
Sciences. This book evaluates why students are attracted to STEM fields 
and what causes them to switch fields of study. It also highlights the 
interaction of students with faculty.
    I would like to again welcome both of you, and all of our witnesses 
for coming to discuss this important topic.
    I see this hearing as addressing two important issues: how do we 
attract and retain students in associate and baccalaureate degree 
programs in STEM fields, and how do we ensure that all undergraduate 
students receive a quality educational experience in their STEM 
courses, regardless of the career path they choose.
    Policy discussions of undergraduate STEM education tend to focus on 
numbers--are we producing too few scientists and engineers; are other 
countries out-producing us; can we stay competitive unless we greatly 
increase production?
    Well, I certainly agree we must be sure that we are meeting the 
needs of the private sector and government for STEM graduates, and 
there is considerable evidence that we are doing so at present.
    I believe the key issue is not only numbers but also the quality of 
STEM graduates and the capabilities they develop during their post-
secondary education.
    Project Kaleidoscope, which has been working for 10 years or more 
to improve undergraduate STEM education, recently released a report, 
``Recommendations for Urgent Action,'' that lays out the questions we 
should ask in assessing whether STEM education is meeting the 
competitiveness challenge:

         What are the characteristics of a successful innovator? What 
        are the characteristics of a life-long learner? What are the 
        characteristics of a contributing and productive participant in 
        the 21st century workforce?

    The answers to these questions should inform STEM educational 
goals, the kinds of STEM courses offered, and the teaching styles and 
approaches used in undergraduate education.
    Ultimately, the United States cannot out-produce the world in the 
number of new science and engineering graduates. Rather, we must ensure 
that our educational system produces graduates with capabilities that 
set them apart, so that they become successful innovators, life-long 
learners, and productive members of the Nation's workforce.
    Today, we will hear from those who are engaged in undergraduate 
education in a range of educational settings--two-year colleges, 
primarily undergraduate colleges, and research universities.
    I am interested in the witnesses' assessment of the current state 
of undergraduate science education and in their experiences regarding 
efforts to make improvements.
    The basic questions today are what works, and what are the 
conditions necessary for success? I hope to hear what barriers and 
impediments exist in improving undergraduate STEM education, and in 
particular, what kinds of federal programs have proven to be helpful--
or not helpful--in bringing about reform.
    Naturally, the Subcommittee would be interested in your comments on 
the value of NSF-sponsored programs, and on any recommendations you may 
have for ways to improve the recruitment and retention of students in 
the science degree track.
    I believe a major goal of efforts to improve undergraduate STEM 
education must be to institute policies and programs that will tap the 
human resource potential of individuals from groups under-represented 
in science and technology.
    Simple demographic trends make clear the importance of increasing 
participation rates of women and minorities in meeting workforce needs 
of the future.
    This is particularly true for attracting individuals to careers in 
the physical science and engineering. I know some of our witnesses have 
been engaged in programs that address this issue, and I look forward to 
learning more about them.
    Mr. Chairman, I want to thank you for convening this hearing on 
this important subject. I appreciate the attendance of our witnesses 
today and I look forward to our discussion.

    Chairman Inglis. In the meantime, let me go ahead and 
introduce our panel. Mr. Udall may, in the course of his 
remarks, want to introduce two folks from Colorado, but first, 
we have Dr. Elaine Seymour, the author of ``Talking About 
Leaving: Why Undergraduates Leave the Sciences.'' She is a 
former Director of Ethnography and Evaluation Research at the 
University of Colorado at Boulder.
    Dr. Carl Wieman is a Distinguished Professor of Physics at 
the University of Colorado at Boulder and recipient of the 2001 
Nobel Prize in Physics. Using his Nobel award, Dr. Wieman has 
launched an effort to reform introductory physics. He currently 
chairs the National Academy of Sciences Board on Science 
Education.
    Dr. John Burris is the President of Beloit College in 
Wisconsin. Prior to his appointment, Dr. Burris served for 
eight years as Director of Marine Biology--let me try that 
again, Director of Marine Biological Laboratory in Woods Hole, 
Massachusetts, and he served for nine years as professor of 
biology at Pennsylvania State University.
    Dr. Daniel Goroff is the Vice President and Dean of Faculty 
at Harvey Mudd College. Prior to joining Harvey Mudd, Dr. 
Goroff was a professor of the practice of mathematics and the 
Assistant Director of the Derek Bok Center for Teaching and 
Learning at Harvard University. He co-directs the Sloan 
Foundation Scientific and Engineering Workforce Project based 
at the National Bureau of Economic Research.
    Ms. Margaret Collins is the Assistant Dean of Science, 
Business, and Computer Technology at Moraine Valley Community 
College in the southwest suburbs of Chicago, Illinois.
    And when my colleague, Dan Lipinski, gets here--he is 
testifying at an Energy and Commerce Committee Subcommittee 
meeting, when he gets here, we will get a more full 
introduction of Ms. Collins by Mr. Lipinski.
    So we generally recognize witnesses for five minutes, and 
then we will look forward to the time of questions and further 
comments from you and answers as we move beyond the testimony.
    So, Dr. Seymour, if you would like to begin.

   STATEMENT OF DR. ELAINE SEYMOUR, AUTHOR, ``TALKING ABOUT 
   LEAVING: WHY UNDERGRADUATES LEAVE THE SCIENCES;'' FORMER 
DIRECTOR OF ETHNOGRAPHY AND EVALUATION RESEARCH, UNIVERSITY OF 
                      COLORADO AT BOULDER

    Dr. Seymour. Thank you very much for inviting me, Chairman 
Inglis. I appreciate this. It is a great honor.
    In my written testimony, I structured my response in the 
following way.
    First of all, I said something about factors, which, in my 
view, are shaping the problem that we have, and then the 
consequences for current and future STEM undergraduates, and 
then something about strategies, which I think will make a 
difference, some of these are underway, some of these are 
needed, and then some caveats.
    What I think is underlying the problem we face is a 
historic decline in the perceived value of teaching. It has 
general relevance in the population, but it is particularly 
salient as part of the professional role of STEM faculty, where 
it has suffered over the last half-century with respect to the 
dominance of research. We noted it, in particular, in our book, 
``Talking About Leaving,'' in the decline in the number of 
seniors who were interested in entering K-12 science and math 
teaching which dropped from 20 percent to less than seven 
percent by senior year over the course of our study. And most 
interesting, they--the seniors described their faculty as 
discouraging students from entering K-12 math and science 
teaching. And the students who decided to go on did not 
disclose their intention, normally, to faculty, because they 
feared that faculty would take them less seriously.
    Now this problem creates, I think, an imbalance in our 
science structures. First of all, we have a salary structure in 
STEM faculty which is disproportionate to teaching effort. We 
have a reward structure for tenure and promotion such that 
research achievements are more stringently defined than 
teaching or service work, and teaching and the scholarship of 
teaching are barely developed or acknowledged.
    The consequences are certainly seen in our work that the 
most serious problem spoken about both by people who field-
switched out of the sciences and those who persisted amongst 
well-qualified students, whom we interviewed on seven different 
campuses, was that poor learning experiences were their most 
common problem. So for both groups, this was the main issue. Of 
the 23 issues that they raised, this was the most common issue.
    This problem has not gone on unnoted amongst the many, many 
reports that we have seen over the last few years--that the 
quality of undergraduate STEM education has declined and is 
declining.
    The second consequence, I think, shows in the inadequate 
preparation of teaching assistants who become young faculty, 
which then contributes significantly to poor quality 
undergraduate learning experiences, both now and when they 
become faculty. And we have a terrible shortage of good 
programs for training TAs, and they tend to be short 
orientations not specific to the discipline or the course. They 
do not significantly ground TAs in learning research and the 
knowledge and the practices that derive from this. And 
unfortunately, the STEM TAs seem the least likely to receive 
appropriate preparation. I have reviewed all of this evidence 
in our latest book ``Partners in Innovation,'' which is about 
TAs.
    Thirdly, we have serious limitations in the K-12 math and 
science teaching force. It takes the form both of a serious and 
growing shortfall of disciplined, qualified math and science 
teachers in our middle and high schools, and in the quality of 
those teachers.
    I have offered you, in the testimony, some of this 
evidence. We have vacancies in science and mathematics that we 
simply cannot fill. And in the latest report of the National 
Academy of Sciences' ``Gathering Storm,'' 59 percent of middle 
school students have math teachers who lack even a math 
education major. We saw this in our own book that just about 
the same numbers of switchers and persisters in the STEM majors 
struggled with under-preparation from the deficiencies of their 
math and science education in schools. The TAs, as I mentioned 
earlier, also endorsed this situation, over two-thirds of the 
TAs in our 2005 study, and those in another study done at the 
University of Nebraska (i.e., the same proportion) reported 
that students arrived under-prepared in the fundamental 
knowledge and skills needed to perform adequately.
    The strategies that I have outlined in my testimony focus 
largely on professional development based on methods grounded 
in research about how students learn. And the groups who are, 
in my view, in need of professional development are current and 
future K-12 science and math teachers, they are TAs in STEM 
undergraduate courses, and they are current STEM faculty.
    And matching the faculty incentives and reward system to 
the objectives of an improved education in science for all is 
critical if we are going to succeed in any of these strategies.
    I will conclude my remarks at this point.
    [The prepared statement of Dr. Seymour follows:]

                  Prepared Statement of Elaine Seymour

    The Research Subcommittee has asked me to address the following 
questions:

        <bullet>  What has your research shown about why potential 
        science majors drop out of undergraduate science programs?

        <bullet>  What changes in undergraduate science education could 
        prevent capable students from leaving science disciplines and 
        perhaps also attract students initially not interested in 
        science? What are the principle obstacles to implementing these 
        changes?

        <bullet>  What role have federal agencies, particularly the 
        National Science Foundation, played in improving undergraduate 
        science education? What more should federal agencies be doing 
        in this area?

    On the basis of my work as a science education researcher and as an 
evaluator of both campus-based and large national initiatives focused 
on improving quality and access in undergraduate science education, I 
offer some answers to these questions under the following headings:

        1.  Factors that shape the quality of undergraduate science, 
        technology, engineering, and mathematics (STEM) education

        2.  Their consequences for current and future STEM 
        undergraduates

        3.  Strategies (both underway and needed) that address current 
        difficulties

        4.  Some caveats: why are some changes difficult to secure

1.  Factors that shape the quality of undergraduate science, 
technology, engineering, and mathematics (STEM) education

    Two inter-related factors--one cultural, the other structural--
underlie the problems with undergraduate science education that have 
been identified over the last two decades. These factors also explain 
some of the difficulties encountered by those who seek to improve STEM 
education, both at the undergraduate and K-12 levels. The first may be 
described as a history of decline in the perceived value of teaching. 
Among STEM faculty, teaching has come to be seen as a far less 
important part of their professional role than research, and STEM 
faculty overall do not encourage K-12 mathematics and science teaching 
as a career for their STEM graduates.
    In our study of why undergraduates leave the sciences (Seymour & 
Hewitt, 1997), we noted that, although almost 20 percent of our student 
sample had seriously considered science or mathematics teaching, this 
dropped to under seven percent in senior year among those who persisted 
in their STEM majors. A major factor in this decline was students' 
awareness that their professors--whose approval and support they sought 
in developing a career path--defined teaching ambitions as ``deviant.'' 
Faculty were commonly believed to withdraw from students who openly 
expressed an interest in K-12 teaching and those who still intended to 
teach become covert about their intentions:

         I think that's ultimately the problem with math and science in 
        this country--we don't value teachers enough. Professors are 
        valued but the high school teachers are not. If you wanna teach 
        science in high school, that's taboo: you're treated as an 
        outcast by the faculty here. (male white switcher)

         I've never discussed it with any of my chemistry professors. 
        For the most part, I've got a feeling of disdain for teaching 
        from them. This is something that they have to do, but they 
        don't really support anyone who wants to do it. Fortunately, I 
        had an incredible chemistry teacher in high school, and I go 
        back and chat with him still. He tells me, You're going to be a 
        good teacher.'' I get more encouragement from him than from 
        anyone on campus. (male white science persister)

    Students who wanted to teach also described discouragement from 
family members and peers who perceived teaching as a career with low 
status, pay, and prospects. Students of color were the only STEM 
seniors who reported encouragement from faculty and advisors to become 
K-12 teachers.
    With respect to faculty's own work, the balance of status and 
rewards has, over time, tipped heavily towards research and away from 
teaching. Although lecturing has historically been the dominant mode of 
instruction, it was traditionally supported by various forms of 
interactive small group teaching such as tutorials and seminars, and by 
advising and mentoring of students on an individual basis. The pressure 
to spend more time on research has led to the dwindling of these 
interactive teaching functions among faculty, and their placement in 
the hands of (largely untrained) teaching assistants (TAs). Thus 
``straight lecturing'' (often in classes of several hundred students) 
has increasingly become faculty's main or sole mode of teaching.
    This trend has its roots in the 1950's and '60's with a progressive 
shift from private to public funding for university research. The 
Federal Government offered increasing funds to carry out large-scale 
basic research and projects with both military and industrial/
commercial relevance (Kevles, 1979; Fusfield, 1986). Professional 
success in academe is now clearly defined in terms of research grant 
writing and publication. This imbalance is reflected in the 
departmental and institutional rewards systems for tenure and promotion 
in which research achievements both outweigh and are more stringently 
defined than teaching or service work. While the scholarship of 
teaching is a lively and growing area of intellectual dialogue on 
campuses nationwide, its application to criteria for faculty rewards is 
barely developed and under-acknowledged (Boyer, 1990). The main 
mechanism by which teaching effectiveness is judged, namely student 
course evaluation surveys administered by institutions, are widely 
acknowledged to be poor measures of teaching performance and even 
poorer measures of student learning gains (Kulik, 2001).
    The consequences of this situation have not gone unnoticed. 
Concerns about the quality of STEM undergraduate education have been 
raised in a number of reports, notably, those of the National Science 
Foundation (Shaping the Future, 1996), the National Research Council/
the National Academy of Sciences: Transforming Undergraduate Education 
(1999), Improving Undergraduate Instruction in Science, Technology, 
Engineering, and Mathematics (2003), and, most recently, Rising above 
the Gathering Storm (2005). There has also been a rising demand for 
course assessment tools that more accurately reflect student learning 
(Hunt & Peligrino, 2002) by accreditation boards (and others) who no 
longer view grades given by faculty as acceptable evidence of student 
learning. State legislatures have also expressed concerns about the 
quality of undergraduate education (e.g., Colorado Governor, Bill 
Owens' State of the State address, January 2006) and departments are 
increasingly called upon to define objectives for student learning and 
demonstrate their attainment (Wergin, 2005; Peterson and Einarson, 
2001).
    Although many STEM faculty are currently seeking to improve the 
effectiveness of their teaching and to develop more accurate ways to 
assess their students' learning, they do so in the face of deterrents 
in the faculty rewards structure. In our interview studies, pre-tenured 
faculty commonly report that they are strongly counseled by their 
mentors to defer an interest in teaching until after they gain tenure--
often seven or so years into their careers. In our evaluation work for 
two of the five major chemistry initiatives sponsored by the National 
Science Foundation\1\ that have developed and tested modular materials 
and methods for the teaching of undergraduate chemistry, three active 
young faculty contributors to that initiative were denied tenure on the 
grounds of their ``over-focus'' on educational scholarship (Seymour, 
2001). Panelists and participants at the 1998 National Institute of 
Science Education (NISE) Forum on the future of STEM education 
concluded, with regret, that younger faculty should be advised to defer 
their interest in improving their teaching and assessment methods and 
avoid the introduction of education scholarship into their tenure 
portfolios (NISE, 1998).
---------------------------------------------------------------------------
    \1\ The ChemLinks Coalition (``Modular Chemistry: Learning 
chemistry by doing what chemist do'') and the Modular Chemistry 
Consortium, now combined as ``ChemConnections.''

---------------------------------------------------------------------------
2.  Consequences for current and future STEM undergraduates

    The lower value placed on teaching compared with research both in 
STEM faculty attitudes and in academic salary and rewards structures 
has consequences for the quality of both undergraduate and K-12 
education in science and mathematics.

A. STEM undergraduates' problems with their learning experiences

    In Talking About Leaving: Why Undergraduates Leave the Sciences 
(1997), Nancy Hewitt and I discussed our findings from a study of 
field-switching and persistence among well-qualified students (i.e., 
those with SAT mathematics scores of 650 or above) who entered science, 
mathematics and engineering majors in seven institutions of different 
types. Across all seven campuses, we found that reports of poor 
learning experiences were by far the most common complaint both of 
those who switched out of science, mathematics, and engineering majors 
(90 percent) and of graduating seniors in those majors (74 percent).
    Undergraduates' problems with what they referred to as ``poor 
teaching'' ranked first among 23 types of problems with their majors 
identified by graduating seniors in six of the seven institutions. 
Unsatisfactory learning experiences in their science and mathematics 
courses were the primary cause of switchers losing their incoming 
interest in the sciences, and moving into disciplines where they had 
better educational experiences. The students' concerns about how their 
courses were taught focused on the following issues:

        <bullet>  Courses (and the curriculum overall) were over-
        stuffed with material and delivered at too fast a pace for 
        comprehension, reflection, application, or retention;

        <bullet>  Faculty paid insufficient attention to preparing 
        their courses, selecting course content and materials at an 
        appropriate level and depth, or presenting them in a logical 
        sequence;

        <bullet>  Objectives and content of class and lab did not 
        ``fit'' together; students did not perceive the conceptual 
        connections between them; (for example, students commonly 
        reported that they did not know why they were conducting 
        particular lab experiments); and saw lack of coherence between 
        course content and tests, the text, and/or homework;

        <bullet>  Conceptual material was little applied, illustrated, 
        or discussed;

        <bullet>  Curved grading systems disengaged grades from 
        learning and from students' perceptions of mastery; created 
        artificial and demoralizing forms of competition; and made 
        collaborative peer learning difficult;

        <bullet>  Faculty showed or expressed dislike or disinterest in 
        teaching;

        <bullet>  Faculty appeared to distance themselves from first-
        and second-year students, and seemed insufficiently available 
        for help and advice;

        <bullet>  Faculty modes of teaching suggested that they took 
        little responsibility for student learning, such as checking to 
        see if students were understanding class material;

        <bullet>  Faculty did not clarify their learning objectives for 
        students and showed little knowledge of pedagogy other than 
        lecturing;

        <bullet>  Able students became bored by their introductory 
        science courses despite their strong incoming interest in 
        science;

        <bullet>  Many students developed instrumental attitudes 
        towards their STEM education: they focused on grades rather 
        than mastery, cheated to beat the curve, and did not retain 
        content knowledge that they memorized mainly for tests.

    The aspects of introductory classes that discouraged young women 
were different from those that deterred young men from continuing in 
STEM majors (Seymour, 1995; Seymour & Hewitt, 1997). Broadly, features 
of faculty teaching that reflected the weed-out system (such as fast 
pace, work and content overload, harsh competition created by curve 
grading) were far more effective in prompting male students to switch. 
Young women suffered from different aspects of STEM faculty's approach 
to teaching undergraduates: they experienced rapid loss of their 
incoming confidence because they were unable to establish with their 
professors the kind of interactive learning and support they had 
enjoyed with high school teachers. Faculty's failure to encourage them 
was taken as active discouragement. This was compounded in departments 
where hostile treatment from male peers was a daily experience. Able 
women quickly came to doubt whether they belonged in the major, and 
doubts shared with their families provoked more encouragement to switch 
out of the sciences than was experienced by similarly placed male 
peers. The result in our own university was that women were switching 
out of STEM majors with higher Predicted Grade Point Averages (PGPA) 
than the men who persisted in them.
    We concluded that problems with the quality of undergraduate 
education especially in the first and second years were a major 
determinant of the consistently high field-switching rates (40 percent 
to 60 percent) reported for STEM majors in the American Freshman 
studies of the Higher Education Research Institute, UCLA (HERI, 1992). 
The students' descriptions of their experiences and their responses to 
them were also consistent with the view (directly articulated by some 
students) that many faculty disliked teaching, did not value it as a 
professional activity, and lacked incentives to learn how to teach 
effectively:

         About the end of the semester he said, ``I guess by now you've 
        all realized that the university is not for teaching 
        students.'' He put it plain, right out in the open. . ..In 
        effect, he was telling us, ``If you want to succeed here, 
        you're going to have to do it by yourself.'' (male, white, 
        science senior)

    The students also reported experiences with science faculty who 
seemed to enjoy their teaching, took pains to be well organized and 
clear, and who took an active interest in their students. Seniors were, 
however, aware of the research pressures on their professors that 
limited the time and energy they could give to teaching. They were less 
aware of the tenure and rewards system that made it difficult for 
faculty interested in education to improve their pedagogy or that made 
it a highly risky form of activity for pre-tenured faculty.

Some caveats: Students can only describe their classroom problems in 
light of what they know about teaching and learning from current and 
prior experience. For less well-prepared students, their undergraduate 
STEM course experiences often mirror in an extreme form the limitations 
of their high school science learning experiences. These are 
characterized by passive reception of information (rather than active 
engagement with ideas), minimalist attitudes to reading and writing, 
formulaic approaches to learning focused on memorization rather than 
conceptual grasp, and carrying out tasks rather than thinking. Students 
also lack a conceptual framework based in cognitive science research to 
explain why the pedagogy they have experienced does not enable their 
learning. Most students in the study simply did not know what other 
modes of teaching and learning might be available and regarded the 
lecture format and curved grading systems as inevitable parts of 
undergraduate life. Lack of knowledge of what alternative pedagogical 
methods would entail helps to explain a certain amount of student 
resistance to the introduction of new pedagogies. When faculty begin to 
address the problems students identify by teaching in ways that require 
more active student engagement and responsibility, students often 
resist these unfamiliar, more demanding pedagogies--at least initially. 
Better the devil you know. . ..
    How some STEM faculty have responded to their students' learning 
problems that they also have recognized is discussed in the next 
section.

B. The lower level of importance that faculty assign to their teaching 
role (whether by choice or career necessity) is also reflected in 
inadequate educational preparation of graduate students for their 
roles, either as teaching assistants (TAs), or as young faculty despite 
faculty's increased dependence on TAs to provide interactive learning 
support to students. As I have recently outlined (Seymour, 2005) the 
need to prepare TAs was first mooted in the 1930s and it continued to 
be proposed throughout the following decades. However, in a historical 
review, Nyquist, Abbott and Wulff (1989) comment on the slow progress 
of universities to provide formal professional development for teaching 
assistants. After the first national conference on TA issues in 1989, 
more universities began to offer TA preparation in an effort to improve 
undergraduate education. However, the available research (summarized in 
Seymour, 2005, Chapter 10) indicates that most institutions and 
disciplines either do not offer formal educational preparation for 
their TAs or offer programs that are informal or limited in scope--most 
commonly, short orientation sessions that are not discipline- or 
course-specific. Furthermore, most existing programs do not ground TAs' 
work in learning research and the teaching practices that derive from 
this body of knowledge. Most TA training (sic) programs give advice on 
management of their lab and recitation sections that are relevant only 
to the lecture mode. Although the STEM disciplines are major employers 
of TAs in their large introductory classes, Shannon, Twale, and Moore 
(1998) found that TAs in science, mathematics, and engineering classes 
were the least likely to receive appropriate educational preparation 
for their teaching support work. This ongoing situation significantly 
contributes to poor-quality undergraduate learning experiences. It is 
of particularly concern because STEM undergraduates attest the 
importance of good TAs to their learning and academic survival (Seymour 
& Hewitt, 1997).

A large body of cognitive research and classroom practice exists upon 
which STEM faculty can draw in rethinking their own teaching and in 
developing appropriate educational preparation for their TAs. Broadly, 
research on learning (cf., Brandsford, et al., 1999; 2000) proposes 
that students progressively build a personal knowledge framework based 
on what they already understand, and, that conceptual mastery and 
resolution of misconceptions is best accomplished in active engagement 
with ideas and problems, including interactive exchanges with teachers, 
TAs, and peers. Strategies that reflect the findings of cognitive 
science include a shift in approach from teaching to enabling learning, 
a focus on problem-based and contextual learning, inquiry and hands-on 
discovery, and reduction in the breadth of ``coverage'' in favor of 
strategies that encourage deeper understanding. Students are also 
encouraged to connect and apply their knowledge and to take more 
responsibility for their own learning. Teachers are encouraged to 
articulate their learning objectives, match their selection of 
materials, content emphases, and learning assessments to these, make 
their learning objectives and expectations clear to students, and 
``signpost'' for students the intellectual path they are taking through 
the content (Seymour, 2001). Teaching methods derived from this body of 
theoretical and applied knowledge are increasingly referred to as 
``scientific teaching'' (Handelsman et al., 2004). The available 
literature is too large to summarize here, but, in addition to 
theoretical and research publications, it includes descriptions and 
evaluation results from STEM faculty's endeavors to implement these 
principles in their approaches to the teaching and development of class 
and lab materials and methods--a body of work that constitutes a 
growing scholarship of education among an active minority of STEM 
faculty.
    The research, its applications, and outcomes have, in recent years, 
been offered in forms that are very accessible to faculty who are 
interested in understanding more about how students learn and how best 
to enable learning in their own teaching work (reviewed by DeHaan, 
2005). Strategies for teaching student to be active, interactive, and 
independent learners, and for designing problem-based, inquiry-focused 
class and lab work are offered on a number of web sites, for example: 
http://thinkertools.soe.berkeley.edu, www.udel.edu/pbl/, 
www.bioquest.org, www.provost.harvard.edu/it<INF>-</INF>fund/
moreinfo<INF>-</INF>grants.php?id=79. Information about workshops that 
give faculty hands-on experience in using active learning methods 
(including working with chemistry modules) is available at 
www.cchem.berkeley.edu/midp. Some web sites focus on particular 
disciplines: In chemistry: http://chemconnections.llnl.gov, PLTL: 
www.sci.ccny.cuny.edu/-chemwkssp/nde.html, CPR: www.molsci.ucla.edu/
default.htm, OGIL: www.pogil.org/. In physics: TEAL: http://
evangelion.mit.edu.edu/802TEAL3D, SCALE-UP: www.ncsu.edu/per/
scaleup.html. In biology: BioSciEdNet(BEN): www.biosciencenet.org, 
Bioquest: www.bioquest.org/BQLibrary/bqvolvi.html, undergraduate 
bioinformatics: www.cellbioed.org/article.cfm?ArticleID+157. Others 
sites (such as those offered by the University of Wisconsin) offer 
assistance to faculty in designing learning assessments (tests, 
projects, etc.) that reflect course learning objectives (using the 
Field-Tested Learning Assessment Guide); and in obtaining feedback on 
the degree to which students assess their learning gains in particular 
aspects of their courses (the on-line ``Student Assessment of Their 
Learning Gains'' instrument). Both sites can be found at 
www.flaguide.org. I have been closely involved in the development of 
both sites and attest to their widespread use by STEM faculty. The 
University of Wisconsin Center for Education Research also houses web 
sites offering practical advice to faculty in collaborative learning 
methods and in the use of technology in their classrooms.
    Notwithstanding its growing availability, this knowledge is still 
unknown to and unused by most, STEM faculty, and the knowledge and 
expertise of education faculty at their own institutions is often 
ignored or discounted. A survey of 123 research-intensive universities 
nationwide by the Reinvention Center at Stony Brooke (2001) found 
evidence of scientific teaching among only small numbers STEM faculty 
at approximately 20 percent of these institutions. Failure to convey 
this knowledge to TAs perpetuates in the next generation of faculty the 
limited knowledge of research-grounded teaching practices and limited 
priorities that characterize current faculty teaching. Both our TA 
study, and that done by French and Russell (2002), note how quickly 
graduate students can develop misconceptions about how learning takes 
place, and assume unfortunate attitudes towards teaching that they 
observe in their professors. Once established, these prove hard to 
dislodge. Hammrich (1996) found that TAs commonly believe student 
understanding to be a matter of ``automatic transmission or 
absorption'' rather than an ``active process of interpreting 
information and constructing understanding'' (p.8). In the innovative 
science courses included in our study, one (happily minority) source of 
TA resistance was the requirement that all TAs use the same active, 
interactive, inquiry-based methods that they were being taught to use 
in their lab and recitation sections. This affronted some TAs' 
presumption that, like faculty, they had the right to teach however 
they saw fit. Creating change among the existing STEM faculty, though 
not (as I shall later argue) impossible, is a more difficult endeavor 
than choosing to give graduate students an adequate preparation for 
their present and future teaching roles that is grounded in a 
researched-based understanding of how students learn.

C. STEM undergraduate under-preparation and limitations of the K-12 
                    teaching force

    Lack of faculty support for science and mathematics teaching 
careers among their STEM majors, coupled with a historic decline in the 
number of high-ability women entering mathematics teaching (noted by 
Schlechty and Vance as early as 1983), and perceptions of lower status 
and pay for K-12 teachers in the general American population, have 
combined to create a serious shortfall of discipline-qualified 
mathematics and science teachers in middle and high schools. The 
situation has been well-documented over the last decade (e.g., Gafney 
and Weiner, 1995; Schugart & Hounsell, 1995; Clewell & Villegas, 2001), 
and was most recently cited in the National Academy of Sciences report, 
Rising Above the Gathering Storm (2005).
    Problems of shortage are compounded by concerns about quality. The 
1990-91 Schools and Staffing Surveys (SASS) warned that 72 percent of 
public secondary school mathematics teachers and 38 percent of science 
teachers had not earned a Bachelor's degree in their disciplines and 
that those with a disciplinary qualifications were an aging group that 
was not being replaced by entrants to the profession. In 1997, the U.S. 
Department of Education reported that 39 percent of school districts 
had vacancies for mathematics and science teachers, of which 19 percent 
went unfulfilled. In that year also, President Clinton, in his State of 
the Union address, urged that, ``We should challenge more of our finest 
young people to consider a career in teaching.'' Whether in response to 
this appeal or to a down-turn in the job market, in the late 1990s, the 
numbers of non-STEM baccalaureate entrants to the teaching profession 
began to rise. However, this was not the case for science and 
mathematics teachers where the shortfall continued to worsen. In 2000, 
National Science Teachers' Association nationwide survey showed that 61 
percent of high schools and 48 percent of middle schools were 
experiencing difficulty in locating qualified science teachers to fill 
vacancies and that many schools were obliged to fill vacancies with 
less qualified or temporary teachers. In 2004, Bruillard reported that 
districts were importing international K-12 teachers to fill their 
mathematics and science vacancies. The situation has been most acute in 
schools with more than 20 percent minority enrollment (Clewell & 
Villegas, 2001). States such as Texas, Florida, and New Jersey with 
high mathematics and science teacher vacancies have turned to 
alternative or emergency certification of people with some STEM 
background, such as retired military personnel. Most recently, the 
National Academy of Sciences (2005) report warned that only 41 percent 
of U.S. middle school students had a mathematics teacher who had 
majored in mathematics education (let alone an undergraduate 
mathematics major), while, internationally, the average is 71 percent 
and in many countries is greater than 90 percent.
    The consequences of the shortage of qualified mathematics and 
science teachers in middle and high schools were evident in our Talking 
About Leaving study findings. The discovery of a gap between the levels 
of knowledge with which students had graduated from their high schools 
and those demanded of them in introductory college mathematics and 
science courses was a common experience. However, it was evident that, 
in 39 percent of all student statements about problems with their 
educational experiences, the gap reflected serious under-preparation. 
There was no difference between the switchers (40 percent) and the 
persisters (38 percent) in this regard. However failure to find 
remedial help from a tutor, study group, or other means in order to 
make up the gap was mentioned as a factor in switching.
    Many switchers and persisters who had taken Advanced Placement 
mathematics and science courses were shocked to find that these courses 
had been offered at too low a level to adequately prepare them for 
their first college courses. Their experience is echoed in findings of 
significant variations in the quality of AP courses first reported by 
Juillerat et al. (1997). There were also regional and race/ethnicity 
patterns in our findings on under-preparation problems. Students at the 
east coast state university in our sample experienced the greatest 
variability in the reliability of their high school science and 
mathematics grades as an indicator of their college-level work. They 
expressed frustration that neither they nor their parents could have 
known the extent of their under-preparation from their grades or their 
teachers' evaluations of their work. Students of color from high 
schools predominantly attended by students of the same race/ethnicity 
were at particular risk of a phenomenon that we labeled, ``over-
confident and under-prepared.'' Teachers, parents, and community 
members had sent students to college with a strong sense that they 
could succeed in STEM majors, only to find that their science and 
mathematics preparation seriously undermined their chances. This group 
gave some of the most heart-rending accounts that we heard in this 
study of their failed efforts to close the preparation gap. Rather than 
identifying inadequacies in educational provision as the cause of their 
problems, most of these students blamed themselves. These students were 
at high risk, not only of switching, but of dropping out of college 
altogether. Faculty attitudes towards under-prepared students also 
played a role in the loss of able students. Questioning the adequacy of 
their high school preparation was highly evident at institutions where 
we found the weed-out tradition to be strongest: loss of confidence and 
discouragement engendered by low grades were highly ranked as a cause 
of switching in the two western state universities where weed-out 
assessment practices were strong, particularly in the colleges of 
engineering.
    Teaching assistants in our 2005 study also struggled with high 
variability in the high school preparation of the undergraduates with 
whom they worked in recitation and lab sections. The 42 chemistry TAs 
at the University of California, Berkeley who were helping to prepare 
students to enter chemistry majors, expected undergraduates to enter 
the course with sufficient knowledge and skills in chemistry and 
mathematics to undertake the class work. They assumed that students 
would be able to solve problems, operate in the lab, write lab reports, 
and tackle unfamiliar problems by using what they already knew. In all 
of these expectations, they were disappointed. More than two-thirds of 
the Berkeley TA sample reported that students arrived under-prepared in 
the fundamental knowledge and skills needed to perform at least 
adequately. Their direct experience with students in their lab and 
recitation sections led them to conclude that many did not posses an 
understanding of the methods and principles of science and some could 
not do elementary algebra. TAs also noted that the writing and study 
skills of some students were poor. Overall, fewer than one-third of the 
TAs working in this large introductory chemistry class felt that most 
of their students entered the course with the requisite knowledge and 
skills to undertake it:

         A lot of these students have problems, not just with the math, 
        but with basic algebra and with manipulating equations to get 
        things in the right form and so on. And the class assumes that 
        they know how to do that kind of thing.

    Concern that their first- and second-year students entered their 
classes under-prepared for their course work was also documented in a 
survey of 314 TAs in forty-five courses at the University of Nebraska, 
Lincoln (Luo, Bellows, & Grady, 2000) in which (as at Berkeley) two-
thirds of the TAs assessed their students as under-prepared. By 
contrast, the Berkeley TAs noted that some students were over-prepared 
for this introductory course. Indeed, the TAs' largest single teaching 
difficulty was the wide variation in the levels of preparation in 
mathematics, science, writing, and study skills that their students had 
received from their pre-college education. Their testimony underscores 
the problems both of widespread under-preparation in middle and high 
school mathematics and science, and of significant regional and local 
disparities in the quality of mathematics and science education 
offered.
    The 110 TAs included in our study were generally not disposed to 
blame the students for inadequate preparation and we document their 
efforts to help their students make up for lost ground. However, we 
also note the irony of STEM faculty treating under-preparation as an 
indication of students' lesser worth given the contribution of STEM 
faculty as a whole to the continuing shortage of adequately qualified 
K-12 science and mathematics teachers. In light of the problems this 
shortage creates for access, quality, and persistence in undergraduate 
STEM education, I propose that rethinking the roles and professional 
development of teaching assistants offers an opportunity to break part 
of the cycle that has simultaneously perpetuated the decline in the 
perceived value of teaching, diluted the quality of undergraduate STEM 
education, and constrained the building of a discipline-educated 
teaching force in science and mathematics that is adequate to national 
needs.

3.  Strategies (both underway and needed) that address current 
difficulties

    Given my diagnosis of factors contributing to problems in the 
quality of undergraduate STEM education, I focus on three main areas of 
activity that seem to offer the best promise of improvement. All three 
involve active efforts in the professional development of teachers--
current and future K-12 science and mathematics teachers, teaching 
assistants in STEM undergraduate courses, and STEM faculty--based on 
methods grounded in research on how students learn.

First some caveats: Faculty will always be at varying stages of 
readiness to change their thinking and attitudes about teaching and 
learning or consider new practices. Some are already active; others 
interested, curious, or skeptical; and some will remain firmly 
committed to current teaching methods regardless of the evidence as to 
the greater benefits of alternative approaches or evidence of failures 
in what they are doing now. Providing clear and convincing evidence 
that innovative forms of teaching are as effective or better than more 
traditional approaches is always a necessary but not a sufficient 
condition for change. The idea that good ideas, supported by convincing 
evidence of their effectiveness, will spread `naturally' as their 
success becomes known, is unfounded. As Kuhn (1970) noted, shifts in 
scientific theory do not occur as an automatic response to 
accumulations of data. When the shift that is called for is one of 
values, attitudes, and social behavior, the response is, as Tobias 
(1992) observed, often unaffected by available evidence. Indeed, there 
is research evidence that the personal endorsement of classroom 
innovations by colleagues who are esteemed for their research standing 
is more effective than evidence presented in scientific articles or 
direct demonstrations of the superior outcomes of particular methods 
(Foertsch et al., 1997). Thus, change of whole departments or 
institutions in the same time frame is apt to be difficult, and may 
prove impossible.
    Although I am aware of some STEM departments where every member is 
actively implementing new forms of teaching and learning, these are a 
small minority. In most departments, innovation-minded faculty will be 
a minority. Whether changes are mooted by more radical colleagues, by 
institutional or state leaders, or by outside agencies, departments in 
which the majority of faculty are committed to the status quo can 
effectively resist change. (The exception seems to be accreditation 
boards which can and do exercise effective leverage.) Departments have 
the power to resist change, partly because of the established tradition 
of faculty post-tenure autonomy in matters of academic and professional 
judgment, and partly because reference to disciplinary standards and 
practices can be argued by department members to supersede other 
authorities. While this system has merit for many other reasons, it has 
proved a serious barrier to widespread faculty use of the many 
pedagogical alternatives that are freely available to them.
    These difficulties suggest two lines of action:
    a). Following the argument already laid out, I urge the design and 
implementation of department-based, discipline- and course-specific, 
programs for the professional development and support of teaching 
assistants (STEM and otherwise). This preparation should expose them to 
cognitive science research on student learning, the range of teaching 
approaches and specific methods that this research reports, and offer 
guided practice in working interactively with students to enable their 
learning. In the view of the TAs in our 2005 study, preparation and 
support programs were best when attached to the faculty and course that 
each TA served rather than broader preparation in departmental or 
campus-wide programs that are unrelated to their working experience. As 
argued earlier, this strategy holds the promise of preparing the next 
generation of faculty more appropriately and adequately for their 
teaching role than their predecessors and will make the diffusion of 
effective educational methods progressively easier with each generation 
of STEM graduates.
    A set of suggestions for what such a course might contain for TAs 
who are working with faculty who are implementing innovative courses 
was offered by TAs in my 2005 study. Grounded in their experience, they 
sought a course that would:

        <bullet>  introduce them to the scholarship of learning and the 
        educational practices that support student learning

        <bullet>  give clear guidance as to the principles and methods 
        of the course they are to work in, its learning objectives, and 
        the methods and materials to be used in working with students

        <bullet>  model for them pedagogical skills and techniques for 
        working interactively with students

        <bullet>  guide them in dealing with common problems--handling 
        questions to which they do not know the answers, disruptive or 
        non-participative group members, and disciplinary problems

        <bullet>  prepare them working alongside faculty for new 
        activities, such as inquiry-based labs and teaching students to 
        work with authentic data

        <bullet>  offer practice and feedback on their work

        <bullet>  enable resolution of issues encountered in 
        implementing course activities through regular (weekly) 
        collegial discussions with each other and their course faculty

        <bullet>  engage them collegially in the development and 
        refinement of new courses, including learning assessment, and 
        their faculty's educational research based on their courses.

    The TAs felt that they learned most when their education was firmly 
related to the work they were doing and where they had opportunities to 
contribute in a collegial manner to course development.
    b) Secondly, I urge concentration on the professional development 
and recognition of STEM faculty who recognize problems in the quality 
of STEM education, who are curious about or interested in alternative 
approaches to teaching and learning, are open to change, and those who 
have already begun to work with new material and methods. Connect these 
faculty with similarly-interested colleagues in other STEM departments 
at the same and other local institutions, and with national 
disciplinary networks of innovative STEM faculty, to form mutually-
supportive communities of learner-practitioners. This strategy is 
discussed in terms of professional development workshops for faculty.
    While the Talking About Leaving study was underway, faculty around 
the country who had also recognized many of the problems identified by 
students had begun to explore and share at conferences and on web sites 
a body of research-based knowledge about how learning happens and 
strategies that would better enable it. By the time the book went to 
press, the first workshops for faculty wishing to learn how to teach 
more actively and interactively were already being held. These were 
largely offered by Project Kaleidoscope, organized by Jeanne Narum at 
the Independent Colleges Office. Project Kaleidoscope has also taken a 
leading role in the dissemination of materials that promote and 
describe scientific teaching and learning methods.
    In 2000, the National Science Foundation funded the Multi-
Initiative Dissemination (MID) Project workshops which were organized 
and offered by faculty who were active in the undergraduate chemistry 
initiatives also funded by the NSF. These workshops continued to be 
held in regional centers until recently when government funding for the 
NSF's STEM education work was reduced. Faculty-led workshops have 
proved a highly effective and relatively inexpensive way to:

        <bullet>  make other faculty aware of the range of teaching 
        methods and materials grounded in cognitive science research 
        available to them

        <bullet>  see these methods modeled

        <bullet>  try them out in a supportive group context, and

        <bullet>  begin to develop their own course material and 
        methods with help from workshop organizers and other 
        participants. This activity continues to be supported beyond 
        the workshop.

    The faculty who organize and run the workshops are drawn from a 
growing pool of experienced users of scientific teaching materials and 
methods. They are paid only a modest stipend and their travel expenses. 
Workshop evaluators (Lewis & Lewis, 2006; and Burke, Greenbowe, & 
Gelder, 2004) point to the power of the workshop method to change the 
participants' conceptions of teaching and learning:

         They leave the workshop sessions thinking in a different way 
        about how effectively their students are currently learning and 
        what modifications they might make to change that. (Burke, 
        Greenbowe, & Gelder, 2004, p. 901)

    Teaching practices are well known to be guided by faculty beliefs 
and conceptions of teaching (Trigwell & Prosser, 1996a, 1996b); thus 
genuine improvement in teaching must begin with a change in faculty 
thinking about teaching and learning (Ho, 2000). Lewis and Lewis (2006) 
found that in the ChemConnections workshops sessions, 43 percent of 
respondents were using modules by the following spring and another 13 
percent were planning to use them in a future course. A larger 
proportion (57 percent) reported a variety of other changes in their 
teaching practice and 72 percent described a variety of gains from 
their experience. Lewis & Lewis also found that uptake of new teaching 
ideas was greater in workshops lasting two or more days than in shorter 
workshops. Among respondents to their follow-up surveys, the New 
Traditions workshop evaluators found an even higher rate of uptake (78 
percent) of the teaching and learning strategies that they had 
experienced (Penberthy & Connolly, 2000). Workshops were found to 
stimulate faculty new to active learning to try out these strategies. 
The workshops also helped repeat attenders (i.e., those already 
experimenting to improve their use of these strategies) to deepen their 
knowledge and encouraged them to add other methods.
    Workshops were also offered as part of the NSF's Undergraduate 
Faculty Enhancement (UFE) program; their evaluators (Marder et al., 
2001; Sell, 1998) estimated that 81 percent of the 14,400 participants 
in the UFE workshop program made moderate or major changes to their 
courses, affecting an estimated 2.8 million undergraduates. When the 
workshops directly addressed teaching methods and provided time for 
participants to work on their own teaching materials, this was 
associated with later revision of a course.
    As an evaluator for ChemConnections, I observed that the experience 
of teaching workshops helps active participants to build and sustain 
their networks of engaged STEM faculty and expands the pool of faculty 
with knowledge and expertise to share. (This is also evident in the 
Project Kaleidoscope workshops which solicit the engagement of senior 
colleagues by requiring faculty to participate in teams that include 
two senior members of their department or institution.) The capacity of 
workshops to engage as well as to educate, and to continually extend 
the networks of faculty convinced of the value of scientific teaching 
and learning methods, and ready to share their work with colleagues, 
makes them a powerful force for sustained change. Regional workshops 
bring together faculty from different institutions and connect them to 
like-minded colleagues locally and nationally. These connections are 
especially important in supporting faculty who lack departmental 
colleagues with similar educational interests. Connections are 
sustained by correspondence and reinforced by live encounters at 
conferences and other meetings. (It is notable that disciplinary 
conferences have developed education sections to service a growing 
interest in science education scholarship.) New collaborations form 
spontaneously, sustained by the intrinsic pleasures of working with 
like-minded colleagues to build web-sites, develop new projects, 
produce new teaching materials, undertake research, and co-author 
articles and grant proposals. In short, faculty development workshops 
have emerged as a highly productive, cost-effective way to build a 
nationwide network of STEM faculty who are actively engaged in 
implementing the principles of scientific teaching and learning in 
their own courses and ready and able to share their knowledge and 
expertise with others.
    A third set of strategies suggested by the evidence and arguments 
that I have offered in this paper is to develop national programs:

        <bullet>  to promote mathematics and science teaching as a 
        rewarding and well-rewarded profession using the resources of 
        the media to reach both students and their families; to pro-
        actively recruit existing STEM undergraduates with an interest 
        in teaching. Incentives might include scholarships or loan 
        waivers, and removal of additional costs to students of 
        additional years in education certification preparation.

        <bullet>  to develop and support baccalaureate programs 
        combining STEM disciplinary degrees with concurrent educational 
        preparation for teaching in the K-12 system. Students would 
        need to be financially supported and mentored through to their 
        early years as teachers (given the high loss rates in early 
        teaching careers). My thoughts in this matter reflect those of 
        the 2005 National Academy Report.

    The NSF has sought through a number of ongoing programs--
Collaboratives for Excellence in Teacher Preparation, Math and Science 
Partnerships, the State and Rural Systemic Initiatives, and a variety 
of outreach programs that engage STEM college faculty and their 
graduate students to work with K-12 mathematics and science teachers 
and students--to strengthen the disciplinary preparation of students 
entering programs of teacher preparation in colleges of education. 
These will continue to be needed as infusion of the teaching force with 
new teachers graduating with degrees in STEM disciplines will take time 
to build.
    As a member of the National Visiting Committees of both the Texas 
CETP and the Puerto Rico Math and Science Partnership, I have observed 
in action the value of drawing university and college STEM faculty into 
partnerships with K-12 teachers and the two-way learning and respect 
that can develop from this. In our own evaluation of outreach programs 
using volunteer STEM graduate students, we found that the positive 
effects on graduate students working in K-12 classes in increasing 
their own interest in teaching and understanding of its challenges were 
at least as great as the impact that their classroom work had on the 
levels of interest in and understanding of science among their students 
(Laursen et al., 2004, 2005).
    However, as I am not a specialist in K-12 education, beyond these 
broad suggestions, I would defer to others better qualified to 
determine the details of a strategic national plan to address our 
urgent need for a profound improvement in the quality of our 
mathematics and science teaching force.

A Major Caveat

    For each of these strategies to make a discernible difference to 
the quality of both undergraduate and K-12 STEM education, ways must 
now be found to address the fundamental problems with which I began 
this paper. The beliefs and practices that determine faculty rewards, 
incentives, and tenure have to be rebalanced so as to encourage and 
support scientific modes of teaching and educational scholarship. We 
understand what needs to be done. The principles were clearly laid out 
by the late Ernest Boyer in Scholarship Reconsidered: Priorities of the 
Professorate (1990), and, in 2003, the National Research Council 
translated these principles into action items. Their recommendations 
include the following: ``That presidents, deans and department chairs:

        <bullet>  Should use their visible positions to exhort faculty 
        and administrators to unite in the reform of undergraduate 
        education and dispel the notion that excellence in teaching in 
        incompatible with first-rate research.

        <bullet>  Match the faculty incentive system with the need for 
        reform. Tenure policies, sabbaticals, awards, adjustments in 
        teaching responsibilities, and administrative support should be 
        used to reinforce those who seek time to improve their 
        teaching. . .Rewards should go to those who are teaching with 
        research-tested and successful strategies, learning new 
        methods, or introducing and analyzing new assessments in their 
        classrooms. . .

        <bullet>  Consider efforts by faculty who engage students in 
        learning-centered courses as important activities in matters of 
        tenure, promotions and salary decisions, and modify promotion 
        and tenure policies in ways that motivate faculty to spend time 
        and effort on developing new teaching methods or redesigning 
        courses to be more learning-centered.

        <bullet>  Consider faculty time spent on redesign of 
        introductory courses or in research focused on teaching and 
        learning a discipline as evidence of productivity as a teacher-
        scholar.

        <bullet>  Create more vehicles for educating faculty, graduate 
        students, post-doctoral fellows, and staff in tested effected 
        pedagogy. Incorporate education about teaching and learning 
        into graduate training and faculty development programs and 
        fully integrate these into the educational environment and 
        degree requirements.

        <bullet>  In hiring new faculty and post-doctoral fellows, 
        place greater emphasis on awareness of new teaching methods, 
        perhaps ear-marking a portion of support packages to fund their 
        attendance at teaching workshops.

    As I have argued, we now have a solid, well-disseminated body of 
theoretical knowledge and practical know-how upon which to build the 
capacity of STEM faculty and their TAs as enablers of student learning. 
What we have lacked is the moral and political will to create a climate 
in STEM departments that will support and reward faculty who use this 
knowledge to improve student and TA learning. To do this will take 
strong leadership from university and college presidents and senior 
administrators, acting both individually and collectively. It will also 
take financial and other forms of leverage from organizations that 
provide higher education funding--whether to institutions, or more 
directly to departments and their members. Such organizations include 
federal and State legislatures, public and private funding agencies, 
accreditation boards, university business partners and benefactors. 
Obviously, it is preferable for all of these efforts to proceed by 
consultative rather than adversarial processes. It will also be optimal 
for the disciplinary and professional associations that represent 
faculty interests to work as partners in a collective endeavor to 
rethink the rewards, incentive, and tenure structures that shape the 
choices and practices of their members.
    We have side-stepped this difficult issue throughout the two 
decades that we have been aware of its relevance for the problems of 
quality and access in STEM and K-12 education. Perhaps we hoped that we 
could improve the situation without directly addressing it. However, it 
has now become the elephant in the room that we can neither ignore nor 
circumvent. We must now squarely face the issues raised by the faculty 
rewards system and find collaborative ways to make it the norm rather 
than the exception for faculty in STEM departments to use scientific 
teaching and learning methods, to ensure the appropriate professional 
development of the future professorate (the graduate students), and to 
make K-12 teaching by STEM undergraduates once more an honored and 
encouraged career choice.
    In conclusion, I would like to offer praise to the National Science 
Foundation and to the many private foundations who have moved us all 
forward in our understanding of the dimensions of undergraduate STEM 
education issues, through their support of STEM education research and 
program evaluation; who have led the way in soliciting and funding 
initiatives with enough scope to promote innovation among large numbers 
of STEM faculty; who have encouraged, supported and disseminated model 
programs; and who have been ready to grapple with difficult issues such 
as under-representation in STEM disciplines of women and people of 
color. I also commend the NSF for its experimental approach to 
fostering change. It intentionally funds innovative, sometime high-
risk, programs (such as those that address under-representation) and 
anticipates that not all funded initiatives will work well. In sum, it 
is impossible to imagine how limited would be our understanding of the 
issues that STEM education faces, what strategies are valuable in 
addressing them, where barriers lie, and how to move forward, without 
the work of the NSF and the foundations.
    This said, I nonetheless urge the NSF to more fully complete the 
experimental cycle, and invest even more heavily in evaluation and, in 
particular, long-term evaluation. We do not understand the longer-term 
positive outcomes--both intended and unanticipated--of the larger 
programs. The normal project funding span of five years is rarely 
enough time to develop projects to maturity and track their impacts: it 
is thus important to fund longitudinal or follow-up studies that can 
determine the dimensions of change that these larger initiatives 
continue to promote.
    In November, 2005, I was privileged to represent the U.S. science 
education research and practitioner community at a multi-national 
Organization for Economic Cooperation and Development (OECD) meeting 
Amsterdam on issues in STEM education. It was clear that the European 
universities and school systems were struggling with many of the same 
issues as the United States in attracting, retaining, and educating 
effectively their STEM undergraduates. I was struck how much further 
ahead the U.S. researchers were in their knowledge and experience of 
how to harness cognitive science research in the service of improved 
classroom experiences for students. The proportion of faculty actively 
engaged in raising the quality of U.S. STEM education, though 
constantly growing, is still a minority. However, it far exceeds the 
progress made by European colleagues to date in developing, testing, 
and disseminating research-grounded materials and methods. Since my 
return, I have responded to many requests from conference participants 
to supply details of available research publications and STEM web-site 
locations. Despite our (valid) concerns about the poorer performance of 
U.S. students in international comparisons of K-12 mathematics and 
science learning, this is good news.
    What is now vital is that, for want of adequate funding, and the 
will to rebalance the academic rewards and tenure systems to support 
scientific teaching and educational scholarship, we do not loose the 
ground we have gained. We owe our progress to date to the investments 
we have made in educational innovation and program development, in 
research, evaluation, and testing, and, above all, capacity-building 
among faculty. Our success to date is especially due to the growing 
networks of STEM faculty who have shown the insight and the will to 
take change into their classrooms and labs, and who continue to draw 
their colleagues into a shared endeavor to rebuild quality in STEM 
undergraduate education. I cannot, therefore, overstate the importance 
of developing rewards and tenure systems that will support their 
excellent work and the effective preparation of our future STEM 
faculty.

References Cited

Boyer, E.L. (1990). Scholarship Reconsidered: Priorities of the 
        Professorate. Princeton, NJ: Carnegie Foundation for the 
        Advancement of Teaching.
Brandsford, J.D. & Pellegrino, J.W. (Eds.) (2000). How People Learn: 
        Bridging Research and Practice. National Research Council, 
        Committee on Developments in the Science of Learning. 
        Washington, DC: National Academies Press.
Brandsford, J.D., Brown, A.L. & Cocking, R.R. (Eds.) (1999). How People 
        Learn: Brain, Mind, Experience, and School: Expanded Edition. 
        National Research Council, Committee on Learning Research. 
        Washington, DC: National Academies Press.
Bruillard, K. (2004, March 8). New Visa Ceiling Called Threat to 
        Teacher Recruitment. The Washington Post, p. A03.
Burke, K.A., Greenbowe, T.J., & Gelder, J. (2004). The Multi-Initiative 
        Dissemination Project Workshops: Who Attends and How Effective 
        Are They? Journal of Chemical Education, 81(6):897-902.
Clewell, B.C., & Villegas, A.M. (2001). Absence Unexcused: Ending 
        Teacher Shortages in High Need Areas. Washington, DC: Urban 
        Institute. Retrieved 3/08/06 from www.urgan.org/
        url.cfm?ID=310379.
DeHaan, R.L. (2005). The Impending Revolution in Undergraduate Science 
        Education, Journal of Science Education and Technology 
        14(2):253-269.
Foertsch, J.M., Millar, S.B., Squire, L., & Gunter, R. (1997). 
        Persuading Professors: A Study in the Dissemination of 
        Educational Reform in Research Institutions. Report to the NSF 
        Education and Human Resources Directorate, Division of 
        Research, Evaluation, and Communication, Washington DC. 
        Madison: University of Wisconsin-Madison, LEAD Center.
French, D., & Russell, C. (2002). Do Graduate Teaching Assistants 
        Benefit From Teaching Inquiry-based Laboratories? Bioscience, 
        52:1036-41.
Fusfield, H.I. (1986). The Technical Enterprise: Present and Future 
        Patterns. New York: Ballinger Publishing Company.
Gafney, L., & Weiner, M. (1995). Finding Future Teachers From Among 
        Undergraduate Science and Mathematics Majors. Phi Delta Kappan 
        76:633-641.
Hammrich. P. (1996) Biology Graduate Teaching Assistants' Conceptions 
        About the Nature of Teaching. ERIC Database document ED401155, 
        www.eric.ed.gov.
Handelsman, J., Ebert-May, D., Beicher, R., Bruns, P., Chang, A., 
        DeHaan, R., Gentile, J., Lauffer, S., Stewart, J., Tilghman, 
        S.M., & Wood, W.B. (2004). Scientific Teaching. Science 
        304:521-522.
Higher Education Research Institute (1992). The American College 
        Student, 1991: National Norms for the 1987 and 1989 Freshmen 
        Classes. Los Anglese, CA: Higher Education Research Institute, 
        UCLA.
Ho, A. (2001). A Conceptual Change Approach to Improving Staff 
        Development: A Model for Programme Design. The International 
        Journal for Academic Development 5:30-4.
Hunt, E., & Pelligrino, J. (2002). Issues, Examples, and Challenges in 
        Formative Assessment. New Directions for Teaching and Learning 
        89:73-85.
Juillerat, F., Dubowsky, N., Ridenour, N.V., McIntosh, W.J., & Caprio, 
        M.W. (1997). Advanced Placement Science Courses: High School-
        College Articulation Issues. Journal of College Science 
        Teaching 27:48-52.
Kevles, D.J. (1979) The History of the Scientific Community in Modern 
        America. New York: Vintage Books.
Kuhn, T.S. (1970). The Structure of Scientific Revolutions. Chicago: 
        University of Chicago Press.
Kulik, J.A. (2001). Student Ratings: Validity, Utility, and 
        Controversy. New Directions for Institutional Research 109:9-
        25.
Laursen, S., Thiry, H., & Liston, C. (2005). Evaluation of the Science 
        Squad Program for the Biological Sciences Initiative at the 
        University of Colorado at Boulder: Career Outcomes of 
        Participation for the Science Squad Members. Boulder, CO: 
        Report prepared for the Biological Science Initiative and the 
        Howard Hughes Medical Institute by members of & Evaluation 
        Research, University of Colorado at Boulder.
Laursen, S., Liston, C., Thiry, H., Sheff, E., and Coates, C. (2004). 
        Evaluation of the Science Squad program for the Biological 
        Sciences Initiative at the University of Colorado at Boulder: 
        1. Benefits, Costs, and Trade-offs. Boulder, CO: Report 
        prepared for the Biological Science Initiative and the Howard 
        Hughes Medical Institute by members of & Evaluation Research, 
        University of Colorado at Boulder.
Lewis, S.E., & Lewis, J.E. (2006). Effectiveness of a Workshop to 
        Encourage Action: Evaluation From a Post-workshop Survey. 
        Journal of Chemical Education 83(2):299-304.
Liston, C., Laursen, S., Coates, C., &.Thiry, H. (2005). Evaluation of 
        the Teacher Professor Development Workshops for the Biological 
        Sciences Initiative at the University of Colorado at Boulder. 
        Report to BSI and HHMI. Ethnography & Evaluation Research: 
        University of Colorado, Boulder.
Luo, J., Bellows,L., & Grady, M. (2000). Classroom Management Issues 
        for Teaching Assistants. Research in Higher Education 41:353-
        83.
Marder, C., McCullough, J., Perakis, S., & Buccino, A. (2001). 
        Evaluation of the National Science Foundation's Undergraduate 
        Faculty Enhancement (UFE) Program. Report prepared for the 
        National Science Foundation, Directorate of Education and Human 
        Resources, Division of Research, Evaluation and Communication, 
        by SRI International, Higher Education Policy and Evaluation 
        Program. See also references therein. Retrieved 4/9/04 from 
        http://www.nsf.gov/pubs/2001/nsf01123/
National Academy of Sciences, National Academy of Engineering, 
        Institute of Medicine (2005). Rising Above the Gathering Storm: 
        Energizing and Employing America for a Brighter Economic 
        Future. Committee on Prospering in the Global Economy of the 
        21st Century: An Agenda for American Science and Technology. 
        NAS: Washington, DC. Available at www.nap.edu
National Institute for Science Education (1998). Indicators of Success 
        in Post-secondary SMET Education: Shapes of the Future. 
        Synthesis and proceedings of the Third Annual NISE Forum. 
        Editor, S.B. Millar. University of Wisconsin, Madison.
National Research Council (2003). Improving Undergraduate Instruction 
        in Science, Technology, Engineering, and Mathematics. Editor, 
        DeHaan, R.L. Washington, DC. Committee on Undergraduate Science 
        Education.
National Science Foundation (1996). Shaping the Future: New 
        Expectations for Undergraduate Education in Science, 
        Mathematics, Engineering, and Technology. Report on its review 
        of undergraduate education by the advisory committee to the 
        Directorate for Education and Human Resources, Chairman M.D. 
        George. NSF: Arlington, VA.
National Science Teachers' Association (2000). NSTA Releases Nationwide 
        Survey of Science Teacher Credentials, Assignments, and Job 
        Satisfaction. Arlington, VA: NSTA. Retrieved 3/08/06 from 
        http.//www.nsta.org/survey3/.
National Research Council (1999). Transforming Undergraduate Education 
        in Science, Mathematics, and Engineering. Committee on 
        Undergraduate Science Education, Center for Science, 
        Mathematics, and Engineering Education, National Academy Press: 
        Washington, DC.
Nyquist, J., Abbott, R., & Wulff, D. (1998). Thinking Developmentally 
        About TA Training in the 1990s. New Directions for Teaching and 
        Learning. (Teaching Assistant Training in the 1990s) 39:7-14.
Penberthy, D., & Connolly, M. (2000). Final Report on Evaluation of New 
        Traditions Workshops for Chemistry Faculty: Focus on Follow-up 
        Surveys Documenting Outcomes for Workshop Participants. Report 
        prepared for New Traditions Project by the LEAD Center. 
        Retrieved 4/2/04 from http://www.cae.wisc.edu/?lead/pages/
        internal.html.
Reinvention Center at Stony Brook (2001). Reinventing Undergraduate 
        Education: Three Years After the Boyer Report. Retrieved, 7/15/
        03 from www.sunysb.edu/reinventioncenter/boyerfollowup.pdf.
Schugart, S., & Hounsell, P. (1995) Subject Matter Competence and the 
        Recruitment Retention of Secondary Science Teachers. Journal of 
        Research in Science Teaching 32:63-70.
Schlechty, P.C. & Vance, V.S. (1983). Recruitment, Selection, 
        Retention: The Shape of the Teaching Office. Elementary School 
        Journal 83:469-487.
Sell, G.R. (1998). A Review of Research-based Literature Pertinent to 
        an Evaluation of Workshop Programs and Related Professional 
        Development Activities for Undergraduate Faculty in the 
        Sciences, Mathematics and Engineering. Report commissioned by 
        SRI International as part of an evaluation for the 
        Undergraduate Faculty Enhancement (UFE) program for the 
        National Science Foundation. Available from the author.
Seymour, E. (2005). Partners in Innovation: Teaching Assistants in 
        College Science Teaching. With Melton, G., Wiese, D.J., and 
        Pedersen-Gallegos, L. Boulder, CO: Rowman and Littlefeld.
Seymour, E. (2002). Tracking the Processes of Change in U.S. 
        Undergraduate Education in Science, Mathematics, Engineering, 
        and Technology. Science Education 86:79-105.
Seymour, E., & Hewitt, N. (1997). Talking About Leaving: Why 
        Undergraduates Leave the Sciences. Boulder, CO: Westview Press.
Seymour, E. (1995). Explaining the Loss of Women From Science, 
        Mathematics, and Engineering Undergraduate Majors: An 
        Explanatory Account. Science Education 79(4):437-473.
Shannon, D., Twale, D. & Moore, M. (1998). TA Teaching Effectiveness: 
        The Impact of Training and Teaching Experience. Journal of 
        Higher Education 69:440-466.
Tobias, S. (1992). Revitalizing Undergraduate Science: Why Some Things 
        Work and Most Don't. Tucson, AZ: Research Corporation.
Trigwell, K., & Prosser. M. (1996a). Congruence Between Intention and 
        Strategy in University Science Teachers' Approaches to 
        Teaching. Higher Education 32:77-87.
Trigwell, K., & Prosser, M. (1996b). Changing Approaches to Teaching: A 
        Relational Perspective. Studies in Higher Education 21(3):275-
        284.
U.S. Department of Education (1997). America's Teachers: Profile of a 
        Profession, 1993-94. NCES 9-460. Washington, DC: National 
        Center for Education statistics.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        

                      Biography for Elaine Seymour

    Elaine Seymour was for sixteen years Director of Ethnography & 
Evaluation Research (E&ER), located in the Center to Advance Teaching 
Research and Teaching in the Social Sciences at the University of 
Colorado at Boulder. The group includes both social and physical 
scientists whose research focuses on issues of change in STEM education 
and careers, including evaluation of initiatives seeking to improve 
quality and access in these fields. The issues of women in these 
disciplines have been a special focus and, in recognition of this work 
WEPAN awarded Elaine its 2002 Betty Vetter Award for Research.
    Elaine's best-known published work may be Talking About Leaving: 
Why Undergraduates Leave the Sciences, (1997) co-authored with Nancy M. 
Hewitt. She and E&ER members recently published ``Partners in 
Innovation: Teaching Assistants in College Science Courses,'' which 
draws on findings from three science education initiatives. She and her 
group have been evaluators for several national and institution-based 
innovations including two NSF-funded chemistry consortia and 
(currently) an NSF ADVANCE grant intended to accelerate the career 
progress of STEM faculty women.
    Notwithstanding her semi-retirement, she is currently working with 
E&ER members on a comparative, longitudinal study that explores the 
benefits and costs of undergraduate research experiences (and the 
processes whereby benefits are generated) as perceived by students and 
faculty at liberal arts colleges. She is also working on a study of the 
nature and sources of resistance to innovation that draws on data from 
several science education initiatives. Elaine has served as an 
evaluator and as a member of national visiting committees and advisory 
boards for many STEM education change projects. In 2005, she was 
invited to represent the U.S. experience in working to improve 
undergraduate science education at a multi-nation OECD conference in 
Amsterdam. She is a sociologist and a British-American whose education 
(Keele, Glasgow, and Colorado) and career have been conducted on both 
sides of the Atlantic.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Inglis. Thank you, Dr. Seymour.
    Dr. Wieman, I should underscore just how much--how 
impressed we, on the Committee, are with your use of your Nobel 
award in the furtherance of changing the education method. And 
that really is very impressive.
    So maybe you want to talk about that a little bit in the 
course of your testimony, if you will.
    Dr. Wieman.

   STATEMENT OF DR. CARL WIEMAN, DISTINGUISHED PROFESSOR OF 
           PHYSICS, UNIVERSITY OF COLORADO AT BOULDER

    Dr. Wieman. Thank you.
    My main points are simple: one, undergraduate science 
education is based on an obsolete model and is doing a poor job 
at providing the education that is needed today; and two, we 
now know how to fix it; and three, until you fix it, you can't 
fix K-12 science education.
    So the basis of these claims are that there is a relatively 
recent phenomenon, but a number of people, like myself, are 
doing education research within the science disciplines, like 
physics, particularly at the college level. And this scientific 
approach to science education provides a growing body of 
evidence showing that the great majority of college students, 
both science majors and non-science majors, are not gaining 
worthwhile understanding from their science classes. Most 
students are learning that science is boring and little more 
than useless memorization of facts that are forgotten after the 
exam.
    Our methods are different from those of Elaine Seymour, but 
our research indicates a similar conclusion. Namely, science 
majors are not being created in college. Rather, they are 
primarily the few students that, because of some unusual 
predisposition rather than ability, manage to survive their 
undergraduate science instruction.
    However, this same science education research that shows 
the dismal results produced by the traditional science 
instruction is also showing us how to improve this situation. 
Experimental teaching methods have been developed that achieve 
much better learning and attitudes about science for most 
students. Widely adopted, these methods would increase the 
pipeline of scientists, produce a more technically-literate and 
skilled general public, and provide better trained K-12 
teachers.
    I emphasize this latter point, because our studies show 
that the future K-12 teachers are among the worst in their 
learning of science and math in college. That is my claim that 
unless you improve science education at the college level, you 
are wasting time and money on trying to make major improvements 
in K-12.
    So why haven't universities changed undergraduate science 
education so that their students do learn math and science much 
better?
    They haven't done it, because, first, while there has never 
been a shortage of opinions, only recently has there been real 
data showing how badly they were doing and how could--it could 
be improved. Second, the computer technology required for 
economically-practical widespread implementation of these new 
approaches also didn't exist until recently. And finally, and 
most important, there are no real incentives to make changes, 
other than altruism.
    I have spent a lot of time visiting and evaluating 
universities, and I can assure you that their financial 
support, prestige, and the tuition they can change is quite--
charge is quite unrelated to what their students are actually 
learning in science. To make these changes I talked about will 
require a significant investment of money and effort. And while 
these costs are small compared to the total spent on either K-
12 or higher education, resources are tight, particularly at 
public universities.
    So how best to bring about this desired change?
    I would argue that the first priority needs to be 
incentives, which can either be positive or negative, to change 
education at the department level of the large research 
universities. For better or worse, these research universities 
set the standards for undergraduate science education in the 
United States and train nearly all of the college science 
teachers. The department is the unit for science education, and 
to have sustained change, departments, as a whole, must change 
how they approach science education. Virtually none of the 
federal support for improving college science education 
addresses the issue at this crucial level. The limited support 
available is typically spent on short-term projects that 
involve one or two people per department spread across as many 
institutions and departments as possible. These programs have 
had some excellent results, but they are doomed to largely 
remain localized and short-term, because they ignore 
organizational realities. It is like trying to change the 
direction of stream flows by scooping out a few buckets of 
water and pouring it in a different direction.
    So in summary, enough is known about how college students 
learn science and how to measure and achieve that learning so 
that undergraduate science education can be dramatically 
improved for all students. However, it is not going to happen 
until colleges, particularly the large research universities, 
have incentives to make the investment required to bring about 
this change.
    Thank you.
    [The prepared statement of Dr. Wieman follows:]
                   Prepared Statement of Carl Wieman
    My main points are simple.

        1)  Undergraduate science education is based on an obsolete 
        model and is doing a poor job at providing the education that 
        is needed today.

        2)  We now know how to fix it.

        3)  Until it is fixed, you can't fix K-12 science education.

    Let me explain the basis of these claims.
    There is a relatively recent phenomenon that a number of people 
like myself are doing education research within the science disciplines 
like physics, particularly at the college level. This scientific 
approach to science education provides a growing body of evidence 
showing that the great majority of college students (both science 
majors and non-science majors) are not gaining worthwhile understanding 
from their science classes. This research utilizes the improved 
understanding of how people think and learn coming out of cognitive 
science and educational psychology, and applies this understanding to 
the specific situations of individual college science courses. By 
studying the mental characteristics of expert scientists and those of 
novice students we are able to better delineate the desired outcome of 
science education and then measure how well different instructional 
practices affect students' thinking and understanding to achieve this 
outcome. The data show that most students are learning that science is 
boring and is little more than useless memorization of facts that are 
quickly forgotten after the exam. Our methods are different than those 
of Elaine Seymour, but some of our research indicates a similar 
conclusion to hers. Namely, science majors are not being created in 
college through educating students as to the utility and intellectual 
challenges and rewards of science. Instead, successful science majors 
are primarily those few students that, because of some unusual 
predisposition rather than special ability to do science, manage to 
survive their undergraduate science instruction.
    Modern society has very different needs for undergraduate science 
education than in the distant past when our current instructional 
approaches were developed. Then the goal of college science education 
was primarily to train only the tiny fraction of the population that 
was preselected to become the next generation of scientists. Now we 
need to educate a far larger and more diverse student population to 
become scientifically literate citizens and the technically skilled 
work force required for a modern economy to thrive. This new, broader 
educational need does not eliminate the need to educate future 
generations of scientists. However, all the data suggests that 
improving science education for all students is likely to produce more 
and better-educated scientists and engineers as well.
    The same science education research that shows the dismal results 
produced by the standard traditional college science classes are also 
showing us how to improve this situation. Experimental teaching methods 
have been developed that achieve much better learning and attitudes 
about science for most students. These methods recognize that it is not 
sufficient to follow the traditional practice of simply presenting the 
material as it is understood and appreciated by expert scientists. This 
just overloads the students' cognitive processing capabilities and is 
perceived in a very different way than is intended. Research shows that 
effective science instruction recognizes the gap between the initial 
thinking of the student and that of the expert and provides structure 
and feedback to guide the student to actively construct their own 
``expert-like'' understanding. This understanding must be based on the 
foundation of their prior thinking, which may be wrong, and hence must 
be explicitly examined and adequately addressed. Desirable features of 
instruction include presentation of ideas, homework, and exam problems 
in a form that has some obvious real-world connection and utility 
rather than as mere abstractions, and making reasoning, sense-making, 
and reflection explicit parts of all aspects of the course. Inherent in 
this more effective research-based instruction is the need to assess 
the individual student's background and thinking and provide effective 
feedback and guidance. This would not have been practical to do on a 
widespread basis in the past, but computer technology now makes this 
economically feasible. More research and development of this 
technology, particularly software, is still needed to fully utilize 
this potential, however.
    Widely adopted, these instructional methods and technology would 
increase the pipeline of scientists, produce a more technically 
literate and skilled general public, and provide better trained K-12 
teachers. I emphasize this latter point because our studies show that 
the future K-12 teachers are among the worst in their learning of 
science and math in college. Elementary education majors have by far 
the least expert beliefs about science of all the different populations 
of college students that my group has measured. We also found that in a 
typical class of graduating elementary education majors who had 
completed all their math and science requirements, 30 percent of the 
students thought that the continents float on the oceans, and virtually 
none of them were able to answer the question, ``if it takes you two 
minutes to drive a mile, how fast are you going?'' These future 
teachers have to learn math and science better than this in college if 
they are to teach it decently! That is why I claim that unless you 
improve science education at the college level first, you are wasting 
your time and money on trying to make major improvements in K-12.
    So why haven't colleges changed undergraduate education so that 
their students learn science much better? They haven't done it because, 
first, while there has never been a shortage of strongly held opinions, 
only recently has there been real data showing how badly the 
traditional science education was failing for most students and how it 
could be improved. Also, while enough research has been done to clearly 
establish the general problem and the characteristics of more effective 
approaches, this work does not cover all subjects and grade levels, and 
the results are not yet widely known throughout the science community. 
Ultimately, what is needed is research and development to establish the 
specifics of how to measure and achieve effective learning across the 
full range of college science courses for the full range of college 
student populations. That does not yet exist, although it is clear how 
to do it. The second reason colleges have not yet changed is that the 
computer technology required for widespread implementation of these new 
teaching methods also did not exist until recently. Finally, and most 
important, there are no incentives to make such changes other than 
altruism. I spend a lot of time visiting and evaluating colleges and 
universities, and I can assure you that their financial support, 
prestige, and the tuition they can charge is quite unrelated to what 
their students are actually learning in science. Making the necessary 
educational changes, while inexpensive compared to the total spent on 
either K-12 or higher education, will require significant investments 
of money and effort. With budgets so tight, particularly at public 
Universities, no one should be surprised that science faculty and 
departments primarily invest their time and resources in trying to 
excel in areas for which success is recognized and rewarded.
    So how can one bring about this desired and attainable improvement 
in undergraduate science education?
    I would argue that the first priority needs to be incentives to 
change education at the departmental level of the large research 
universities. These research universities set the standards for 
undergraduate science education in the U.S. and train nearly all the 
college science teachers. The department is the unit for science 
education and to have sustained change, departments as a whole must 
change how they approach science education.
    Virtually none of the federal support for improving college science 
education addresses the issue at this crucial level. The limited 
support available is typically spent on short-term projects that 
involve one or two people per department spread out across as many 
institutions as possible. This is a politically attractive approach and 
these programs have had some excellent results, but they are doomed to 
largely remain localized and short-term, because they ignore 
organizational realities. They are the equivalent of trying to change 
the direction that a stream flows by scooping out a few buckets of 
water and pouring it in a different direction.
    In summary, enough is known about how college students learn 
science and how to measure and achieve that learning so that 
undergraduate science education can be dramatically improved for all 
students. However that is not going to happen until colleges, 
particularly the large research universities, have incentives to make 
the investment required to bring about this change.

                       Biography for Carl Wieman

    Carl Wieman grew up in the forests of Oregon and received his B.S. 
from the Massachusetts Institute of Technology in 1973 and his Ph.D. 
from Stanford University in 1977. He has been at the University of 
Colorado since 1984 where he holds the titles of Distinguished 
Professor of Physics, Presidential Teaching Scholar, and Fellow of 
JILA. He has carried out research in a variety of areas of atomic 
physics and laser spectroscopy, including using laser light to cool 
atoms. His research has been recognized with numerous awards including 
the Nobel Prize in Physics in 2001 for the creation of Bose-Einstein 
condensation in a vapor. He has worked on a variety of research and 
innovations in teaching physics to a broad range of students, including 
the Physics Education Technology Project, (http://www.colorado.edu/
physics/phet) that creates educational online interactive simulations. 
He is a 2001 recipient of the National Science Foundation's 
Distinguished Teaching Scholar Award and the Carnegie Foundation's 2004 
US University Professor of the Year Award. He is a member of the 
National Academy of Sciences and chairs the Academy Board on Science 
Education.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ehlers. [Presiding] Thank you very much for your 
testimony. And I appreciate all of the testimony that I have 
heard. I, of course, have previous affiliation with the 
University of Colorado, and so it is like old home week here.
    Dr. Burris, and I have got a friend who taught at Beloit 
for a while, I am pleased to have you with us.

   STATEMENT OF DR. JOHN E. BURRIS, PRESIDENT, BELOIT COLLEGE

    Dr. Burris. My name is John Burris, and I am the President 
of Beloit College.
    I speak today from the perspective of a President of a 
liberal arts college with a long and distinguished record in 
science and math education. My comments are also guided by my 
career as a research biologist and educator, most recently as 
the Director of the Marine Biological Laboratory in Woods Hole, 
Massachusetts, an institution dedicated to research and 
graduate education.
    Although there are a number of challenges in science and 
engineering education, I will focus my comments today on STEM 
education at the college undergraduate level.
    First, let me summarize my main recommendation for your 
consideration.
    As NSF's budget is doubled in the next 10 years, I 
recommend that double dollars be targeted for building and 
sustaining a robust, learning environment for undergraduates in 
colleges and universities across the United States.
    It is important to note that we already have a good idea of 
how to improve undergraduate STEM education as many years of 
direct observation and research have shown that students learn 
science best in small classes with extensive hands-on 
experience using an inquiry-based approach. Lectures and 
laboratories are often merged, and there is ample opportunity 
for learning in groups and group discussions, not just learning 
by individuals working alone.
    At Beloit College, the success of these approaches is 
apparent. For in contrast to national averages, we retain to 
graduation more than 80 percent of the students who express an 
interest in a STEM major. We also introduce non-science majors 
to STEM in a meaningful way, helping to ensure an educated 
public that will provide the support and encouragement needed 
if the United States is going to remain the world leader in 
science and technology.
    In fact, the primary reason I came to Beloit College was my 
interaction at the MBL with students from small, liberal arts 
colleges, such as Beloit. I was incredibly impressed with the 
preparation of these young men and women in our Semester in 
Environmental Sciences program. They had clearly been thought 
to think independently and critically and were able to conduct 
graduate-level research while in Woods Hole.
    Successes at the liberal arts colleges have not translated 
to all other colleges and universities. There are a number of 
reasons: our small class sizes, use of research equipment, and 
heavy dependence on tendered faculty to do teaching are 
expensive. We are committed to that expense, a cost that is 
partially defrayed by our annual tuition, but also underwritten 
by alumni donations and grants. Federal Government, state 
legislatures, and other financial supporters have to 
acknowledge and face squarely the fact that hands-on science is 
expensive.
    As I stated in my recommendation, we need the NSF budget 
doubled to help cover some of these costs. We cannot rely on 
science being effectively taught in lecture rooms with 400 
students and in laboratories that use antiquated equipment and 
rely on teaching assistants and cookbook lab manuals.
    To excite and interest students in science, we need to have 
them do science as it is actually done. Many of our nation's 
colleges and universities have opted for a cost-effective 
method of instruction with little concern for the educational 
effectiveness of that approach. We need to eliminate overly 
large introductory courses, often with instructors who see 
their role being to discourage, rather than to encourage, 
majors.
    But none of us can rest on our laurels any more than a 
research scientist stops studying and investigating after a 
successful experiment. Instead, we need to continue to refine 
the way we teach. We need to do research pedagogies, we need to 
disseminate what works, and just as importantly, what doesn't. 
We need to concern ourselves with what we teach. Textbooks have 
gotten enormous. We can't jam all of the material down our 
students' throats. My friend, Bruce Albert's, textbook, is 
endearingly nicknamed ``Fat Albert'' by the students. We have 
to sift and winnow, and we need to constantly be reviewing and 
refining the curriculum. We need to keep learning how people 
learn and let that inform our teaching. The world is not 
waiting for us. We have to keep changing, improving, and 
educating.
    What can the Federal Government do to help strengthen the 
pipeline at the undergraduate level? The NSF needs to support 
the development of new pedagogies and new curricula and then 
support the implementation and dissemination of the 
methodologies that are successful. Funds must be provided for 
the equipment and supplies that are needed to implement the 
most effective teaching. At Beloit, we have discovered that 
students' use of research-grade equipment, even at the 
introductory course level, has been enormously successful in 
teaching all students how science is done. We need to have 
support to build the new science and engineering buildings that 
will enable us to apply the latest methodologies and house the 
needed classroom laboratories for exciting and interesting 
science education. Finally, we need to support our faculty to 
do research and remain scientifically current.
    Science and engineering education is expensive. It does 
cost more than other fields, and that fact needs to be 
acknowledged and the funds need to be provided. The future is 
challenging, but there is no reason that we can't be successful 
in providing an exciting STEM curriculum that includes all of 
our students.
    Thank you for your attention.
    [The prepared statement of Dr. Burris follows:]

                  Prepared Statement of John E. Burris

Chairman Inglis and distinguished Members of the Subcommittee,

    My name is John Burris and I am the President of Beloit College. I 
appreciate the opportunity to present testimony today and am honored to 
do so. I extend my thanks to Chairman Inglis and the other Members of 
the Subcommittee for holding a hearing on ``Undergraduate Science, 
Technology, Engineering, and Mathematics Education: What's Working?'' I 
present this testimony from the perspective of a president of a liberal 
arts college with a long and distinguished record in science and math 
education. My convictions have been influenced also by my eight years 
as the director of the Marine Biological Laboratory (MBL) in Woods 
Hole, Massachusetts, an institution dedicated to research and graduate 
education.
    In recent years there has been considerable apprehension and 
concern expressed regarding the ability of the United States to compete 
in a world economy increasingly driven by science and technology. These 
concerns have been reflected in particular in the last several years 
when over twenty reports have been issued that state concerns about the 
United States and its future leadership ability to address critical 
needs of our society through the applications of science and 
technology.\1\
---------------------------------------------------------------------------
    \1\ Project Kaleidoscope Report on Reports II: Recommendations for 
Urgent Action, Executive Summary and Calls to Action
---------------------------------------------------------------------------
    Although I share many of the concerns expressed in these reports 
and agree with a number of solutions proposed, I am not going to tackle 
all the problems they identify. Instead I will address specifically the 
questions posed to the panel, focusing on science, technology, 
engineering and mathematics (STEM) education at the undergraduate 
level. My remarks will conclude with a specific recommendation:

         That as the overall budget of the National Science Foundation 
        (NSF) is doubled in the next ten years, doubled dollars be 
        intentionally targeted for programs that strengthen and sustain 
        the capacity of America's undergraduate institutions to serve 
        the national interest by preparing students to be the 
        innovators, the life-long learners and civic leaders, and the 
        participants in the 21st century workplace needed for our 
        country to prosper in these challenging days.

    This is a timely hearing. As our country seeks to respond to new 
challenges and opportunities and shape the recently announced 
`America's Competitive Initiative,' I welcome the opportunity to make 
the case for undergraduate STEM as a critical link in America's 
scientific and technological infrastructure.
    To have a well-trained workforce, we must educate undergraduates in 
STEM fields, preparing them as K-12 math/science teachers, for graduate 
education that leads to a professional career as an academic or 
research scientist, or for the increasing number of jobs that require 
scientific and technological expertise. To have a functioning 
democracy, we must prepare all undergraduates to understand the nature 
of the scientific process, whether or not they choose to major in a 
STEM field. An educated public is critical to providing the resources 
and encouragement the United States will need to maintain its role as a 
world leader in science and technology.
    Your first question was: What obstacles have we encountered in 
recruiting and retaining STEM majors. . .and how are we measuring the 
effectiveness of our actions?
    Responding to this question is an opportunity to talk about 
successes at Beloit, successes common to the larger liberal arts 
college community for which I speak today, successes which have more 
than a twenty-year history. In the mid-1980's it was painfully apparent 
America was not doing a good job of educating undergraduates in STEM, a 
circumstance having a ripple-effect up and down the scientific 
pipeline. The famous ``champagne glass'' image of that time graphically 
illustrated that the point of serious attrition in science enrollments 
was during the first two college years. This reality triggered a 
careful review of science education by the National Science Board, 
which became a catalyst for national reform efforts led by groups such 
as Project Kaleidoscope (PKAL), with leadership funding from the NSF.
    Much of our knowledge of what does and does not work was summarized 
in reports such as What Works: Building Natural Science Communities 
(PKAL, 1991). Over many years of direct observation it had become clear 
that students learn science best in small classes with extensive hands-
on experience in a so-called inquiry-based approach. They learn best in 
settings in which lectures and laboratory experiences are merged, with 
ample opportunity for collaborative work in posing, exploring and 
solving problems, rather than everything being tackled on an individual 
basis. It was clear that participation in research and open-ended 
problem solving captured the attention and intellect of the students.
    One of the primary reasons I came to Beloit College was my 
firsthand interactions at the MBL with students from small liberal arts 
colleges, such as Beloit, and others within the Associated Colleges of 
the Midwest and the Independent Colleges Office, two consortia of which 
we are a part. At the MBL, we had established a ``Semester in 
Environmental Sciences'' program where students from small liberal arts 
colleges took courses and did independent research. I was incredibly 
impressed with the preparation of those young men and women. They had 
clearly been taught to think independently and critically at these 
schools and were able to conduct graduate level research while in Woods 
Hole.
    Beloit College is a private, national liberal arts college 
enrolling 1250 students. A recent national study by the Higher 
Education Data Sharing (HEDS) consortium has identified Beloit College 
as one of the leading producers of doctoral degree recipients in the 
Nation, placing Beloit 20th out of roughly 2,000 U.S. baccalaureate 
degree-granting institutions in the proportion of its graduates 
continuing on to receive a Ph.D. degree, and 11th among 165 national 
liberal arts colleges. Beloit is a member of the Science 50 group of 
liberal arts colleges noted for its Ph.D. productivity in the sciences. 
One of our goals is to continue to be a significant source of students 
who receive science Ph.D. degrees.\2\
---------------------------------------------------------------------------
    \2\ Report on Natural Sciences and Mathematics at Beloit College
---------------------------------------------------------------------------
    Beloit College is remarkable as the home site for two major, NSF-
funded national efforts, the BioQUEST Curriculum Consortium and the 
ChemLinks Coalition. In addition to the BioQUEST Consortium and 
ChemLinks Coalition, Beloit has been a major contributor to NSF-
supported efforts to bring solid state chemistry and materials science 
into the undergraduate curriculum, with the development and class 
testing of many of the labs and demonstrations published in Teaching 
General Chemistry: A Materials Science Companion and a decade of 
subsequent articles in the Journal of Chemical Education. As a founding 
member and the second host campus for the Keck Geology Consortium of a 
dozen leading liberal arts colleges, Beloit has contributed to and 
benefited from this collaborative student/faculty research network for 
18 years with its summer field research projects, shared research 
equipment, annual research symposium, and community of science scholars 
and teachers. The UMAP Journal, published by the Consortium for 
Mathematics and its Applications to focus on mathematical modeling and 
applications of mathematics at the undergraduate level, has been housed 
at Beloit College since its inception in 1995. As part of the NSF-
supported calculus reform effort, a Beloit faculty member published 
Applications of Calculus in conjunction with other liberal arts college 
mathematicians.
    For our students at Beloit, we have developed and tested inquiry-
based, collaborative, and research-rich experiences at the introductory 
and intermediate levels, based on the emerging understanding of how 
students learn best through intensive engagement, as recently 
summarized in the National Research Council's How People Learn.
    We are currently in the process of building a new Center for the 
Sciences whose design and technology reflects the experience we have 
developed over the past decade through our national leadership role in 
developing and disseminating new models and materials for undergraduate 
science education. Planning has followed the Project Kaleidoscope 
(PKAL) model of starting with goals for students, pedagogy, and 
curriculum, and working outward to the design of the physical spaces 
needed to accomplish them. But the present successes of Beloit, 
although repeated at many institutions, are not universal. This leads 
me to respond to your next question.

What are the obstacles to implementing similar improvements at other 
institutions of higher education?

    Here the answers are easy, from my perspective as a college 
president educated as a research scientist: the rapid pace of change; 
the cost of responding to that pace of change; and the lack of a long-
range, comprehensive plan to do so.
    I emphasized above the strength of Beloit's undergraduate STEM 
programs. In large part our excellence and the capacity of our faculty 
pioneers to design, develop, and then disseminate their work and 
findings to the broader undergraduate community is due to informed 
support from the NSF. In responding twenty years ago to the ``champagne 
glass'' signal about problems in the scientific pipeline, NSF supported 
undergraduate faculty pedagogical pioneers, those building and 
sustaining undergraduate STEM learning environments in ways that 
reflected research on how people learn, made the best use of emerging 
technologies, and emphasized ``doing science'' in the process of 
``learning science.''
    So, a real obstacle today is the lack of a similar national effort, 
most visible in the continued decline in support for precisely the kind 
of efforts like BioQuest and ChemLinks, efforts that were ignited, 
piloted, sustained and disseminated because of visible and persistent 
support from the National Science Foundation. This is a costly effort, 
but the greatest cost will be the loss of talent in the service of our 
nation.
    We may not be preparing the numbers of students in STEM fields the 
United States needs to ensure a vital economy, although I must 
emphasize that the quality of students we produce may be a more 
important benchmark than purely numbers. It is, however, important to 
think about numbers in thinking about obstacles to ensuring that all 
college graduates are scientifically literate. I have examined data and 
information from the 2006 NSB Indicators about real increases in 
undergraduate enrollments (expected to grow from 18.5 million in 2000 
to 21.7 million in 2015).\3\ These numbers become even more daunting in 
the context of thinking about the changing student demographics, as 
well as about the need for all 21st century students to become 
scientifically, quantitatively, and technologically literate as one 
outcome of their undergraduate learning experience.
---------------------------------------------------------------------------
    \3\ NSB Science and Engineering Indicators, 2006: Volume 1
---------------------------------------------------------------------------
    Yet, it is of national concern that on many campuses, students 
still drop out of these majors during their early college years. Why is 
this happening? When science is not presented as science is done, when 
faculty see it as their responsibility to use introductory course to 
eliminate students rather than to encourage them, when classes are too 
large and laboratories are neither interesting nor challenging, 
students will demonstrate displeasure by changing majors. If this 
problem is not attacked with a national effort, the current legislation 
making its way through the House and the Senate for providing increased 
numbers of scholarships for students preparing to be a K-12 science or 
math teachers will be a bad investment. Just having a scholarship might 
not be enough to keep a student interested in persisting in the study 
of mathematics and science.
    We do have an idea of how to correct this problem, for at liberal 
arts colleges such as Beloit, it is not unusual to have 80 percent of 
students entering as prospective science/math majors graduate as majors 
in those fields. But even the Beloits of the world cannot rest on our 
laurels, anymore then a research scientist stops studying and 
investigating after a successful experiment. Instead we need to 
continue to refine the way our students learn, to continue to 
experiment with what works, to disseminate what works and to continue 
to examine what does not work for the 21st century students coming on 
to our campuses. Students are changing, and science is changing.
    This brings me to a further point about the nature of change. Over 
ten years ago, Albert Gore, then U.S. Senator, said:

         ``We could seat children in rows and talk at them when we were 
        going to expect them to stand in rows in factories and mills. 
        If they are to be prepared to be the workers and thinkers of 
        the 21st century, they must be experiencing the world directly, 
        guided by teachers who act as coaches in helping them to 
        formulate and answer difficult questions. Now we must give our 
        children the opportunity to use and strengthen every creative 
        and inquiring instinct they possess. We know that they must 
        learn to work cooperatively, to write intelligently, to speak 
        persuasively, and to acquire a fundamental level of competence 
        in math and science.''

    If we examine these words from the perspective of preparing coming 
generations of K-12 math/science teachers, it tells us what their 
undergraduate experience should be; if we examine them from the 
perspective of preparing new entrants in the workplace, it is equally 
clear that the character and quality of the undergraduate STEM learning 
environment is a critical factor.
    The changing nature of science is clearly reflected in the NSF 
Budget Request to Congress from the research directorates. The current 
and new programs they outline are explicitly focused on the future. 
What they now fund and propose to fund will be keeping my community of 
biologists at the cutting-edge of exploration, discovery, and 
application.\4\
---------------------------------------------------------------------------
    \4\ NSF FY07 Request (Selected Programs Re: Undergraduate STEM)
---------------------------------------------------------------------------
    As a biologist, I am compelled by this careful analysis of how 
biology is changing and where biology is growing, and welcome the new 
NSF programs in the research directorates that support the future of 
the field about which I am still passionate. But as a biologist now 
wearing the hat of a college president, I am frustrated by the lack of 
a similar vision of the future for the undergraduate learning 
environment and of NSF's role in shaping that future.
    Thus, I suggest at least three obstacles that we will have to 
address as a nation: how to serve the increased numbers and increasing 
diversity of undergraduates; how to keep the 21st century STEM learning 
community at the leading edge in integrating research and education; 
and incorporating insights from research on how people learn in shaping 
the learning environment for all students.
    Neither NSF's current budget figures or program analyses reflect an 
awareness (and here I speak as a biologist) that the systems are 
interconnected, interrelated, and interdependent. The strength of 
Beloit's programs are in direct relationship to the opportunity to 
benefit from and leverage grants from NSF programs twenty years ago 
that responded to the growing awareness that each link in the Nation's 
scientific and educational infrastructure has to be strong if the 
system is to function effectively.
    I conclude with my recommendation in responding to your final 
question: what can the Federal Government do to help in identifying, 
assessing and disseminating what works at the undergraduate level that 
serves to strengthen the entire system of America's scientific, 
technological and educational enterprise?

         RECOMMENDATION: That as the overall budget of the National 
        Science Foundation (NSF) is doubled in the next ten years, 
        doubled dollars be intentionally targeted for programs that 
        strengthen and sustain the capacity of America's undergraduate 
        institutions to serve the national interest by preparing 
        students to be the innovators, the life-long learners and civic 
        leaders, and the participants in the 21st century workplace 
        needed for our country to prosper in these challenging days.

    This recommendation has implications for all the stakeholders, not 
just for NSF. My presidential colleagues (within the select liberal 
arts community and beyond) are concerned about the continued shrinking 
of budgets for the kind of undergraduate programs that stimulated a 
generation of pioneering pedagogies like BioQuest and ChemLinks.
    I mentioned earlier that this was a timely hearing. For the first 
time in twenty years, our nation is wrestling with hard questions about 
our future and America's capacity to face an uncertain future with 
confidence. Congressional response to these reports has been welcome, 
but merely increasing the number of scholarships available to 
undergraduates exploring STEM careers is not enough. Our Beloit 
experience with `what works' offers specific ideas for use of a doubled 
budget for undergraduate programs at NSF. We do know what works. There 
is a solid base from which to expand and enhance NSF programs in the 
coming decade; it is not necessary to start from scratch.
    Significant parts of what works are: i) attention to how students 
learn; ii) an institutional culture that has a common vision about the 
value of building research-rich learning environments; and iii) faculty 
who are eager to remain engaged within their disciplinary community, 
and who have the resources of time and instrumentation to do so. The 
value of dissemination networks, collaborations and partnerships has 
been highlighted in many recent reports, as well as signaled by the 
work of PKAL and other NSF-funded dissemination networks.
    To determine how best to program the doubling of NSF undergraduate 
funds over the next ten years, I propose a NSB task force be 
established. Its charge would be to outline NSF undergraduate 
priorities and budgets in ways that respond to recommendations in the 
many recent national calls for action.
    We would like on the table for their consideration programs that 
support institution-wide initiatives and an expansion of programs that 
give faculty from predominantly undergraduate institutions opportunity 
to engage in cutting-edge research appropriate for research teams that 
include undergraduates. Further, we ask for continued and expanded 
programs for the kind of course, curriculum and laboratory improvements 
that have enabled colleges like Beloit to be at the cutting-edge in 
shaping 21st century learning environments for 21st century students. 
Much of this is already happening at NSF, and we are glad for programs 
such as Research in Undergraduate Institutions (RUI), the Research 
Opportunities Award (ROA) and the Major Research Instrumentation (MRI) 
and other programs within the research directorates that provide 
critical opportunities for undergraduate faculty to be a contributing 
part of their scholarly disciplinary community. But most successes are 
isolated, piecemeal, and underfunded. They do not lead collectively to 
the kind of interdisciplinary, interdependent world in which most 21st 
century scientists and citizens will be working and living.
    The 2003 Business Higher Education Forum report, Building a Nation 
of Learners: The Need for Changes in Teaching and Learning to Meet 
Global Challenges, challenges us all.

         ``We must immediately support activities that, by 2010, give 
        two generations of students the benefit of a higher education 
        system that is more attuned to giving students the analytical 
        skills, the learning abilities, and the other life-long 
        learning skills and attributes needed to adapt to 21st century 
        workplace realities.''

1.  EXHIBIT A: PROJECT KALEIDOSCOPE REPORT ON REPORTS II: 
RECOMMENDATIONS FOR URGENT ACTION, EXECUTIVE SUMMARY AND CALLS TO 
ACTION

2.  EXHIBIT B: REPORT ON NATURAL SCIENCES AND MATHEMATICS AT BELOIT 
COLLEGE

3.  EXHIBIT C: NSB SCIENCE AND ENGINEERING INDICATORS, 2006: VOLUME 1

4.  EXHIBIT D: NSF FY07 REQUEST (SELECTED PROGRAMS RE: UNDERGRADUATE 
STEM)

Representing the Associated Colleges of the Midwest and the Independent 
Colleges Office: Allegheny College (PA); Augsburg College (MN); 
Augustana College (IL); Beloit College (WI); Birmingham-Southern 
College (AL); Bowdoin College (ME); Bucknell University (PA); Calvin 
College (MI); Carleton College (MN); Claremont McKenna College (CA); 
Coe College (IA); Colby College (ME); Colgate University (NY); College 
of the Holy Cross (MA); College of Wooster (OH); Cornell College (IA); 
Dickinson College (PA); Grinnell College (IA); Harvey Mudd College 
(CA); Hope College (MI); Illinois Wesleyan University (IL); Kalamazoo 
College (MI); Knox College (IL); Lake Forest College (IL); Lawrence 
University (WI); Macalester College (MN); Monmouth College (IL); 
Oberlin College (OH); Pomona College (CA); Reed College (OR); Ripon 
College (WI); Skidmore College (NY); St. John's University (MN); St. 
Lawrence University (NY); St. Olaf College (MN); The Colorado College 
(CO); Union College (NY); University of Redlands (CA); University of 
Richmond (VA); Wheaton College (MA).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

EXHIBIT B

                REPORT ON NATURAL SCIENCES & MATHEMATICS

                             BELOIT COLLEGE

                               BELOIT, WI

    Beloit College is a private, national liberal arts college in 
southern Wisconsin, enrolling 1250 students. A recent national study by 
the Higher Education Data Sharing (HEDS) consortium\1\ has identified 
Beloit College as one of the leading producers of doctoral degree 
recipients in the Nation, placing Beloit 20th out of roughly 2,000 U.S. 
baccalaureate degree-granting institutions in the proportion of its 
graduates continuing on to receive a Ph.D. degree, and 11th among 165 
national liberal arts colleges. Beloit is a member of the Science 50 
group of liberal arts colleges noted for its Ph.D. productivity in the 
sciences. One of our goals is to continue to be a significant source of 
students who receive science Ph.D. degrees.
---------------------------------------------------------------------------
    \1\ Higher Education Data Sharing (HEDS) consortium, Baccalaureate 
Origins of Doctoral Recipients, January 1998. Data drawn from NSF 
CASPAR database (caspar.nsf.gov).

MISSION: At Beloit College science teaching and learning is of central 
importance. The Division of Natural Sciences and Mathematics at Beloit 
adopted a Mission Statement that placed significant weight on educating 
all students to understand the processes as well as the concepts of 
science in order to make informed decisions in their lives. Our vision 
is that all students understand how to choose questions to study 
scientifically and why those questions are important, as well as the 
practical applications and their social and ethical consequences of the 
answers to those questions. They should gain that understanding through 
inquiry-based courses and through laboratory and field experiences that 
---------------------------------------------------------------------------
model how science is done.

VISION: Additionally, our vision is that students majoring in one of 
the sciences at Beloit College should be prepared for and encouraged to 
participate in research in and out of formal courses, and should be 
able to begin to practice their craft and to function as professionals 
in their chosen scientific field. This includes, but is not limited to, 
asking appropriate questions, seeking solutions to their questions, 
communicating their results to specific and general audiences, and 
understanding their responsibility to engage in each of these 
activities. All students majoring in the sciences should be prepared to 
practice science in this way regardless of whether they anticipate a 
career in science.

PROGRAM: For all students, we have developed and tested inquiry-based, 
collaborative, and research-rich experiences at the introductory and 
intermediate levels, based on the emerging understanding of how 
students learn best through intensive engagement, as recently 
summarized in the National Research Council's How People Learn.\2\ In 
this national science education reform effort, Beloit College has been 
in the vanguard. As highlighted by Priscilla Laws in her 1999 Daedalus 
article,\3\ liberal arts colleges have been leaders in science 
education reform, and Beloit College is remarkable in hosting two of 
those national efforts, the BioQUEST Curriculum Consortium and the 
ChemLinks Coalition. Both of these projects were also highlighted in a 
2001 Science feature ``Getting More Out of the Classroom'' in an 
article ``Reintroducing the Intro Course.'' \4\ The ChemLinks project 
and its Beloit connections were also featured in the American Chemical 
Society's Chemical and Engineering News in a 2002 feature ``Focusing on 
Reform.'' \5\ Quite recently, a Policy Forum in Science on ``Scientific 
Teaching'' \6\ includes references to teaching materials from BioQUEST, 
ChemLinks, and a Materials Science project that was partially authored 
and class-tested at Beloit.
---------------------------------------------------------------------------
    \2\ National Research Council, How People Learn: Brain, Mind, 
Experience, and School, National Academy Press, Washington, D.C., 2000.
    \3\ Priscilla W. Laws, New Approaches to Science and Mathematics 
Teaching at Liberal Arts Colleges, Daedalus, J. Am. Acad. Arts and 
Sciences, Vol. 128, No. 1, Winter, 1999, pp. 271-240.
    \4\ Erik Stokstad, ``Reintroducing the Intro Courses,'' Science, 
Vol. 293, 31 August 2001, pp. 1608-1610.
    \5\ Amanda Yarnell, ``Focusing on Reform,'' Chemical and 
Engineering News, Vol. 80, Num. 43, October 28, 2002, pp. 35-36.
    \6\ Jo Handelsman et al., ``Scientific Teaching,'' Science, Vol. 
304, 23 April 2004, pp. 521-522 and online supporting materials.
---------------------------------------------------------------------------
    For more than a decade, the hallmark at Beloit has been the 
``workshop'' or ``studio'' format courses that combine inquiry-based 
classroom and laboratory activities; these have spread from 
introductory chemistry and biology courses into intermediate courses in 
both of those departments, and more recently into physics, geology, and 
computer science courses. Some examples:

        <bullet>  ``Concept Test'' interactive response systems are now 
        used in introductory physics courses.

        <bullet>  Organic Chemistry uses a guided-inquiry approach in 
        the classroom, instead of traditional lectures, and inquiry-
        based labs using two new research-grade capillary gas 
        chromatographs as well as NMR and IR spectroscopy.

        <bullet>  The Genetics course uses BioQUEST materials with 
        weekly poster presentations of student projects.

    Three successive Howard Hughes Medical Institute (HHMI) grants have 
supported interdisciplinary curricular development, and successive 
National Science Foundation Course, Curriculum, and Laboratory 
Improvement (NSF CCLI) grants have provided instruments and student/
faculty research time to develop inquiry-based experiments. We have 
seen burgeoning enrollments in these courses as we have made them more 
inquiry-based and interactive, with careful attention to measuring 
student learning as we use these new approaches. NSF-funded ChemLinks 
assessment studies have shown that these new approaches provide 
significant increases in conceptual understanding and in scientific 
reasoning skills for students, while also increasing their confidence 
in their ability to do chemistry successfully.
    Throughout the sciences, almost all majors graduate having had at 
least one full-time research experience, many two, and some three. In 
addition, many students are actively involved in academic year research 
at Beloit with faculty research colleagues. Similar opportunities exist 
for students who seek clinical or public health experience, and we are 
increasingly able to find overseas placements for students with a 
particular international interest.

FACULTY: One of our goals has been to provide support and encouragement 
in faculty efforts to transform the undergraduate science experience at 
Beloit through collaborative work regionally and nationally, as well as 
within the Science Division at Beloit. The early and highly successful 
establishment of the Pew Midstates Science and Mathematics Consortium, 
and its continuation since the end of the Pew Charitable Trusts funding 
has provided a forum for curricular change across a dozen leading 
liberal arts colleges, Washington University in St. Louis, and the 
University of Chicago. The ongoing Pew Faculty Workshops and inter-
campus visits, as well as the annual Undergraduate Research Symposia, 
have stimulated curricular reform and supported undergraduate research.

NATIONAL LEADERSHIP: In addition to the BioQUEST Consortium and 
ChemLinks Coalition, Beloit has been:

        <bullet>  a major contributor to NSF-supported efforts to bring 
        solid state chemistry and materials science into the 
        undergraduate curriculum, with the development and class 
        testing of many of the labs and demonstrations published in 
        Teaching General Chemistry: A Materials Science Companion\7\ 
        and a decade of subsequent articles in the Journal of Chemical 
        Education.
---------------------------------------------------------------------------
    \7\ A.B. Ellis et al., Teaching General Chemistry: A Materials 
Science Companion, American Chemical Society, Washington, D.C., 1993.

        <bullet>  a founding member and host campus for the Keck 
        Geology Consortium of a dozen leading liberal arts colleges, 
        Beloit has contributed to and benefited from this collaborative 
        student/faculty research network for 18 years with its summer 
        field research projects, shared research equipment, annual 
        research symposium, and community of science scholars and 
---------------------------------------------------------------------------
        teachers.

        <bullet>  a founding member of Project Kaleidoscope (PKAL), 
        continuing to contribute to and benefit from that collaboration 
        as well.

        <bullet>  home since 1995 to The UMAP Journal, published by the 
        Consortium for Mathematics and its Applications to focus on 
        mathematical modeling and applications of mathematics at the 
        undergraduate level.

        <bullet>  a part of the NSF-supported calculus reform effort; a 
        Beloit faculty member published Applications of Calculus\8\ in 
        conjunction with other liberal arts college mathematicians.
---------------------------------------------------------------------------
    \8\ P.D. Straffin, editor, Applications of Calculus, Mathematical 
Association of America, 1996.

INSTRUMENTATION: In 2001, Beloit replaced an aging scanning electron 
microscope (SEM) with a new research-grade JEOL SEM with an energy-
dispersive spectrometer (EDS) for elemental analysis. This state-of-
the-art system, obtained with an NSF CCLI grant to a faculty member in 
Geology and matching funds from an earlier Kresge Foundation challenge 
grant for a scientific equipment endowment, has catalyzed a number of 
research and course-related imaging and elemental analysis projects 
ranging from Geology, Biology, Chemistry, and Physics to Archaeology 
and Museum Studies. The ability to examine the surface of a solid 
sample in detail and determine the elemental composition of individual 
regions provides an extremely powerful tool not only for answering 
important research questions, but also for connecting students' visual 
and structural understanding with chemistry on the nanoscale. Naturally 
occurring minerals collected in the field, light emitting diodes 
(LEDs), computer circuits, CDs, nanowires and quantum dots synthesized 
by students, and tool marks on archaeological samples become 
fascinating images that draw the science major and the non-major 
equally into the process of asking questions and gathering and 
interpreting data to answer them. Our experience with this instrument 
has strongly reinforced our emerging view that providing research-grade 
instruments to students as soon as they can help them pose and answer 
interesting questions makes sense educationally. Having such 
instruments that can be used in a variety of disciplines not only is 
cost-effective, but it promotes the kind of interdisciplinary 
---------------------------------------------------------------------------
experience our students want and need.

FACILITIES: We are currently in the process of building a new Center 
for the Sciences whose design and technology reflects the experience we 
have developed over the past decade through our national leadership 
role in developing and disseminating new models and materials for 
undergraduate science education. Planning has followed the PKAL model 
of starting with goals for students, pedagogy, and curriculum, and 
working outward to the design of the physical spaces needed to 
accomplish them. The degree of spatial integration among the 
disciplines that we plan is highly unusual. Another indication of our 
long-term planning for interdisciplinary integration has been the 
intention from the start to bring Psychology into the sciences with the 
plan to build more programmatic and laboratory space links among 
biology, biochemistry, and psychology to reflect the direction that 
neurobiology, pharmacology, and physiological psychology are taking.
    Since its founding in 1846, Beloit College has offered one of the 
Nation's most rigorous and inventive science curricula. As we maintain 
our position as a leading, national liberal arts college, Beloit's new 
state-of-the-art science facility will house and match our leading-edge 
science program in the new millennium, empowering the education of all 
Beloit students.

EXHIBIT C

          NSB SCIENCE AND ENGINEERING INDICATORS 2006 VOLUME 1

    The need for greater attention at the national level to the quality 
and character of America's undergraduate STEM learning environment.

1.  DEMOGRAPHICS & BACCALAUREATE DEGREES (Chapter 2)

        <bullet>  ``The importance of higher education in science and 
        engineering is increasingly recognized around the world for its 
        impact on innovation and economic development.''

        <bullet>  ``In recent years, demographic trends and world 
        events have contributed to changes in both the numbers and 
        types of students participating in U.S. higher education.''

        <bullet>  ``. . .global competition in higher education is 
        increasing. Although the United States has historically been a 
        world leader in providing broad access to higher education. . 
        ., many other countries are expanding their own higher 
        education systems, providing comparable educational access to 
        their own population. . ..''

        <bullet>  ``After declining in the 1990's, the U.S. college-age 
        population is currently increasing and is projected to increase 
        for the next decade.'' ``According to U.S. Census Bureau 
        projects, the number of college-age (ages 20-24) individuals is 
        expected to grow from 18.5 million in 2000 to 21.7 million by 
        2015.''

        <bullet>  ``Changes in the demographic composition of the 
        college-age population as a whole and increased enrollment 
        rates of some racial/ethnic groups have contributed to changes 
        in the demographic composition of the higher education student 
        population in the U.S.'' ``The demographic composition of 
        students planning S&E majors has become more diverse over 
        time.''

        <bullet>  ``The baccalaureate is the most prevalent degree in 
        S&E, accounting for 77 percent of all degrees awarded. S&E 
        Bachelor's degrees have consistently accounted for roughly one-
        third of all Bachelor's degrees for the past decade. Except for 
        a brief downturn in the late 1980's, the number of S&E 
        Bachelor's degrees has risen steadily, from 317,000 in 1983 to 
        415,000 in 2002.''

2.  S&E LABOR FORCE (Chapter 3)

        <bullet>  ``An estimated 12.9 million workers reported needing 
        at least a Bachelor's degree level of S&E knowledge--with 9.2. 
        million reporting a need for knowledge of the natural sciences 
        and engineering and 5.3 million a need for knowledge of the 
        social sciences. That the need for S&E knowledge is more than 
        double the number in formal S&E occupations suggests the 
        pervasiveness of technical knowledge in the modern workplace.''

        <bullet>  ``The 3.1 percent average annual growth rate in all 
        S&E employment is almost triple the rate for the general 
        workforce.''

        <bullet>  ``S&E occupations are projected to grow by 26 percent 
        from 2002 to 2012, while employment in all occupations is 
        projected to grow 15 percent over the same period.''

        <bullet>  ``Recent recipients of S&E Bachelor's and Master's 
        degrees form an important component of the U.S. S&E workforce, 
        accounting for almost half of the annual inflow into S&T 
        occupations. Recent graduates' career choices and entry into 
        the labor market affect the supply and demand for scientists 
        and engineers throughout the United States.''

        <bullet>  ``Although it is a very subjective measure, one 
        indicator of labor market conditions is whether recent 
        graduates feel that they are in `career-path' jobs.''

3.  S&T: PUBLIC ATTITUDES AND UNDERSTANDING (Chapter 7)

        <bullet>  ``Knowledge of basic scientific facts and concepts is 
        necessary not only for an understanding of S&T related issues 
        but also for good citizenship.''

        <bullet>  ``Having appreciation for the scientific process may 
        be even more important. Knowing how science works, i.e., 
        understanding how ideas are investigated and either accepted or 
        rejected, is valuable not only for keeping up with important 
        science-related issues and participating meaningfully in the 
        political process, but also in evaluating and assessing the 
        validity of various types of claims people encounter on a daily 
        basis.''

4.  ELEMENTARY AND SECONDARY EDUCATION (Chapter 1)

        <bullet>  ``Strengthening the quality of teachers and teaching 
        has been central to efforts to improve American education in 
        recent decades. Research findings consistently point to the 
        critical role of teachers in helping students to learn and 
        achieve. Many believe that. . .changes in teaching practices 
        will occur if teachers have consistent and high-quality 
        professional training.''

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                      Biography for John E. Burris

EDUCATION:

September 1972--December 1976: Ph.D. in Marine Biology from the Scripps 
        Institution of Oceanography, University of California, San 
        Diego. Thesis title: Photo-respiration in Marine Plants--
        advisors A.A. Benson and O. Holm-Hansen

September 1971--June 1972: M.D.-Ph.D. program at the University of 
        Wisconsin, Madison

September 1967--June 1971: A.B. in Biology from Harvard University

PROFESSIONAL EXPERIENCE:

August 2000-present: President, Beloit College, Beloit, Wisconsin

September 1992-August 2000: Director and Chief Executive Officer, 
        Marine Biological Laboratory, Woods Hole, Massachusetts

July 1988-September 1992: Executive Director, Commission on Life 
        Sciences, National Research Council, Washington, D.C.

October 1984-January 1989: Director, Board on Biology, Commission on 
        Life Sciences, National Research Council

June 1989-2001: Adjunct Professor of Biology, the Pennsylvania State 
        University, University Park, Pennsylvania

October 1985-June 1989: Adjunct Associate Professor of Biology, the 
        Pennsylvania State University

June 1983-October 1985: Associate Professor of Biology, the 
        Pennsylvania State University

December 1976-June 1983: Assistant Professor of Biology, the 
        Pennsylvania State University

September 1972-December 1976: Research Assistant in Marine Biology, 
        Scripps Institution of Oceanography, University of California, 
        San Diego

BOARDS AND ADVISORY COMMITTEES:

Member, National Science Foundation Science of Learning Centers Site 
        Visit Team in October, 2005

National Associate of the National Academies (November, 2003-present)

Chairman, Committee to Review the Partnership for Interdisciplinary 
        Studies of Coastal Oceans (PISCO) for the Packard Foundation 
        (September-December, 2003)

Member, Executive Committee, Wisconsin Association of Independent 
        Colleges and Universities (2003-present)

Member, Board of Directors, Wisconsin Foundation for Independent 
        Colleges (2003-2005)

Member, Board of Directors, American Association for the Advancement of 
        Science, Washington, D.C. (2002-2006)

Member, Board of Directors, Radiation Effects Research Foundation, 
        Hiroshima, Japan (2001-present)

Member, Board of Trustees, The Grass Foundation, Braintree, 
        Massachusetts (2001-present)

Member, Consiglio Scientifico, Stazione Zoologica `Anton Dohrn,' 
        Naples, Italy (1996-present)

Member, Awards Committee for Biodiversity Leadership, Bay and Paul 
        Foundations, New York, NY (1996-present)

Chairman, Advisory Committee on Student Science Enrichment Program, The 
        Burroughs Wellcome Fund (1995-2002)

Consultant, Committee on Science and Human Values, National Conference 
        of Catholic Bishops (1993-2002)

Member, Board of Trustees, The Krasnow Institute, Fairfax, Virginia 
        (1999-2002)

Co-Chairman, Scientific Advisory Committee of the Law and Science 
        Academy of the Einstein Institute for Science, Health and the 
        Courts, Washington, D.C. (1999-2001)

Member, National Aeronautics and Space Administration Life and 
        Microgravity Sciences and Applications Advisory Committee 
        (1997-2001)

Member, Commission on Life Sciences, National Research Council/National 
        Academy of Sciences (1993-1997)

Member, Steering Committee, the Policy Center for Marine Biosciences 
        and Technology, The University of Massachusetts, Boston (1993-
        2001)

Awards Committee, American Institute of Biological Sciences (AIBS) 
        (1998)

Member, Science Curriculum for State Court Judges Presiding in Toxic 
        Exposure Cases, Georgetown University Medical Center and Law 
        Center (1991-1992)

Co-chair, Disciplinary Workshop on Undergraduate Education in Biology 
        for the Directorate for Science and Engineering Education at 
        the National Science Foundation (1988)

Chairman, External Advisory Committee for the University Research 
        Initiative Program in Marine Biotechnology at the University of 
        Maryland and The Johns Hopkins University (1987-1991)

Member, University Research Initiative Evaluation Panel in Marine 
        Biotechnology, Office of Naval Research (1986)

PROFESSIONAL AND HONORARY SOCIETIES:

Member: American Association for the Advancement of Science, American 
        Institute of Biological Sciences (AIBS), Phi Beta Kappa

Past-president, January-December 1997, American Institute of Biological 
        Sciences (AIBS)

President, January-December 1996, American Institute of Biological 
        Sciences (AIBS)

President-elect, January-December 1995, American Institute of 
        Biological Sciences (AIBS)
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Chairman Inglis. Thank you, Dr. Burris.
    Dr. Goroff.

STATEMENT OF DR. DANIEL L. GOROFF, VICE PRESIDENT FOR ACADEMIC 
       AFFAIRS; DEAN OF THE FACULTY, HARVEY MUDD COLLEGE

    Dr. Goroff. Chairman Inglis and distinguished 
Representatives of the Subcommittee, I very much appreciate the 
opportunity to participate in these hearings on what is working 
in undergraduate science, mathematics, and engineering 
education.
    And to illustrate what is working, I think of a senior 
named Stephanie at Harvey Mudd College, who has been invited to 
professional physics conferences as the only undergraduate 
there to speak about her research findings. Actually, this 
happens rather routinely to our students. Once, though, a well-
known researcher came over to her faculty advisor to praise 
Stephanie and her talk and to ask if the advisor had thought 
about how very unlikely it was that Stephanie's discovery could 
lead to a product with commercial potential. The advisor cut 
him off and said, ``You don't get it.'' She pointed across the 
room at Stephanie and said, ``That is my product. I produce 
physicists.''
    Three quick points about this story.
    First of all, the United States needs more undergraduate 
``products'' like Stephanie. ``But how many do we need?'' 
everyone asks. All of the recent reports about competitiveness 
raise alarms based on the number of scientists and engineers 
being trained abroad. As a mathematician, I am a big skeptic 
about numbers. Perhaps China really is producing hundreds of 
thousands more engineers annually than we do. Well, the Chinese 
Army is also very big. But regarding either our military forces 
or our scientific workforce, I am less interested in body 
counts and more interested in the capacity that young people 
like Stephanie demonstrate for teamwork, communication, 
innovation, and creativity, not to mention a familiarity with 
the latest technology.
    We may never be able to recruit as many technical students 
as the Chinese are now, but we do have lots and lots of 
potential Stephanies, and U.S. institutions can, precisely 
because we do not have to operate at such huge scales, do a 
better job at selecting and enculturating productive members of 
our scientific communities. As with the Army, more scholarships 
and other incentives may help with initial recruiting, but what 
ultimately keeps people working effectively is a sense of 
belonging to a community that is purposeful, well-equipped, and 
important to society.
    I have met so many undergraduates at Harvey Mudd and at 
Harvard and throughout the country who passionately want to 
become scientists, engineers, mathematicians, or teachers so 
that they can devote their talents to solving some of the 
world's problems. My hope is that the admirable intentions of 
the President's American Competitiveness Initiative will be 
implemented in ways that not only provide these passionate 
students with temporary scholarships but that also demonstrate 
to them that careers in these professions can be as sustained 
and sustaining over a lifetime as the other kinds of 
opportunities available to U.S. students.
    Which brings me to point number two. We need more faculty 
like Stephanie's advisor. Again, I find little of the interest 
or talent, but much to be learned from community-building 
organizations like Project Kaleidoscope and Harvard's Derek Bok 
Center for Teaching and Learning.
    Point number three. We need more programs that can prepare 
students like Stephanie for exciting work as an engineer, 
mathematician, teacher, or scientist. What good is it to 
attract young people to study a field unless we have the 
institutions and the infrastructure for providing appropriate 
programs, courses, and experiences?
    Changes in science and technology are so rapid and so 
expensive today that it is hard to expect each individual 
college on its own to keep its facilities, its curricula, and 
its facilities all up-to-date without benefiting either from an 
occasional grant or from the result of grants made to other 
organizations.
    The Division of Undergraduate Education at NSF has 
traditionally supported everything from teacher preparation to 
course, curriculum, and laboratory improvement. The budget for 
such work has been slashed in recent years, though. Regardless 
of what you think should happen to K-12 educational efforts at 
NSF, support for undergraduate education should not only remain 
based at the National Science Foundation, it should thrive 
there. This is essential to achieving the goals of the American 
Competitiveness Initiative since the college years are so very 
critical for both the future teachers we need to improve K-12 
science and mathematics education as well as the technical 
specialists we need to improve innovation and economic 
competitiveness. Trying to promote innovation and 
competitiveness without paying careful attention to the role of 
undergraduate education would be as absurd as trying to promote 
progress in science and engineering without paying careful 
attention to the role of mathematics.
    And finally, let me assure you that Stephanie, with four 
published papers so far, is not a magical exception but rather 
an inspirational example of what can work widely. Over 20 
original mathematical papers have been published in reference 
journals by Harvey Mudd College undergraduates during the past 
four years. And Mudders' names were on 13 patent disclosures 
last year alone.
    Through our clinic program, students work on real design-
testing or research projects, cases, if you will, proposed and 
sponsored by industries or by the Federal Government. These 
clinic experiences are carefully structured to develop those 
student skills related to communication, teamwork, leadership, 
and creativity. For example, Fluid Master will soon begin 
manufacturing a toilet designed by Harvey Mudd undergraduates 
that saves 10 percent of the water needed per flush. The 
National Institute of Standards and Technology has supported 
the development at HMC of a system that first responders can 
use to warn them when a burning building is about to collapse. 
And both Hewlett Packard as well as Amgen are commissioning 
international clinics this year that will also help students 
learn to work, think, and cooperate globally.
    These are just a few examples and principles illustrating 
what works when you actually set out to produce engineers, 
educators, and mathematicians, not to mention scientists like 
Stephanie.
    I would be happy to provide more details during the 
question period.
    [The prepared statement of Dr. Goroff follows:]

                 Prepared Statement of Daniel L. Goroff

    Chairman Inglis and distinguished Members of the Subcommittee, I 
appreciate the opportunity to participate today in hearings on 
``Undergraduate Science, Mathematics, and Engineering Education: What's 
Working.''
    There is a story many of us like to tell about what has made 
America's economy run like clockwork that goes like this:

        (1)  Investment in instruction

        (2)  Invigorates innovation and

        (3)  Increases incomes.

    This three-step process for producing prosperity and progress is 
somewhat oversimplified, as I will point out. But that has hardly 
mattered much in the past because the theory was not testable anyway. 
We could not, after all, run history over again to experiment with 
whether investing in Science, Technology, Engineering, and Mathematics 
(STEM) education as we did, say, after Sputnik, really was an important 
cause of our subsequent economic prosperity and growth.
    The good news is that we now have better evidence that some form of 
this STEM-winder story was right all along. The bad news, according to 
many Americans, is that this evidence is being generated in countries 
like China and India rather than in the U.S. But is this such bad news? 
A threat to our nation? A perfect storm that will wash away all we 
treasure?

Opportunity or Threat?

    I want to begin by arguing that, although global trends in STEM 
education and employment do demand our attention, we should welcome 
them for at least three reasons besides the fact that us storytellers 
are being proven correct:

    First, these global trends are good for the world. We are 
witnessing how STEM education can lift diverse, poor, and even hopeless 
people from socioeconomic status lower than most Americans can imagine 
into the stable middle or even entrepreneurial classes of their 
countries. Science need not discriminate on the basis of race, 
religion, or gender; its efficacy is a heritage potentially available 
to all. And in a world that feels more and more like it is about to 
fall apart, we can still communicate and agree about scientific 
findings more easily than about matters that divide civilizations.
    Second, these trends are good for science. There is growing 
excitement and enthusiasm all over the world for STEM and STEM 
education. And so there is so much we can learn from one another, 
especially if the U.S. remains a hub for the scientific exchange of 
both people and ideas. Enthusiasm and excitement about STEM still 
exists among many young Americans, too, not to mention a great deal of 
idealism in the undergraduates I meet about dedicating their talents to 
serving others and solving problems by teaching, innovating, and 
leading: they volunteer to Teach for America; they want to help address 
world-wide challenges like AIDS or global warming or sustainable energy 
or cyber security; and some just want to make an amazing discovery or 
start the next big high-tech company along the way, too.
    A third reason why the trends abroad are good is that they provide 
a wake-up call. We must re-examine our STEM policies and practices in 
ways that mattered less when the U.S. enjoyed such undisputed dominance 
in science and technology. For decades, the oversimplified STEM-Winder 
story we started with was good enough. Now it is time to examine, 
critique, and refine how we imagine and design policy based on each of 
the three steps in our recipe for economic bliss.

The Chinese Army

    As an organizational leader these days, one of my favorite 
questions is, ``What problem are we trying to solve?'' Our challenge 
today is not simply to devote more dollars to STEM, or even to create 
more STEM majors. Those may be means to an end, at least if we go about 
such tasks wisely. But the real goal is to reap the prosperity and 
progress promised by our original story. Most recent attention has 
focused on how many STEM specialists different countries are educating. 
What conclusion should we draw from reports that, while the U.S. 
trained 70,000 new engineers in 2005, India produced 350,000 and China 
600,000? Or was it only 400,000 in China (they counted people without 
B.S. degrees) and 100,000 in the U.S. (including computer scientists as 
in the Chinese data)?
    As a mathematician, I am very suspicious about numbers (though I am 
sometimes impressed by growth rates). The Chinese Army is also very 
big, after all. But quality counts as well as quantity. What gives me 
faith in the U.S. military has less to do with efforts to recruit more 
individuals (especially since we cannot keep up anyway) than with the 
teamwork, communications, leadership, creativity, and innovation 
embodied in its institutions. Similarly, I want to emphasize and 
illustrate how STEM policy recommendations should not only support 
incentives for individuals, but also support the kinds of 
infrastructure and institutions those individuals need to get the job 
done well. This point of view helps, at each step, with distinguishing 
among: (a) good policies aimed at individuals; (b) better policies that 
address the collective nature of STEM work; and (c) best examples to 
inspire us.

Step 1: Will investing in education produce more STEM workers?

(1a) There are currently some good policy recommendations before 
Congress dealing with individual incentives. Kavita Shukla in her 
Bachelor's degree thesis at Harvard, recently asked fellow students 
about the $20,000 annual scholarships for STEM majors called for by the 
NRC report Rising Above the Gathering Storm (RAGS). While 50 percent 
professed no interest whatsoever in science or engineering, 14 percent 
said they would switch to a STEM field if such support were available. 
At present, only 18 percent of Harvard undergraduates are STEM 
concentrators, so this would be a huge increase.
    Will there be enough students arriving at college with the 
prerequisites to make such a switch into STEM fields? RAGS sets 
ambitious goals for expanding Advanced Placement classes in high 
school. One basis for my confidence that we can meet these goals has 
been the success of the ThinkFive Services for supporting AP teachers 
and students online, whose development I helped advise in partnership 
with AgileMind, Inc. and the Dana Center at the University of Texas at 
Austin.
    Will there be enough qualified teachers? Again, I take heart from 
the success of examples like the ``Masters in Mathematics for 
Teaching'' degree program founded as a partnership between the Harvard 
Mathematics Department and the Division of Continuing Education.
    Will undergraduates continue on in STEM? Tables in Appendix 1 show 
that applications for NSF graduate fellowships improve both 
quantitatively and qualitatively in response to the kinds of spending 
enhancements advocated by RAGS. This data was compiled by Richard 
Freeman and Tanwin Chang for the Scientific and Engineering Workforce 
Project at the National Bureau of Economic Research.

(1b) While we can help produce more STEM degree holders in these ways, 
will they then go on to become working scientists and engineers? The 
opportunity costs to a U.S. undergraduate incurred by going into the 
life sciences, say, as opposed to business, law, or medicine are 
substantial--approximately $1 million in present value according to 
calculations by Richard Freeman. So policy must also address retention 
through means that are not just financial.
    Besides dollars, what makes people persist in their fields is a 
shared sense of collective purpose and mutual support. This sense of 
community is what works in the military, after all. Policies will 
therefore be even more effective to the extent that they build 
infrastructure and institutions that reduce uncertainty, indignities, 
and delays for groups of young STEM workers.

(1c) The best policy levers for promoting the healthy growth of STEM 
communities are, for now, at the National Science Foundation (NSF). It 
is no secret that the Education and Human Resources (EHR) Directorate 
at NSF is being decimated. Significant funds have been taken out of the 
hands of scientists, engineers, and mathematicians there, and 
transferred to the Department of Education. This may or may not make 
sense for K-12. But the staff and clientele of the Division of 
Undergraduate Education (DUE) at EHR used to represent a strong 
community of expertise dedicated to improving STEM education at the 
college level. While funding can and should be restored and predictably 
grown at least in proportion to total NSF budget growth, the community 
associated with DUE is in danger of scattering irretrievably.

Step 2: Will more STEM workers produce more innovation and invention?

(2a) The RAGS report is one of dozens of similar accounts that 
implicitly link the number of STEM workers present with the rate of 
technological innovation and invention. Obsession with counting bodies 
seems rooted in romantic idealism about scientific discovery: 
inspiration, like lightning, unpredictably strikes those with good STEM 
educations, so the more well-educated lightning rods in your country, 
the higher the likelihood of a hit? Again, we are not so special that 
we can ignore lessons from other countries. During the Cold War, for 
example, the Soviet Union did not innovate or invent in proportion to 
its highly talented, vast, and technically well-trained workforce--
mainly because the economic infrastructure functioned so poorly under 
communist central planning.
    Of course, the RAGS report does present good suggestions for 
providing individual incentives and rewards to STEM workers who 
innovate or invent, including 200 new grants of $500,000 over five 
years for young researchers as well as a new Presidential Innovation 
Award. These would be welcome additions to the already large number of 
``winner-take-all'' tournaments in STEM. But Richard Freeman has 
pointed out that, although setting up competitions this way may 
motivate people who believe themselves likely to win, many others may 
also be discouraged from trying their best. Compared to schemes that 
acknowledge and reward cooperation, the net result could actually be 
less effort and fewer discoveries in total.
    It is not just individual winners, but whole communities that are 
important enablers of STEM progress. The number of research papers or 
patent applications with multiple authors has been exploding relative 
to the number from lone geniuses. It takes teamwork, communication, as 
well as interactions within and between fields to make discoveries. 
Rather than flashing from the sky, think of scientific energy as 
coursing around networks. Scientists are at the nodes of these 
networks, and I am all in favor of increasing their numbers, but it is 
the strength, density, reach, and interfaces of their networks (STEM 
cells?) that promote the innovation and invention we seek.

(2b) In the STEM wars, then, as in military or political campaigns, the 
one with the biggest staff does not necessarily win. We have to make 
sure our forces are well deployed, equipped, connected, and coordinated 
if we expect results against overwhelming odds. So better policy menus 
will not just address individuals, but also support institutions and 
infrastructure, associations and assemblies, international and 
interdisciplinary interactions, etc. Besides the hardware in 
laboratories, the software in machines, and the wetware in brains, we 
need this kind of fragile STEM-ware, too, to give shape to scientific 
efforts that might otherwise be fluid, fleeting, and dispersed.

(2c) The best example of a group that has vigorously promoted 
innovation and invention by STEM faculty and students has been Project 
Kaleidoscope (PKAL). Founded in 1989 as an ad hoc organization, PKAL is 
dedicated to improving the environment for undergraduate STEM 
education--including everything from the design of science buildings to 
the career development of young academics. Most recently, PKAL has also 
worked on establishing international exchanges of undergraduate STEM 
activists. The spectacular success of this kind of association needs to 
be institutionalized and expanded, perhaps in the form of a national 
center for undergraduate STEM education.

Step 3: Will innovation and invention produce more progress and 
                    prosperity?

(3a) The RAGS report also presents good suggestions for providing 
incentives to individual corporations and commercial endeavors in the 
U.S. New R&D tax breaks and intellectual property protections would 
certainly be welcome by those organizations. This is the RAGS to riches 
section of the report.

(3b) But if globalization teaches us anything, it is that new ideas do 
not stay put. So even if, in the romantically idealistic account, 
inspirational lightning strikes a scientist in one country, there is no 
real way of stopping that energy from being transmitted, sooner or 
later, to other specialists and entrepreneurs throughout the world. Who 
eventually benefits? We all might, when discoveries lead to better, 
cheaper, or more healthy products. The real question, however, concerns 
whether new industries and their profits are retainable within one 
country or another. We often talk as if comparative advantage in high 
technology production necessarily accrues to nations with a large and 
inexpensive supply of interchangeable STEM workers. Perhaps it is the 
networks that matter more than the individuals for this purpose, too. 
Think of the robust economic success embodied by communities that are 
close-knit, well-connected, and have well-established rules for trust 
and competition like Silicon Valley, the consumer electronics business 
in Finland, the diamond district in New York, or the shipping trade in 
Hong Kong. Such examples are the result of high investments not just in 
human capital, but in social capital--that is, in the ability to form 
and sustain mutually beneficially relationships.

(3c) The best example of how to form mutually beneficial relationships 
between undergraduate STEM students and STEM employers is the Clinic 
Program at Harvey Mudd College (HMC). For over 42 years, companies, 
national laboratories, and others with real technical problems they 
need solved have been bringing them to the Clinic Program for small 
groups of undergraduates to solve. Last year alone, the sponsors, who 
retain the intellectual property rights to the work, put students names 
on 13 patent disclosures. Whole divisions and product lines of 
corporations have been based on HMC projects. The students, in turn, 
learn about communication skills, teamwork, leadership, and innovation 
in addition to technical matters. A list of sample clinic projects 
appears in Appendix 4.
    Harvey Mudd College also conducts undergraduate research under 
other programs on topics ranging from the use chitosan--a remarkable 
healing agent secreted by shrimp shells--in hemorrhage control bandages 
to the mechanisms specific enzymes use to repair and remove damaged 
DNA; and from the design and testing of new GPS protocols to the 
invention of portable systems that give first responders a few minutes 
warning before a burning building collapses.
    Projects like these are not part of undergraduate education in 
other countries. Precisely because China and India have such enormous 
populations, their institutions of higher education operate at scales 
that do not facilitate the selection or education of students for 
creativity. The four-year liberal arts college is a uniquely American 
invention whose students contribute disproportionately to the STEM 
workforce. The economics of higher education, particularly in STEM 
fields, is particularly challenging at small schools like these. Like 
PKAL and DUE, the continuing ability of these institutions to continue 
their good work is not assured without some wise and timely policy 
interventions. The short answer about what works is community. That is 
why recommendations and reforms should support not only individual 
incentives, but also infrastructure and institutions.
    With less than six percent of the world's population, the United 
States cannot expect to dominate science and technology in the future 
as it did during the second half of the last century when we enjoyed a 
massively disproportionate share of the world's STEM resources. We must 
invest more the resources we do have, encourage those resources to 
produce economically useful innovations, and organize the STEM 
enterprise by working with diverse groups to make sure that innovations 
developed here or overseas produce prosperity and progress for all.
    Many believe that U.S. investments in STEM education following 
Sputnik paid off handsomely in later technological and economic 
advances. In 2005, word came that the European Union is sponsoring a 
satellite designed and built entirely by students. We must re-dedicate 
ourselves to what is working in undergraduate science, mathematics, and 
engineering education.

Appendix 1

                Undergraduate STEM Education Principles

 1.  I believe that what makes an educational institution great has 
less to do with the criteria used in magazine rankings and more to do 
with a shared sense of purpose and identity.
 2.  I believe that professors want to teach well and students want to 
learn well, but they sometimes need, and often welcome, help with 
figuring out how. Many also share my belief that education can help fix 
the world.
 3.  I believe that, just as you cannot fatten a calf by weighing it, 
simply requiring undergraduates to take standardized tests will not 
automatically improve college education.
 4.  I believe that teaching to the test is fine if it is a good test, 
but that Advanced Placement examinations should not be used to predict 
or preempt student performance in college courses.
 5.  I believe that content knowledge is necessary but not sufficient 
in order to become a successful teacher.
 6.  I believe that the sticker price of a college education can be 
crushingly high for too many families, that a college diploma should 
still be worth every penny paid for it (whether by the student or by 
society), and that tuition still does not cover the full cost of an 
undergraduate education, especially in technical fields such as science 
and engineering.
 7.  I believe in accountability, but also that accountability is not 
just a matter of collecting data. I believe in collecting data 
systematically, but also that the lack of statistical proof of what 
works does not excuse inaction.
 8.  I believe changes in science and technology are so rapid and so 
expensive that it is hard to expect each individual college on its own 
to keep its faculty, curricula, and facilities all up to date without 
benefiting either from an occasional grant of its own or from the 
results of grants made to other organizations.
 9.  I believe in competition when it comes to awarding grants. That 
should involve requests for proposals and peer review, organized by 
people who know how.
10.  I believe that interdisciplinary work is exciting but not a goal 
in and of itself, that students also need solid grounding in the 
basics, and that confronting real problems is one of the best ways for 
them to master both.
11.  I believe that science is best learned and practiced in groups 
rather than by lone geniuses. More important than the number of 
individual scientists available is the density, strength, reach, and 
organization of the relational networks connecting those scientists, 
both within a given country and internationally.
12.  I believe that sincere and thoughtful philosophical differences 
about education or government are healthy as long as they do not get in 
the way of working together for the good of the next generation.

Appendix 2

                 NSF Graduate Research Fellowship Data

    Prepared by Richard Freeman and Tanwin Chang for the Scientific and 
Engineering Workforce Project of the National Bureau for Economic 
Research.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Appendix 3

                    Facts About Harvey Mudd College

    A member of the Claremont University Consortium, Harvey Mudd 
College was founded in 1956 as ``The Liberal Arts College of Science, 
Mathematics, and Engineering'' and remains true to its mission 
statement:

         Harvey Mudd College seeks to educate engineers, scientists, 
        and mathematicians well versed in all of these areas and in the 
        humanities and social sciences so that they may assume 
        leadership in their fields with a clear understanding of the 
        impact of their work on society.

    The students at HMC are truly among the best and the brightest in 
the United States. According to applicant pool data, the four 
institutions with the greatest number of overlap applications are MIT, 
U.C. Berkeley, Caltech, and Stanford. Statistics for the 2005-6 
entering class include:

        <bullet>  Median SAT 1480

        <bullet>  27 percent National Merit Scholarship finalists

        <bullet>  91 percent in top 10 percent of their senior class

        <bullet>  26 percent valedictorians

        <bullet>  35 percent women

        <bullet>  35 percent students of color.

    HMC ranks 18 among liberal arts colleges in the U.S. News & World 
Reports survey, and second among undergraduate engineering programs. 
The Washington Monthly placed HMC fourth in its ranking of ``what 
colleges are doing for the country.''
    In 1997, HMC became the first undergraduate institution to win the 
prestigious International Association of Computing Machinery 
Programming Contest from among over 1,000 entries worldwide. In the 
prestigious William Lowell Putnam Mathematical Competition, HMC teams 
have earned top-ten spots in three of the past four years and finished 
twice in the top five, a record unsurpassed by any other undergraduate 
institution.
    In 2005, the American Mathematic Society presented HMC with its 
first-ever ``Award for an Exemplary Program or Achievement in a 
Mathematics Department.'' The citation reads:

         The American Mathematical Society (AMS) presents its first 
        Award for an Exemplary Program or Achievement in a Mathematics 
        Department to Harvey Mudd College in Claremont, California. The 
        Mathematics Department at Harvey Mudd College excels in 
        numerous dimensions. Its exciting programs have led to a 
        doubling of the number of math majors over the last decade. 
        Currently more than one out of every six graduating seniors at 
        Harvey Mudd College majors in mathematics or in new joint 
        majors of mathematics with computer science or mathematical 
        biology. Furthermore, about 60 percent of these math majors 
        continue their education at the graduate level.

         The Harvey Mudd College Mathematics Clinic has served as a 
        trailblazer and a model for other programs for more than thirty 
        years. This innovative program connects teams of math majors 
        with real-world problems, giving students a terrific research 
        experience as well as a glimpse at possible future careers. 
        Undergraduate research is a theme throughout the mathematics 
        program at Harvey Mudd College, as exemplified by the over 
        twenty papers published in the last three years by Harvey Mudd 
        College mathematics faculty with student co-authors.

Appendix 4

                   The Clinic at Harvey Mudd College:

        <bullet>  Sponsor proposes real problem

        <bullet>  The responsible Clinic Director appoints a team of 3-
        5 students, a student project manager, and a faculty advisor

        <bullet>  The sponsor appoints a liaison

        <bullet>  The students prepare a work statement (subject to 
        liaison agreement) to produce scheduled deliverables:

                --  Presentations, reports, prototype, models, 
                analyses, code. . .

        <bullet>  No guarantee of unique solution

        <bullet>  Fee paid by Sponsor = $41,000

Clinic Project Selection:

        <bullet>  Must be important to Sponsor

        <bullet>  Emphasizes design and experimental skills

        <bullet>  Allows for team interaction

        <bullet>  Work scope 1,200-1,500 person hours

        <bullet>  Fixed end date

        <bullet>  Concrete measurable goals

Computer Science Clinic Examples

The Boeing Company/ATM (2002-03)
Design and Prototype of a Low-Cost Weather Information System for 
General Aviation
Liaisons: James Hanson '64, Paul Mallasch
Advisor: Geoffrey Kuenning
Students: Paul Paradise, Luke Hunter, Kyle Kuypers, Rafael Vasquez

    Boeing ATM has tasked us with the design and implementation of a 
proof-of-concept design for delivering weather data to aircraft pilots 
in-flight. Using a Pocket PC PDA as a hardware architecture and a 
custom client and server, we are able to deliver METAR (Meteorological 
Reports) and NEXRAD (NEXt-generation RADar) to pilots. Our current 
implementation uses 802.11b wireless technology for the communication, 
but is ideally suited for satellite-based broadcast as a final product.

Medtronic MiniMed (2003-04)
Diabetes Data Management Software API Design and Implementation
Liaison: Pam Roller
Advisor: Belinda Thom
Students: Jessica Fisher, Mark Fredrickson, Aja Hammerly, Jon Huang

    With approximately 17 million people in the U.S. with diabetes, 
Medtronic MiniMed has produced several distinct lines of diabetes 
devices to aid in the treatment of the disease. These devices, however, 
do not utilize a standard communication format. The Clinic team is 
designing and implementing an extensible interface that will unify 
communication with Medtronic MiniMed's current and future insulin 
pumps, glucose sensors, and related diabetes technology.

Engineering Clinic Examples

The Aerospace Corporation (2003-04)
Development of Picosat Add-On Boards
Liaisons: Samuel Osofsky '85, Nelson Ho
Advisor: John Molinder
Students: Andrew Cole (Team Leader), Nathan Mitchell, Brian Putnam, 
        Daniel Rinzler, Gabriel Takacs, Philip Vegdahl

    Picosats are very small satellites (typically a 4'' cube) launched 
in conjunction with a larger satellite. Aerospace designed the original 
Picosats, with the first placed in orbit in 2000. The technology has 
the potential to be used for a variety of tasks, including imaging of 
the launch vehicle to evaluate damage. A Harvey Mudd College 
Engineering Clinic team developed digital camera and GPS add-on boards 
for the Picosat platform. A single board was designed that is able to 
support either a camera or a GPS daughterboard. The engineers at 
Aerospace were surprised and pleased that the team was able to 
accomplish the project goals using primarily commercial off-the-shelf 
technologies, thus increasing the system's reliability. The board is 
provisionally scheduled to fly on an upcoming Space Shuttle mission.

Center for Integration of Medicine and Innovative Technology (2004-05)
Design of a Prototype Cooling System to Prolong and Preserve Limb 
Viability
Liaisons: Alex Pranger '92/'93
Advisor: Donald Remer
Students: Nicolas von Gersdorff (Team Leader), Jay Chow, Michael Le, 
        Robert Panish, Ajay Shah

    While combat armor advancements have increased soldiers' survival 
rates, modern weaponry ravages warfighters' extremities, causing 
massive trauma and tissue loss; two-thirds of the more than 10,000 
combat injuries in Iraq and Afghanistan afflicted patients' limbs. 
Inducing local hypothermia (i.e., significant cooling of the affected 
limb) would prolong limb viability, lengthening the window for soldiers 
to obtain restorative and regenerative care and thereby avoid 
amputations. The Harvey Mudd team developed a lightweight, easily 
deployable, evaporative cooling wrap to induce therapeutic hypothermia 
on the battlefield. A patent disclosure has been filed, and the next 
stage of development is underway by the project sponsor.

9Fluidmaster, Inc. (2004-05)
Innovative Designs for Flushing Systems
Liaisons: Chris Coppock
Advisor: Lori Bassman
Students: Joe Laubach (Team Leader), Shawna Biddick, Rami Hindiyeh, 
        Joey Kim, John Onuminya, Sarah Taliaferro

    Fluidmaster, Inc. is a worldwide supplier of plumbing products. The 
company is determined to aid in the conservation of scarce fresh water 
as well as to enable people worldwide to enjoy the benefits of safe and 
reliable sanitation. This requires a cost-effective and reliable 
flushing system that uses a consistent low volume of water regardless 
of variations in supply water pressure and toilet resistance. The HMC 
team designed and prototyped two designs that accomplished these goals, 
resulting in a reduction of 0.1 gallon per flush, a potentially very 
significant improvement. Two provisional patents were awarded to the 
team, and Fluidmaster has indicated their intention to take one of the 
designs to market.

UVP, Inc. (2004-05)
Uniform Illumination for Fluorescent In Vivo Imaging
Liaisons: Sean Gallagher, Darius Kelly, Colin Jemmott '04
Advisor: Qimin Yang, Deb Chakravarti (KGI)
Students: Alyssa Caridis (Team Leader), Stephanie Bohnert, Ekaterina 
        Kniazeva, Erika Palmer, Laura Moyer, Jeremy Bolton (KGI), Linda 
        Chen (KGI)

    In order to improve the accuracy and effectiveness of live animal 
in vivo imaging, UVP tasked a team of Harvey Mudd College and Keck 
Graduate Institute students to design, simulate, and test innovative 
imaging systems to achieve unparalleled illumination uniformity. 
Uniform lighting is needed for quantitative analysis of images of live 
creatures, which are used for research into cancer and other diseases. 
The team developed novel methodologies for measuring light uniformity 
as well as several successful designs for the lighting system itself. A 
successful 3-D image lighting system will allow researchers to follow 
the pattern of tumors in the same test animal, improving the 
understanding of the disease and simultaneously reducing the number of 
animals needed for such tests. UVP filed several patent disclosures 
based on the team's work, and is in the process of bringing one of the 
designs to market.

Mathematics Clinic Examples

HP Labs (2004-05)
Analyzing and Correcting Printer Drift
Liaisons: John Meyer, Gary Dispoto
Advisor: Weiqing Gu
Students: Jeffrey Hellrung (PM), Brianne Boatman, Durban Frazer, Katie 
        Lewis

    In color printing, a look-up table (LUT) is a mapping from a 
computer's color space to the ink combinations required to print these 
colors. An LUT will drift over time due to a variety of factors 
including mechanical and environmental changes, resulting in an 
undesirable change in the printed results. Currently, constructing a 
new LUT is a time consuming process. This project focused on developing 
a quicker method to recalibrate a printer when drift occurs.

VIASAT, INC. (2001-02)
Using Elliptic Curve Cryptography for Secure Communication
Liaison: Hunter Marshall
Advisor: Weiqing Gu
Students: Simon Tse (TL), Colin Little, Cameron McLeman, Braden Pellett

    The ViaSat clinic team will present methods for performing secure 
cryptography over an insecure network by 1) Introducing the use of 
algebraic objects known as elliptic curves to accomplish this task 2) 
Presenting Diffe-Hellman key exchange protocol using elliptic curve 
cryptogtaphy (ECC) 3) Discussing potential attacks on this cryptosystem 
and 4) Demonstrating their implementation of this algorithm allowing 
two network users to agree upon a secret key over an insecure 
connection.

Physics Clinic Examples

University of California Irvine Department of Otolaryngology (2003-04)
Modification of a Laryngoscope for Optical Coherence Tomography
Liaison: Brian Wong
Adivisors: Elizabeth Orwin, Robert Wolf
Students: Nikhil Gheewala (PM), River Hutchison, Tonya Icenogle, Rachel 
        Lovec

    Currently laryngeal cancer can only be diagnosed with biopsies 
which are invasive, permanently damaging, and can miss cancerous 
tissue. Optical Coherence Tomography (OCT) is an imaging technique that 
non-invasively images several millimeters into tissue to seek 
structural abnormalities, which can indicate cancer. We will design and 
construct an OCT device for attachments to a laryngoscope that will 
image two-dimensional cross-sections in the larynx, for the purpose of 
diagnosing laryngeal cancer in its early stages.

Sandia National Laboratories
Optical Characterization of Coated Soot Aerosols or ``Flames and 
Laser''
Fall 2004 Students: Mark Dansson, Rachel Kirby, Tristan Sharp, Shannon 
        Woods, Mike Martin. Spring 2005 Students: Patrick Hopper, 
        Brendan Haberle, Matt Johnson, Julie Wortman, Mark Dannson, 
        Octavi Semonin
Advisor: Peter Saeta

    The optical properties of coated soot aerosols produce the greatest 
uncertainty in climate change models. This project aims to measure the 
scattering and absorption of light by sub-micron-sized soot particles 
similar to those produced in diesel exhaust. Total absorption and 
scattering cross sections of 635 nm laser light are measured using 
cavity-ringdown and angle-resolved scattering techniques. Soot 
particles are created in situ by partially combusting ethylene and 
coated with a volatile organic compound.

                     Biography for Daniel L. Goroff
    Daniel Goroff is Vice President for Academic Affairs and Dean of 
the Faculty at Harvey Mudd College. He has held this post since July of 
2005, when he also became a member of both the Mathematics and the 
Economics Departments.
    Goroff earned his B.A.-M.A. degree in mathematics summa cum laude 
at Harvard as a Borden Scholar, an M.Phil. in economics at Cambridge 
University as a Churchill Scholar, and a Ph.D. in mathematics at 
Princeton University as a Danforth Fellow.
    Goroff's first faculty appointment was at Harvard University in 
1983. He is currently on leave from his position there as Professor of 
the Practice of Mathematics, having also served as Associate Director 
of the Derek Bok Center for Teaching and Learning, and Resident Tutor 
at Leverett House.
    A 1988 Phi Beta Kappa Teaching Prize winner, Goroff has taught 
courses for the mathematics, economics, physics, history of science, 
and continuing education departments at Harvard. He was also the 
founding director of a Masters Degree Program in ``Mathematics for 
Teaching'' offered through the Harvard Extension School.
    In pursuing his work on nonlinear systems, chaos, and decision 
theory, Daniel Goroff has held visiting positions at the Institut des 
Hautes Etudes Scientifiques in Paris, the Mathematical Sciences 
Research Institute in Berkeley, Bell Laboratories in New Jersey, and 
the Dibner Institute at MIT.
    In 1994, Goroff was elected to a three-year term on the Board of 
Directors of the American Association for Higher Education (AAHE). 
During 1996-97, he was a Division Director at the National Research 
Council (NRC) in Washington, and during 1997-98, Goroff worked for the 
President's Science Advisor at the White House Office of Science and 
Technology Policy (OSTP). That year he was named a ``Young Leader of 
the Decade in Academia'' by Change: The Magazine of Higher Education.
    As Director of the Joint Policy Board for Mathematics (JPBM) from 
1998 to 2001, Daniel Goroff was called to testify about educational and 
research priorities both by the House and again by the Senate during 
the 106th Congress. He currently serves as Chair of the U.S. National 
Commission on Mathematics Instruction at the National Research Council, 
and co-directs the Sloan Scientific and Engineering Workforce Project 
at the National Bureau of Economic Research.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Ehlers. [Presiding] Thank you very much.
    And I apologize for the musical chairs here, but Chairman 
Inglis has another committee he has to go to periodically to 
vote.
    I also thank you for reminding us of the important role 
both of you at the smaller liberal arts colleges play, and I 
think they provide the best teacher candidates that I have seen 
in many cases. I also have a connection to Harvey Mudd, because 
your--one of your predecessors, a dean, tried to recruit me 
some years ago to come and teach at Harvey Mudd, and----
    Dr. Goroff. We are going to try again.
    Mr. Ehlers. I am too old. Thank you.
    But next, we are pleased to recognize Ms. Collins from 
Moraine Valley Community College, which I have no connection 
with, but welcome. We look forward to your testimony.

  STATEMENT OF MS. MARGARET SEMMER COLLINS, ASSISTANT DEAN OF 
 SCIENCE, BUSINESS, AND COMPUTER TECHNOLOGIES, MORAINE VALLEY 
                       COMMUNITY COLLEGE

    Ms. Collins. That is okay. By the time I am done, you will 
all feel very comfortable with Moraine Valley Community 
College.
    Good morning, Mr. Chairman, and Members of the Committee. 
Thank you for this opportunity to testify on behalf of Moraine 
Valley Community College. My name is Margaret Collins, and I am 
the Assistant Dean of Science, Business, and Computer 
Technologies.
    Moraine Valley is located in the southwest suburban Cook 
County in Illinois. I mention this because community colleges 
are all about the communities they serve. I have considered 
this community my home for my entire life, and I consider 
myself a southsider, just like the World Champion Chicago White 
Sox. I was raised in a little suburb called Marinette Park and 
now live and raise my children, Carly and Billy, in Evergreen 
Park. My sister lives two blocks away, and my parents are right 
down the street.
    Moraine Valley is the second largest community college in 
Illinois out of 48 with a spring 2006 headcount of just under 
16,000. We offer 123 degree and certificate programs and have 
just over 46,000 students enrolled annually. We also encounter 
obstacles to recruitment and retention of STEM majors.
    As we converse today about the recruitment and retention of 
STEM undergraduates, I bring the unique perspective of the 
community college. Certainly, our struggles are similar to 
institutions that grant upper-level degrees, and I echo the 
sentiments of the panel here today, but distinctive to the 
community college and unique to Moraine Valley Community 
College are issues that arise because of demographics, 
geographic boundaries, and open admission policies.
    Community colleges serve all people, and we are proud to do 
so, but we also must face obstacles, including under-
preparedness in math and science. With the high school 
population, we also encounter misalignment between secondary 
and post-secondary math and science, which causes a gap--a 
knowledge gap for many of the students entering Moraine Valley 
Community College. By all means, as an educator who works 
closely with area high schools, and who has children in a local 
elementary school, I sympathize with their struggles to meet 
and exceed state standards while providing a quality, well-
rounded education. I praise all of these teachers and educators 
for their efforts in this challenging time.
    Despite these obstacles, our discussion today must focus on 
solutions. Our most recent accomplishment has resulted from 
finely-tuned collaboration and lots of human energy. I am lucky 
to work with so many dedicated individuals. The Academy Awards 
would have the orchestra playing only a third of the way 
through my thank-yous. CSSIA, the Center for Systems Security 
and Information Assurances with much-appreciated funding from 
the National Science Foundation, also an ATE center, enables us 
to address issues of recruitment and retention from several 
perspectives.
    Briefly now, but in greater detail in the written 
testimony, the ATE center has been--helped us to develop 
curriculum, expand internship opportunities, build a Women In 
Technology mentoring program, produce video that showed 
technology in a more appealing and interesting way, offer a 
career development course that dispels common myths. We have 
also been able to provide low or no-cost teacher training and 
curriculum development. We have also developed an excellent 
outreach program, which I wanted to tell you a little bit more 
about today.
    During the past two years, I have had the opportunity to 
work with a very special group of students as part of our CSSIA 
outreach program. The high school students that attend the 
Mirta Ramirez Computer Science Academy in Chicago, Illinois do 
so because they seek careers as programmers, IT professionals, 
IT security specialists, and network engineers. Our efforts to 
assist these young people focus on providing a seamless 
transition from our high school--from high school to college. 
We have sponsored several on-campus events, combined with 
activities at their own school, that allow students to earn 
college credit, gain skills, and understand the importance of 
continuation beyond high school.
    Through our community outreach event and computer health 
clinics, students assist the community members by conducting 
virus scans and other security-related operations on PCs. The 
students also competed in teams and presented their projects 
before a judging committee. The winning teams were invited to 
Washington, DC to present at the annual ATE conference. My best 
experience as an educator was participating in the travel with 
these dozen or more students. The experience for all of us was 
pretty amazing, and the result of hard work, dedication, and 
good funding was visible to all.
    In addition to NSF funding, we have appreciated funding 
from other federal sources. It is outlined in greater detail in 
the written testimony, but Carl Perkins and Tech Prep funding 
has significantly aided our efforts to recruit and retain STEM 
majors. It has done this through dual credit, math alignment 
programs, tutoring, implementation of contextual learning, 
career exploration opportunities for high school and elementary 
students, and of course, to purchase equipment and supplies. 
The college also engages TRIO funds to provide support 
services, academic advising to create awareness, and again, to 
provide some tutoring and academic support.
    The colleges uses operational funds to help recruit and 
retain STEM majors. We do this by providing dual enrollment 
opportunities for advanced placement high school students in 
calculus, statistics, college algebra, trigonometry, biology, 
and chemistry. We work closely with the upper level colleges to 
create two-plus-two agreements that assists Moraine Valley 
students to transition into engineering and computer science 
programs. We improved diversity in our full-time teaching 
faculty through a strong commitment to diversity in our hiring 
practices.
    As for the measurement of effectiveness, my written 
testimony outlines in more detail the scrutiny and thoroughness 
applied to all of our assessment activities. At Moraine Valley, 
institutional effectiveness has always been, and will remain, a 
high priority for our institution, and I would be glad to 
entertain your questions upon conclusion of this statement.
    In closing, I would like to emphasize ways in which the 
Federal Government may continue to help us address the 
obstacles we face. We need to continue to emphasize the 
seriousness of the social and economic issues related to 
recruitment and retention of STEM majors. We need to provide 
more recognition to the role of the community college in 
providing pathways and opportunities in higher education, 
especially for the under-served and under-represented. We need 
to support--we need more support for post-secondary 
collaboration through Tech Prep and Carl Perkins. We also need 
to emphasize the social issues, including gender, race, and 
socioeconomic status. We also need to replicate successful best 
practices and programs.
    Thank you again for allowing the voice of the community 
college to be present at this hearing today. Community colleges 
have become, and will remain, a vital means for students 
otherwise unable to participate in higher education. The issue 
of recruitment and retention of science, technology, 
engineering, and math majors is crucial--is a crucial economic 
and social issue that demands greater consideration. I feel 
honored to have been afforded this opportunity to sit with an 
esteemed panel and to contribute to the discussion. I look 
forward to the positive outcomes that result from this 
conversation.
    [The prepared statement of Ms. Collins follows:]

             Prepared Statement of Margaret Semmer Collins

    Good morning Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to testify on the role of community colleges in the 
recruitment and retention of undergraduate science, math and 
engineering majors. I would like to introduce myself, my name is 
Margaret Collins and I come to you with fourteen years of experience in 
higher education. My experience includes college teaching, career and 
workforce development, grant writing and most recently academic affairs 
administration. My last twelve years of employment have been at the 
community college. Currently, I am the Assistant Dean of Science, 
Business & Computer Technologies at Moraine Valley Community College.
    I recognize the tremendous challenge that our nation's educational 
institutions face as we prepare graduates to compete in a global 
economy. My testimony today comes from the perspective of the community 
college, from my experiences at Moraine Valley Community College 
(MVCC). I intend to address obstacles to recruitment and retention of 
Science, Technology, Engineering and Math (STEM) majors at Moraine 
Valley Community College and discuss how we work towards minimizing the 
obstacles through extensive collaboration, grant funding and human 
capital.

Question One: What obstacles have I encountered at Moraine Valley 
Community College in recruiting and retaining STEM majors?

    Students who attend community college, specifically at Moraine 
Valley Community College face unique obstacles that students at upper 
division colleges and universities may not. Regardless of the 
particular institution, most STEM programs remain challenged by issues 
considered more universal to recruitment and retention.

        1.  Under preparedness or college readiness (traditional aged 
        students coming from high school). According to the United 
        States Department of Education, (2005) college readiness is one 
        of the seven national education priorities and although 
        improvement has been seen in recent years, too many students 
        remain unprepared for college.

                a.  Math remediation--based on the MVCC placement test 
                scores 54 percent of students in 2004 require some 
                level of developmental math before entering college 
                level algebra. This figure is up from 48 percent in 
                1999 (2005).
                <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                

                b.  High school science requirement for graduation--
                Graduation requirements in the State of Illinois 
                dictate that students complete two years of science 
                credit which is typically taken in the 9th and 10th 
                grades. (Office of the Governor, State of Illinois, 
                2005). This leaves a large gap between the completion 
                of high school science requirement and entrance into 
                community college science.

                c.  Curriculum not aligned across secondary and post-
                secondary institutions--Secondary curriculum is aligned 
                with the Illinois Learning Standards and the statewide 
                standardized exam. However, community college 
                curriculum aligns with the Illinois Articulation 
                Initiative (IAI) and the requirements of higher level 
                post-secondary colleges and universities. This often 
                causes a gap in the knowledge base that contributes to 
                under preparedness.

                d.  Transitional opportunities not well understood or 
                conveyed--Developmental guidance programs in area high 
                schools continue to improve in our region but extensive 
                work remains related to helping students understand 
                career paths, career development and their associated 
                educational plan. This task has become more complex 
                because of increasing specialization in STEM careers.

        2.  Lack of Opportunity

                a.  1st generation college students (neither parent has 
                a four year college degree or higher)--Ample research 
                on first generation college students exists. These 
                investigations consistently indicate that, compared to 
                students whose parents are college graduates, first 
                generation students are more likely to leave at the end 
                of the first year, be on a persistence track to a 
                Bachelor's degree after three years, and are less 
                likely to stay enrolled or attain a Bachelor's degree 
                after five years. (Pascarella, Pierson, Wolniak & 
                Terenzini, 2004). First generation students represent 
                67 percent of the MVCC student population.

                b.  Economically disadvantaged--Community colleges by 
                nature serve populations of students with great 
                diversity including socioeconomic status. MVCC is no 
                exception with a portion of the student based 
                considered economically disadvantaged.

                c.  Multiple priorities including work, other courses, 
                and family obligations--Community college students 
                trend towards having multiple priorities. According to 
                the MVCC spring 2005 Community College Survey of 
                Student Engagement, 60 percent of the respondents 
                indicated that their full time employment is likely to 
                lead to withdrawal, while 50 percent of the students 
                surveyed indicate that caring for dependents is a 
                likely reason to withdraw from class or the college.

        3.  Negative perceptions associated with science, technology, 
        engineering and math including:

                a.  Perception of poor labor market, few job 
                opportunities--Persistent belief that few jobs exist 
                for science, technology, math, and engineering majors 
                continues. At MVCC, informal student surveys reflect 
                this perception. nationally, most job outlook surveys 
                bolster this perception. For example, in the March 10th 
                edition of the USA Today, an excerpt from a recent 
                study compiled by the Department of Labor (2005), 
                showed strong job opportunities in allied health and 
                nursing, a brief mention of technology-related jobs, 
                and no mention of job opportunities in the traditional 
                areas of science and engineering.

                b.  Perception that STEM is unattractive, uninteresting 
                and only for the super smart--For decades our society 
                has perpetuated the stereotypical perception that 
                people who work in science, math, technology, and 
                engineering tends towards being very smart and less 
                interesting. Work to dispel the notion of the science 
                and computer geek has not progressed. Students continue 
                to associate these majors as being for a small group of 
                capable and stereotypical individuals. In a recent 
                survey of students published in the proceedings of the 
                2005 American Society for Engineering Education, 
                students listed as some reasons for not persisting in 
                STEM majors as due to the excessive work load, 
                sedentary lifestyle, anti-social nature, dullness/
                tediousness and competitiveness. (Yasuhara, 2005).

                c.  Perception of STEM as male oriented and male 
                dominated--The issue of gender bias in STEM majors 
                receives an abundance of research attention related to 
                the perception that these are male oriented and male 
                dominated fields. Research shows that many female 
                students not only have low expectations of themselves 
                in science classes, but also have stereotypical views 
                about scientists, believing that boys are more likely 
                to become scientists. This view has a negative effect 
                on the probability of girls considering science as a 
                career (Bohrmann & Akerson, 2001).

What actions has Moraine Valley Community College taken to over come 
the obstacles?

    At Moraine Valley Community College addressing the obstacles faced 
by students in STEM majors takes on different fundamental nature 
depending on the precise student population at hand. Moraine Valley, 
like most community colleges, enrolls students interested in a 
community college education as a means to an end, i.e., job training. 
Often referred to as the career program students, at MVCC these 
students make up half of our student population. The other half 
consists of students interested in earning credit hours and/or degrees 
that transfer to other institutions. We refer to these students as 
transfer program students and they are interested in a community 
college education as a vehicle to a Bachelor's degree or higher.
    For the career program students, those interested specifically in 
technology and engineering programs and degrees. Critical funding from 
the National Science Foundation, Carl Perkins and Tech Prep has enabled 
several of our programs to reverse the national trend of declining 
enrollment. Many of our programs have experienced increased enrollment 
and higher retention.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Funding from the National Science Foundation (NSF) over the past 
five years has resulted in significant impact on our success. These 
successes include the college's ATE Center and the Center for Systems 
Security and Information Assurances (CSSIA). The funding has resulted 
in helped us to:

        1.  Develop curriculum in mechanical design, pre-engineering, 
        Internet specialist, information technology security, wireless 
        and Voice Over IP (through two projects and the ATE center).

        2.  Expand internship opportunities by hiring an internship/
        externship coordinator exclusively designated for CSSIA.

        3.  Build a ``Women in Technology'' mentoring program that was 
        originally funded from a previous NSF project and now funded 
        through CSSIA.

        4.  Develop an outreach program for economically disadvantaged 
        inner city Hispanic youth who attend a computer science charter 
        school. The student population is half female.

    During the past two years, I have had the opportunity to work with 
a very special group of students as part of our CSSIA outreach program. 
The high school students, who attend the Mirta Ramirez Computer Science 
Academy, a charter school sponsored by Aspira of Illinois, are inner 
city Hispanic youth (Half Mexican and half Puerto Rican), of which half 
are also young women. They attend the computer science academy because 
they seek careers as programmers, IT professionals, IT security 
specialists, and network engineers.
    Our efforts to assist these young people focus on providing a 
seamless transition from high school to college. We have sponsored 
several on campus events combined with activities at their own school 
that provide opportunity for the students to earn college credit, learn 
about IT careers and understand the importance of continuation their 
education beyond high school. We organized a community outreach event, 
a computer health clinic, that enabled students to assist community 
members by conducting virus scans and other security related operations 
on PCs brought to the event. The students also competed in teams and 
presented their projects before an audience at the all day event. The 
teams with the best projects were invited to Washington, D.C. to 
present at the annual ATE conference. Twelve students traveled from 
their west side neighborhoods. The experience for all of us was pretty 
amazing and the result of hard work, dedication and good funding was 
visible to all.

        5.  Produce video segments that show technology related careers 
        as more appealing, interesting and attractive

        6.  Offer a career development course that dispels myths about 
        the poor labor market, provides career exploration through 
        specialized interest inventories, provides an outlet for career 
        related research in the areas of information technology

        7.  Provide low or no cost teacher training and curriculum 
        development opportunities that foster program updates. The 
        CSSIA faculty development opportunities have enabled us to 
        train over 800 faculty members on information assurance, 
        network security and wireless technologies.

    Carl Perkins and Tech Prep funding has significantly aided our 
efforts to recruit and retain STEM majors by enabling us to:

        1.  Provide dual credit opportunities for students in Career 
        and Technical Education (CTE) classrooms.

        2.  Develop a math alignment program that brings high school 
        teachers and college faculty together to discuss math 
        remediation and ways to better prepare high school students for 
        college math.

        3.  Develop and offer a tutoring program for Management 
        Information Systems students.

        4.  Provide professional development opportunities to teachers 
        at the secondary and post-secondary level to better implement 
        contextual learning.

        5.  Provide career exploration opportunities for high school 
        and elementary students that portray technology and engineering 
        in a more positive light.

        6.  Purchase updated instructional equipment supplies and 
        equipment to meet the ever changing demands of industry.

    The obstacles for transfer students, although similar to those of 
career program students, are handled differently and through different 
funding streams:

    Specifically, the college has several large Department of Education 
(DOE) grants from the TRIO program (Upward Bound, Talent Search and 
Student Support Services) that help us overcome obstacles and address 
recruitment and retention for STEM majors through activities that:

        1.  Provide support services, academic advising and career 
        planning for students already attending MVCC.

        2.  Create awareness about college opportunities for pre-high 
        school under-represented students who are economically 
        disadvantaged and/or first generation college bound.

        3.  Provide tutoring and academic support that addresses 
        remediation issues for under prepared students.

        4.  Offer career development opportunities that emphasize the 
        importance of college education after high school.

    In addition to grant funds that enable Moraine Valley Community 
College to directly address issues of recruitment and retention for 
STEM majors, the college also utilizes operational funds that assist 
to:

        1.  Provide dual enrollment opportunities for Advanced 
        Placement high school students in calculus, statistics, college 
        algebra, trigonometry, biology, and chemistry.

        2.  Create 2+2 agreements in mechanical design and information 
        technology that assist MVCC student's transition into 
        engineering and computer science Bachelor's degree programs.

        3.  Improve diversity in our full-time teaching faculty through 
        a strong commitment to diversity in our hiring practices.

How are we measuring the effectiveness of these actions?

    Measuring the effectiveness of our efforts to recruit and retain 
STEM majors is a multi-tiered process. Because grant funded programs 
require high standards of accountability and because NSF grants 
specifically are awarded on a competitive basis, we adhere to stringent 
standards for program evaluation and effectiveness. The best model for 
evaluating program effectiveness comes from a process recommended by 
the National Science Foundation. With help from the NSF we contract an 
external evaluator whose purpose is to monitor our progress against our 
grant objectives. A National Visiting Committee is also designated to 
assist in the evaluation of CSSIA. This committee provides an annual 
appraisal with extensive feedback. Also through NSF funds we conduct 
large scale surveys that assess productivity and accomplishment.
    In addition to NSF determined evaluation processes, at MVCC, we 
benefit from opportunities available to us through our resource 
development and institutional research offices. These resources assist 
front line program administrators and coordinators with report writing, 
data gathering and quality analysis of our programs.
    Through Tech Prep funding we contract a research associate to 
perform a longitudinal inquiry on dual credit and articulation related 
data. The outcomes from our extensive assessment of programs and yearly 
reporting on effectiveness are used as a basis for continuation of 
activities as well as in the development of new initiatives.

Question Two: What are the obstacles to implementing similar 
improvements at other institutions of higher education?

    An issue of importance to all academic institutions and an issue 
often difficult to fully address concerns the magnitude of role models 
related to retention of STEM majors. At MVCC we address this issue with 
a strong effort towards diversifying the faculty. Hiring is a long-term 
commitment that requires a constant focus every single year and 
consumes a great deal of resources.
    A major obstacle faced by other institutions of higher education is 
the lack of financial resources necessary to pursue competitive funding 
programs. In the State of Illinois our level of State funding has 
declined over the past few years and continues to decline. The college 
now finds itself more dependent on grant funded initiatives like NSF, 
Perkins and Tech Prep. Due to the volatile status of funding it becomes 
difficult to make long-term plans. We have a strong commitment to 
pursue NSF funding but it is very competitive. Unlike many other 
institutions of higher education, our institution is committed to 
providing the time and resources needed for the extensive proposal 
process.
    Illinois community colleges were plagued by a lack of statewide 
curriculum alignment. The standardized general education core (Illinois 
Articulation Initiative) helps to alleviate the problems. Other states 
continue to struggle with this alignment.

Question Three: What role have federal agencies, particularly the 
National Science Foundation (NSF) played in improving undergraduate 
STEM education? What more should federal agencies be doing in this 
area?

    This has been addressed in the context above.

What more should federal agencies be doing in this area?


        <bullet>  Federal agencies should continue to emphasize the 
        seriousness of the social and economic issues related to 
        recruitment and retention of STEM majors.

        <bullet>  Federal agencies should provide more recognition to 
        the role of community colleges in providing pathways and 
        opportunities in high education especially for the under-served 
        and under-represented.

        <bullet>  More support should come from the federal agencies 
        related to secondary-post-secondary collaboration (Tech Prep, 
        Carl Perkins).

        <bullet>  Curriculum alignment and refinement of standards in 
        STEM should remain a priority of the federal agencies.

        <bullet>  Social issues including gender and race bias in 
        higher education should remain high priority for federal 
        agencies.

        <bullet>  Continued federal support of faculty development 
        programs should remain a priority through NSF and DOE grants.

        <bullet>  Investment in replicating best practices and programs 
        that experience continued successful achievement should be 
        prioritized at a national level.

    In closing, thank you again for allowing the voice of the community 
college to be present at this hearing today. Community colleges have 
become and will remain a vital means for students, otherwise unable, to 
participate in high education. The issue of recruitment and retention 
of science, technology, engineering, and math majors is a crucial 
economic and social issue that demands greater consideration. I feel 
honored to have been afforded this opportunity to contribute to the 
discussion and look forward to the positive outcomes that result from 
this conversation. Thank you.

References

Bohrmann, M.L., & Akerson, V.L. (2001). A Teacher's Reflections on Her 
        Actions to Improve Her Female Students' Self-Efficacy toward 
        Science. Journal of Elementary Science Education 13(2), 41+. 
        Retrieved October 27, 2005, from Questia database: http://
        www.questia.com/PM.qst?a=o&d=5002438891

Facts & Figures: Past Present and Future (2005). Moraine Valley 
        Community College, Office of Institutional Research and 
        Planning.

Pascarella, E.T., Pierson, C.T., Wolniak, G.C., & Terenzini, P.T. 
        (2004). First-Generation College Students: Additional Evidence 
        on College Experiences and Outcomes. Journal of Higher 
        Education 75(3), 249+. Retrieved March 10, 2006, from Questia 
        database: http://www.questia.com/PM.qst?a=o&d=5005988022

Office of the Governor, State of Illinois. Plan increases high school 
        graduation requirement, better prepares students for success 
        after high school. Retrieved on March 10, 2006 from: http://
        www.illinois.gov/PressReleases

United States Department of Education (2000). Reasons for Optimism, 
        Reason for Action. Retrieved on March 10, 2006 from: http://
        www.ed.gov/news/pressreleases/2005/08/08182005.html

USA Today, March 10, 2006.

Yasuhara, K. (2005). Choosing Computer Science: Women at the start of 
        the undergraduate pipeline, Proceedings of the 2005 American 
        Society for Engineering Education Annual Conference and 
        Exposition. Retrieved March 10, 2006 from http://
        www.cs.washington.edu/homes/yasuhara/cv/publications/

                 Biography for Margaret Semmer Collins

Education:

Candidate: Doctorate of Education, Adult, Counseling and Higher 
        Education,

Research Agenda: Recruitment & Retention of Women in Science, 
        Technology, Engineering and Math

Dissertation Topic: Gender Gaps in Advanced & Emerging Technologies at 
        Midwestern Community Colleges; Northern Illinois University, 
        DeKalb, IL; Anticipated completion: August 2006.

Master of Arts, Communication Studies (1992), University of Illinois at 
        Chicago, Chicago, IL

Bachelor of Science, Communication Studies (1987), Northern Illinois 
        University, DeKalb, IL

Professional Experience:

Moraine Valley Community College    1994 to present
Assistant Dean, Science, Business & Computer Technologies    (2002 to 
present)

        <bullet>  Provide administrative leadership on grant projects 
        that include the Center for Systems Security and Information 
        Assurances (CSSIA), CSSIA Supplemental Grant, Tech Prep Support 
        Grant and Tech Prep Consortium grant.

        <bullet>  Chair search committees to select and hire math, 
        science, business and information technology faculty.

        <bullet>  Lead non-tenured faculty evaluation process by 
        chairing evaluation teams.

        <bullet>  Direct program improvement projects for career and 
        technical education programs that include Tech Prep, 2+2, dual 
        enrollment, career development and work based learning.

        <bullet>  Assist in the oversight and management of sub-
        division and grant budgets.

        <bullet>  Work closely with faculty to strategically address 
        marketing, outreach and improved collaboration with high 
        schools, four-year colleges/universities and the community.

        <bullet>  Advocate and encourage the development and 
        enhancement of recruitment/retention efforts geared at non-
        traditional students especially women in IT.

Moraine Area Career System, Oak Lawn, IL    1999 to 2002
Assistant Director/Tech Prep Coordinator, Moraine Area Career System

        <bullet>  Administer all fiscal and administrative 
        responsibilities for the three regional Career and Technical 
        Education grant programs. Responsible for budget management, 
        progress reporting, grant writing, program development, and 
        program supervision. Work collaboratively with staff at the 
        Illinois State Board of Education, secondary administrative 
        personnel, community college administration and teachers at 
        both the secondary and post-secondary levels. The grants 
        managed include: Federal Tech Prep, State Tech Prep and Work 
        Based Learning.

        <bullet>  Lead efforts to enhance career and technical 
        education within the Moraine Valley region by promoting and 
        managing the development of articulated and/or dual enrollment 
        courses aligned with Business, Industrial Technology, and 
        Family and Consumer Sciences.

        <bullet>  Research local, State, and national labor market data 
        and monitor educational trends at Moraine Valley Community 
        College for the purpose of introducing progressive Career and 
        Technical education programs, into local high schools.

        <bullet>  Develop and implement professional development 
        opportunities for area educators including secondary and post-
        secondary teachers, counselors and administrative staff that 
        help educators align curriculum with the standards, learn about 
        alternative instructional delivery techniques, and examine the 
        latest trends in learning, instruction and curriculum 
        development.

Coordinator for Work Based Learning, Education to Careers    (1998 to 
1999)

        <bullet>  Coordinated the development of regional work based 
        learning programs for six high school districts and twenty-one 
        elementary school districts in the Moraine Valley region.

        <bullet>  Collaborate with business and industry 
        representatives to develop and implement work based learning 
        strategies that meet the needs of employers and address labor 
        shortages.

Recruiter    (1997 to 1998)

        <bullet>  Developed and implemented recruitment strategies that 
        promote Moraine Valley's educational offerings and community 
        services including all credit and non-credit, adult basic 
        education, continuing education and professional development 
        programs.

Contractual Grant Writer    (1997 to 1998)

        <bullet>  Researched, developed, wrote and edited grant 
        proposals aimed at securing external funding for programs 
        servicing the college and the region. Worked on several large 
        federally funded TRIO grants as well as professional 
        development grants through the Illinois State Board of 
        Education.

Placement Specialist    (1994 to 1997)

        <bullet>  Provided job search and career development assistance 
        to students, community residents and alumni through one-on-one 
        advisement, instruction of workshops and presentation of 
        customized classroom discussions.

        <bullet>  Initiated and implemented the improvement of many Job 
        Placement Center programs and procedures.

        <bullet>  Collaborated with instructional faculty to serve the 
        students' job placement needs, keep abreast of labor market 
        trends and prepare students for life after college.

Adjunct Faculty    (1994 to 1997)

        <bullet>  Instructed basic speech communication course 
        focussing on public speaking, group dynamics, interpersonal 
        skills, effective listening and cultural consciousness in 
        communication. (COM 103).

Robert Morris College, Chicago, Illinois    1992 to 1994
Placement Coordinator/Career Development Instructor

        <bullet>  Designed from start-up an internship and job 
        placement program for students requiring non-paid clinical 
        experience that included the creation of contracts, evaluation 
        materials, tracking devices and correspondence.

        <bullet>  Coordinated closely with business and industry to 
        customize each training and/or internship experience that met 
        specific requirements of the school and employer.

        <bullet>  Taught career development courses designed to promote 
        college and career success through an emphasis on work place 
        skills and work based learning.

Publications & Presentations:

        <bullet>  National Tech Prep Network Annual Conference, 
        Presenter Topics: NSF ATE Pre-conference. The Center for 
        Systems Security and Information Assurances (CSSIA) 2004 
        Minneapolis, 2005 Orlando and ``Math and Science Alignment the 
        Tech Prep Way.'' Minneapolis, 2004.

        <bullet>  Wisconsin Careers Conference, Spring 2003, Madison, 
        WI; Showcase Presentation. Topic: ``Working Together for 
        Workplace Skills Success.''

        <bullet>  National Tech Prep Network Annual Conference, 
        Presenter Fall 2002. Topic: ``Working Together for Workplace 
        Skills Success.''

        <bullet>  Illinois State Board of Education, Connections 
        Project, Conference Presenter Spring 2002. Topic: ``The Aspen 
        Health Sciences Academy, Moraine Valley Community College and 
        Aspen High School Working Together.''

        <bullet>  Illinois State Board of Education, Connections 
        Project, Connections Conference, St. Charles, Illinois. ``The 
        Moraine Area Cisco Academy.'' Presentation to Educators. Spring 
        2001.

        <bullet>  Illinois State Board of Education, Connections 
        Project, Connections Conference, Springfield, Illinois. ``Tech 
        Prep Transition Grant.'' Presentation to Educators. Spring 
        2000.

        <bullet>  American College Personnel Association, Eleven 
        Update, Fall 1997 ``An Emerging Professionals Perspective on 
        Leadership.'' (Article published in association newsletter).

        <bullet>  Department of Leadership and Educational Policy 
        Studies, Graduate Student Symposium, Northern Illinois 
        University, ``Effective Conference Planning.'' Presentation. 
        Spring 1999.

    Margaret Semmer Collins is the Assistant Dean of Science, Business 
and Computer Technologies at Moraine Valley Community College in Palos 
Hills, Illinois. She received her Bachelor's of Science from Northern 
Illinois University, a Master of Arts from University of Illinois at 
Chicago and is currently a Doctoral Candidate in Education from 
Northern Illinois University. Margaret's research agenda concentrates 
on gender gaps in science, math, and technology, with her dissertation 
specifically related to retention of women in emerging technologies at 
community colleges. She began her career in community college 
administration at Moraine Valley Community College 12 years ago. As 
Assistant Dean she is the lead administrator for the National Science 
Foundation Advanced Technical Education Center (The Center for Systems 
Security and Information Assurances) and provides programmatic 
leadership for Tech Prep, dual enrollment and 2+2 articulation with 
four-year colleges and universities. Margaret is a single mom with two 
children ages 7 and 9.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Inglis. Thank you, Ms. Collins.
    Thank you all for your testimony.
    I will recognize myself for a round of questions.
    Dr. Wieman, you said in a very interesting part of your 
testimony that unless you--we improve science education at the 
college level first, we are wasting our time and money on 
making major improvements in K-12. And I wonder if you could 
help us, because we are getting ready to spend a fair amount of 
money on K-12 education. We do year after year. The President 
has requested somewhere in the nature of $380 million I believe 
it is for some of his initiatives that are aimed at K-12. And I 
wonder if you might tell us, if you were in Congress evaluating 
those proposals, where would you focus the money? And also, 
what challenges have you found from the Administration, in the 
administration of your university, in implementing the kind of 
changes that you think would make a difference?
    Dr. Wieman. Okay. So those are quite different questions, 
so----
    Chairman Inglis. Right.
    Dr. Wieman.--let me just talk about the K-12 situation.
    And I don't presume to be an expert on K-12 education, so--
and it is a vast program. What I will claim to be somewhat of 
an expert on is looking at the science preparation--you know, 
the undergraduate math and science preparation of K-12 
teachers, and not just both their content knowledge, but we 
also looked at, sort of, their general beliefs about what 
science is, how you learn science, and it is dismal. That is 
the bottom line. And so we--it is just clear that these future 
teachers have to have a better understanding of science, and 
they have to have a better understanding of what science is as 
well as, sort of, being competent at it if they are going to 
present it in a reasonable way to students. Now--so that, in 
terms of how that breaks down into focusing on what you would 
do, that--I mean, I would have to give it more detailed 
thought, but I think that it is clear that too often people can 
become certified teachers and then end up teaching math and 
science without ever the--I mean, teacher certification does 
not imply, and often is quite independent, of any competence in 
those subjects, and certainly a level of competence required to 
teach them effectively.
    Chairman Inglis. Let me just ask, on that point, to see if 
anyone else in the panel would like to comment on that.
    Dr. Seymour.
    Dr. Seymour. Okay. I think we are, Mr. Chairman, in an 
emergency situation. And this is gradually getting worse. We 
have both a shortfall in the supply of teachers who have at 
least an education major in math or science, or even a minor in 
math or science, to replace the teaching force that we have. We 
have depended, for many years, on very able women 
mathematicians who used to fill our classrooms as math teachers 
that are now retired or retiring, but young women with math 
qualifications are not going into school teaching. So we have 
taken a resource for granted. We are now in a situation where 
we cannot fill the vacancies that we have with qualified math 
and science teachers in many states. I have cited Texas, New 
Jersey, and Florida as three states of which I am aware where 
their vacancies are largely filled by alternative and emergency 
certification by bringing people who have some background in 
STEM majors to fill those places. And the provision of math and 
science teachers across the country is extremely patchy. It is 
very variable. In our research, we have found that even in the 
same state, there is enormous variation at what you can expect 
if you happen to be a student in those classes. It is very bad 
in schools which predominately contain minority young people. 
We saw that very clearly in our research. For instance, young 
people who came from predominately black and Hispanic and 
higher middle schools into university STEM classes presented 
some of the most dismal stories that we heard in our ``Talking 
About Leaving'' research. They came in, as we called it, 
``overconfident and under-prepared'': They were strongly 
supported by their communities and their teachers in coming to 
the university to take STEM majors, but when they got there, 
were very shocked to find that they were not remotely prepared 
for what they had to undertake. And this was a devastating 
experience from which they tended not to recover.
    So huge variation, as well as a shortfall, in the country 
in what is offered. It is regionally very, very different. And 
we have a crisis such that we both, I think, are obliged to 
support and improve the teaching force that we have by any 
means at our disposal--by outreach work, by summer workshops, 
and so on. These go on. They are well supported by the National 
Science Foundation and others. These have to go on. But at the 
same time, we must recruit teachers for our system that have 
disciplinary degrees in the STEM majors. And that is where we 
are woefully short. That is what is not happening. And I agree 
with my distinguished colleague that unless we attend to the 
supply of teachers from the universities, from baccalaureate 
students, we are in a deepening, serious national crisis in the 
quality of our K-12 teaching force. And the comparisons with 
the international situation, I think, are very, very well 
known.
    Chairman Inglis. Okay.
    Now the second part of my question, I am interested in 
getting Dr. Wieman and Dr. Burris to talk about the second part 
of that, which is right here we have a professor and the 
President of a college sitting side by side. What are the 
challenges that you have faced in terms of getting an 
administration to move the college culture, the university 
culture?
    Dr. Wieman. I think it is important to appreciate. I mean, 
I work at a large research university. At large research 
universities, the culture is really not set by the 
administration. You can't go and tell a physics department or a 
chemistry department or a biology department--as a President, 
you just can't go and tell them what they should teach, how 
they should teach, what fields they should go into. They just 
ignore you. That is the way those structures work. So that is 
why I am saying is if it really happens at the department level 
and, to a large extent, those departments, they succeed or fail 
on their external success. I mean, that is why they are kind of 
decoupled from the administration. Successful departments go 
out and they find federal agencies that will support them to 
get--bring in more research dollars. They can be more active. 
They can get more prestige. And so that is what I am saying. 
That is where the reward system--and, you know, the Federal 
Government is somewhat responsible for that. But that is really 
graded, the reward system, and, really, the structure in who 
answers or doesn't answer to whom, in the large research 
universities.
    Chairman Inglis. Dr. Burris, your comments on that.
    Dr. Burris. Well, I don't want to sound overly 
Pollyannaish, but the situation at small liberal arts colleges 
is really quite different. My sense is that both the faculty 
and the administration, in making decisions about what model we 
think works, in fact, means that there is little or no 
resistance to implementation of small classes, hands-on 
learning, inquiry-based methodology. I certainly know that is 
the case at Calvin College where the physics is taught that 
way, I am sure. But the point being, it is exactly as Dr. 
Wieman said. We are comparing a little bit apples and oranges. 
The reward system, which I think very successfully produces K-
12 teachers as well as future scientists at small liberal arts 
colleges, is based very much on the success of the faculty as 
teachers. They must be scholars, and we strongly believe the 
emphasis and importance of their scholarship, but they first 
and foremost must be teachers. As teachers, they see their 
primary responsibility being to teach in the best possible way. 
And that is one of the arguments for the value of small liberal 
arts colleges, not only to train future scientists but train 
future teachers. We have an education department. Anyone who 
wishes to be a teacher in biology or physics or math must major 
in the disciplinary field. The education department provides 
some of the pedagogical assistance, but their majors, upon 
graduation, will be in the various fields that they will 
ultimately teach.
    So I don't think--I think it is a very different reward 
system. If I can comment on my own career, where I started at 
Penn State, the reward system would be very similar to the 
University of Colorado, that is I was judged on my ability to 
receive external funding. I was judged on my publication 
record. And to be quite frank with you, my teaching was very 
low on the totem pole in terms of a reward system. That is not 
the case at liberal arts colleges. And until research 
universities are willing to attach a reward and that reward 
translates into promote and 10-year salary increases to 
teaching, we are not going to change the system easily. And I 
am sure that Dr. Wieman would--could speak further to that, but 
we have a very different system, as an administrator at a small 
liberal arts college.
    Dr. Wieman. I--can I make a--I actually spend a reasonable 
amount of time visiting, not Beloit, but many small colleges, 
and I speak lots of places. And there is a difference between 
being dedicated to teaching and valuing it and doing it 
effectively. And I see many small colleges where their--and 
faculty universities as well are very committed to teaching, 
but they are following an obsolete model that our research says 
just doesn't work very well. And that happens at small 
colleges, big colleges, universities, and so on. It is really a 
different method. It is really an evidence research-based 
method that, by and large, is not implemented at any 
institutions on a widespread basis.
    Chairman Inglis. I am extending my time quite a bit. And I 
should call on Dr. Ehlers, I believe, next.
    So Dr. Ehlers.
    Mr. Ehlers. Thank you. It is very difficult for me to 
answer--ask a question. I basically feel like saying ``Amen,'' 
because it is rare that I have--that I agree with things that 
are said by almost the entire panel of witnesses that are 
before us.
    But you are all right on target. You are looking at 
different parts of the target, in some cases, but I really 
appreciate the work that--not just the work you are doing, but 
the work you represent. And I am very absolutely delighted to 
see what I would call the awakening of the consciousness of 
universities and colleges about the importance of teaching and 
the search to do it properly and do it correctly. As some of 
you know, because I have had conversations with you, I have 
spent a good deal of my academic career trying to teach 
elementary school teachers both science and how to teach 
science. And that arose out of something very simple. I became 
concerned about what was called scientific illiteracy in the 
late '60s, and I simply asked myself, ``What can I, as a 
physicist, do? How can I impact that?'' And I decided that I 
was not likely to ever have a national impact, since I had 
never intended to get into politics, but I decided what I could 
do is, in my classroom, teach--I could volunteer to teach 
future elementary school teachers. And that guaranteed me the 
job of doing it, because no one else really wanted to do it. 
And I tried to develop programs that would assist them and make 
them feel comfortable once they got into the classroom. I also 
taught a couple of National Science Foundation summer 
institutes for teachers who were already in the classroom, 
which is, by far, the greatest problem in this country at the 
moment, how do you reach the teachers who are already there who 
did not learn enough science and don't know how to teach it 
properly. And it is through no fault of their own. I never 
knock the teachers, because every classroom I have worked in, 
teachers desperately wanted to teach science and mathematics 
properly, and they were afraid of the subject. They did not 
feel qualified to teach it. And so, I think, number one, an 
immediate objective has to be to make them at least have enough 
knowledge so that they feel confidence about what they are 
trying to teach and not avoid it. But teaching future teachers 
is equally important. And we have to do both.
    My question for you is what role do you see the Federal 
Government having? We have no control over curriculum at the 
federal level, no control over textbooks, anything of that 
sort. Most of our efforts are going to try to help poor school 
districts and poor students. And by that, I mean financially 
poor in both cases. What would you advise us to do in terms of 
developing programs that can help people like you and the 
people at your institutions do an effective job of reaching 
both existing teachers and the future teachers?
    Dr. Goroff. I would like to agree with my colleagues that I 
think the first priority should be investments in in-service 
and pre-service work with teachers, including content faculty 
at the college level, working with those teachers. And I just 
wanted to say, though, that my experience with this is a little 
bit different from my colleagues, and give some hope to the 
notion that federal and other dollars can make a difference in 
all of this. So at Harvard, a place where, I would say, some 
people have heard that the faculty and administration can be a 
bit obstinent, I was the founding director of a program, a 
masters degree program, in mathematics for teaching. It is run 
by the mathematics department. It is offered through the 
Harvard Extension School. And right now, we are enrolling about 
100 teachers per semester in these courses. And I also want to 
say that throughout the mathematical community, there have been 
a great deal of reports and reforms specifically about teacher 
preparation and its importance for the country and for the 
discipline. So I want to say that it can be done and it can 
make a difference.
    Mr. Ehlers. I personally think one of the roadblocks has 
been--is strictly a cultural one that I don't see in very many 
other countries, and that is this cultural belief that somehow 
math and science are not for women and, perhaps, even 
minorities. And that--the tragedy is not that it is--that that 
view is being imposed, but that these groups tend to feel that 
within themselves. And since the majority of our teachers are 
female, that creates a real problem, and I have spent years 
trying to overcome that cultural bias. I don't know how we 
could address that.
    But I gather, from the response and the smiles I see, that 
someone else asked this question before me. I am sorry. I had 
to step out to go to something else. But where would you 
envision the programs best being housed? The National Science 
Foundation? The Department of Education? Or should we simply 
hand the money to the states and ask them to do it, following 
certain guidelines? I see----
    Dr. Burris. You have lots of hands on that one, and my 
answer is very quick and simple. The National Science 
Foundation, I think, is absolutely the best place for such 
programs to be housed. Unequivocally. No arguments.
    Mr. Ehlers. Is that--is everyone agreed on that? It is very 
important for you to send that message to the Congress and to 
the Administration as well, because there seems to be a shift 
in opinion on that.
    Dr. Seymour. Yeah.
    Mr. Ehlers. Yes. Go ahead.
    Dr. Seymour. Working, as I do, as an evaluator of programs, 
many of which are funded by the National Science Foundation, I 
would say that I have seen stunning work done in the 
Collaboratives for Teacher Preparation, which are regional, in 
the Math and Science Partnerships. I am a member of the board 
of the partnership in Puerto Rico. Quite magnificent. That work 
needs to continue. I have also seen, both as evidence, and in 
person, the work done by the workshops--many different kinds of 
workshops--some by private foundations, like Project 
Kaleidoscope, but also ones which have been funded by the 
National Science Foundation--the M.I.D. workshops in chemistry, 
and others. Workshops are one of the very best ways to get the 
knowledge out there to faculty who are interested, or curious, 
or even skeptical, about new ways of teaching. They can come 
into a safe place and try new methods hands-on and learn them 
with other people without loss of face. And with the assurance 
of camaraderie can go away and work on these in their own 
classrooms, and still have that support from the workshop 
members. It is a wonderful way of building the whole community, 
nationally, of people who are interested in and engaged in the 
business of how students learn. So NSF workshops are very, very 
important.
    And then something which we have not done well, which I 
would advocate, it--we need programs to educate the teaching 
assistants in how to teach in accordance with the new knowledge 
that we have. There is plenty of knowledge out there. It is 
very, very available, and it is also very accessible. So we are 
not short of knowledge about how to teach well, but we are a 
little bit primitive in our understanding of how to educate our 
teaching assistants how to use it in active and interactive 
support of the classes. Unfortunately, most students do not 
learn their science and math in Beloit College. It would be 
nice if they did. The majority are learning their math and 
science in the major universities, and that is where the 
support for the TA is needed--TAs who work for professors who 
are constrained increasingly to work just in a lecture mode. We 
need support for the TA who is the person who has the active 
engagement with the student. That is where the effort needs to 
be placed, I think. And, nationally, we are not doing that 
well. And I would love to see the National Science Foundation 
and others supporting that effort.
    Mr. Ehlers. A very pragmatic question. You say you have 
been in a lot of workshops. What do you think is the optimum 
length of time in a workshop?
    Dr. Seymour. I think good. I have reviewed in my testimony 
what we know from evaluation of the workshops. What I see--I 
have said is a building of a national network which connects 
people who are not of the same department or even necessarily 
of the same institutions and builds them into a virtual 
community, which is actually the mainspring for what is now 
happening in improving science education. People are connected. 
People meet each other at professional meetings. The 
professional societies have responded by developing educational 
sections. So I see, over the last 15 years, the building up of 
a skilled workforce amongst science and math faculty who are 
the people who teach others and who constantly replenish the 
workshop teachers. So I am very, very impressed with them, and 
we should support them financially. Incidentally, they are 
extremely cheap, because the faculty who man the workshops and 
woman the workshops do it for free if you just pay their 
expenses.
    Mr. Ehlers. Thank you.
    And if I may have a little more time, Mr. Chairman.
    Chairman Inglis. Certainly.
    Mr. Ehlers. Dr. Wieman, you have talked about the research 
you have done and the results are clear, have--has this been 
adopted by your university and by your departments, or are you 
a prophet without honor in your own country?
    Dr. Wieman. Somewhere in the middle. It is--you know, it is 
being somewhat adopted, so they--you know, but it is sort of on 
an individual by individual basis. Again, it is--you know, and 
I think my department isn't any different from many other 
departments. It is a question of everybody is busy, you know, 
trying to be as successful as possible. It takes extra time to 
change, you know, to develop new teaching materials, new 
teaching methods, to assess and do good assessment, if they are 
working. And so, you know, the--convincing people to do that 
right now, it is pure altruism. You know, you talk to them 
enough and you show them the results and they will try and fit 
it in a little bit here and a little bit there, but change 
driven by altruism is pretty slow whereas when I see you get 
big changes are when there is a major--I mean, I see changes in 
physics departments that clearly follow federal funding where 
there is, you know--it is--but it is always in the research 
side where there is a major program. It is clear there is going 
to be a large amount of money over a sustained time that really 
could, you know, transform a department. Suddenly, a department 
decides that, you know, plasma science or nanotechnology is 
suddenly the wonderful, important, high-priority thing for 
their department and because it can support, you know--they see 
it correctly as supporting programs and faculty for many years, 
and they will move into that area, if there was something. But 
you know, for teaching, it--you put in the extra time because 
you get a warm, fuzzy feeling inside, but that is about all it 
comes down to.
    So you know, that is within my department and lots of other 
places.
    Mr. Ehlers. Yeah. It sounds very familiar.
    Now do you think that an NSF program, which was aimed at a 
specific department at a specific unit, in other words, they 
would apply for a grant to, perhaps, even provide some faculty 
time for this, but certainly something that would develop the 
camaraderie, the spirit, the altruism that is necessary? What--
do you think that could be successful?
    Dr. Wieman. If it was designed right, I would be optimistic 
it could be. I mean, like I say, you just--the best model is 
how research funds have transformed departments and 
institutions and--but I would say right now, those are the only 
examples we have of really--where you have major cultural 
changes in higher education is--following the money is what it 
comes down to.
    Mr. Ehlers. We need altruistic people who will cough up the 
money.
    Thank you very much.
    You had a comment?
    Dr. Goroff. Can I offer a different perspective, actually?
    Dr. Wieman. At Harvard, they have so much money.
    Dr. Goroff. Well, I think altruism is actually an important 
motivator. But I also want to mention that these problems are 
intellectually interesting and that that is the reason why most 
academics went into the field that they did, because they like 
to solve problems and they want to know about the research and 
the kind of work that Dr. Wieman was talking about before. And 
if you present it that way, people can be very engaged in it. 
And again, at the Derek Bok Center for Teaching and Learning at 
Harvard, where I was the Associate Director, we were able to 
bring people in to do a great deal of work, got themselves 
videotapes to participate in research, to get all sorts of 
feedback on their teaching, and this was done confidential and 
voluntary. There were no rewards for it or anything else, but 
the important part about it, and an extensive work, by the way, 
with the graduate students, none of the people teaching 
calculus in the mathematics department were allowed near 
students before they had gone through a detailed apprenticeship 
with visiting classes and doing practice sectors and being 
videotaped and getting all sorts of feedback from coaches who 
they were paired with. And only then were they allowed to stand 
up in front of calculus teachers--in front of calculus 
students, I should say. But the important part about it was 
that we made all of these things intellectually interesting and 
useful. And people showed up, and they continue to show up, and 
I think that it really can make a difference in that way.
    Mr. Ehlers. Interesting. When I was a student at Berkeley, 
my thesis advisor advanced the theorem that the people who are 
really concerned about teaching well are the ones who don't 
really have to worry about it, because they generally are 
already good teachers. And in fact, when I was teaching there, 
I always used student evaluation sheets several times during 
the semester. And he scoffed at that and says, ``People who 
hand those out don't--are the ones who don't need it. The 
people who really need it are afraid to hand them out and 
don't.''
    Dr. Goroff. These were programs, really, for all of the 
different----
    Mr. Ehlers. And people didn't----
    Dr. Goroff.--graduate students and for faculty, including 
people, who, I have to say, started off really unemployable. 
Great, talented mathematics from other countries who could not 
teach at all, and who, after work and after getting the idea 
that the culture of the department was that this was important, 
this was interesting, and something that you could get feedback 
on and improve with, that some of these graduate students who, 
as I said, were totally unemployable to begin with, ended up 
earning teaching awards.
    Mr. Ehlers. Excellent.
    Dr. Goroff. And so it can be done. We just need more 
examples and a little bit more resources.
    Mr. Ehlers. Well, you have established that you think the 
National Science Foundation should be running the programs. 
What we haven't established clearly is the types of programs, 
and I don't think there is time for that here. But I would 
certainly appreciate any ideas you would want to send the 
Committee about the best types of programs for them to sponsor.
    Dr. Wieman. And you have already said there isn't time, but 
I will jump in anyway. That is--when I said the doubling of the 
NSF budget, which is going to happen, we want to make sure that 
that doubling includes funding of research on pedagogy, on 
curriculum, makes it an intellectually interesting problem, 
makes it something that faculty are rewarded for doing, can 
compete for grants. And then the second part is sustainability, 
that it is not simply one program works for two to three years. 
There has to be some sustainability. So within the NSF budget, 
just making certain that this is not lost in the shuffle, as 
the doubling occurs and the money moves primarily to the 
research directorates, make certain that there is money 
specifically for these questions like curriculum and learning 
how people learn and pedagogy.
    Mr. Ehlers. Thank you.
    Dr. Goroff. I would echo that.
    Chairman Inglis. Thank you.
    Now let me recognize Dr. Lipinski.
    Dr. Lipinski. Thank you, Mr. Chairman.
    I apologize for being here--getting here late. This is a--
something that is very near and dear to my heart, and I think 
it is critically important. I had an unfortunate--I have been 
working on this bill. I have been working for a year to get a 
hearing on this, and I was testifying over there. It is 
actually a bill introduced with the Chairman. So I was taking 
care of that.
    But I want to thank all of the witnesses here, and 
especially send a special thanks to Ms. Collins for being here 
from Moraine Valley Community College, which is located in 
Palos Hills, which is Palos Hills, Illinois, in my District. 
And I would like to thank her for what she is able to add to 
this hearing, because we--so much, we sort of overlook the 
community colleges, and they are critically important. And if 
we don't get kids interested there, the ones who are attending, 
then, you know, they are not going to go on. They are not going 
to continue in any of the STEM fields. So I thank Ms. Collins 
for her work and for her testimony here today.
    STEM education, like I said, is near and dear to my heart. 
I have a--one of the few Members of Congress who actually has a 
degree in engineering. I got a mechanical engineering degree 
from Northwestern. I got a degree in engineering economic 
systems from Stanford. My wife actually was a math major in 
college, and so I have a lot of experience between myself and 
her. And I am very happy to hear what Mr. Goroff was saying 
about training of TAs, because certainly TAs, when I was in--an 
undergraduate, I don't think they were trained very well to 
teach, and when I was a TA, when I was--I went on to grad 
school and a--in political science. I actually turned over to 
the dark side. But I wasn't trained. And I think that is really 
critical to do. We do more of that, because that is where you 
lose so many. You know, you go to calculus class and, you know, 
you go to the TA and the TAs just cannot teach and just 
really--students lose interest at that point.
    I wanted to focus on Ms. Collins here on the--what her 
institution does. First of all, what would you have to say 
about the role of your institution in educating undergraduates 
who transfer, then, to a four-year institution to complete 
their bachelor degree in science and engineering? I mean, how 
does your--how do you go about doing that? How do you specially 
try to prepare them for this?
    Ms. Collins. At community colleges, we have primarily two 
types of students, if I can make it that simple. Career program 
students are ultimately interested in gaining skills so that 
they can become employed after an associate degree. And then 
our other population is what we consider primarily transfer 
students, and those are the students we are preparing to 
transfer to four-year institutions or higher degree granting 
institutions. We provide many, many resources for the students 
at Moraine Valley Community College to help them succeed, and 
we do use funds from a variety of sources to ensure that there 
is tutoring, academic assistance through academic advising, and 
also to help with remediation. It is an issue at the community 
college probably more so than at the large universities and the 
smaller liberal arts colleges that students come in and are in 
need of remediation for math and science. Oftentimes the high 
school students, in particular, that wind up at the community, 
they are there because they have chosen that intentionally or 
they end up there for other reasons. And oftentimes they don't 
have the amount of--or the level of science or the years of 
science that students planning to go to the university have. So 
we have to address that right off the bat. And what I have 
found to be an extremely useful effort is the collaboration 
between the teachers at all levels and that--those 
conversations. And as we were talking about how the National 
Science Foundation can help, I believe in collaboration. I 
believe that we should get institutions together. We should get 
math teachers together. We should get science teachers 
together. And we should really talk honestly about those 
issues. We were a little nervous bringing our math and science 
teachers in a couple of years ago when we wanted to have this 
conversation. We thought it would go much like, ``Oh, it is 
their fault.'' ``No, it is their fault,'' because no one really 
wants to take any blame for remediation issues. And what 
happened was a really profound and enlightening conversation 
between educators who really care about students, who really 
care about their success. And since then, we have developed 
programs to work on preparing students in high school to take 
entrance exams, to take placement tests, to--we have worked 
in--with our high schools to develop bridge science courses to 
help them prepare and become--come to Moraine Valley so that 
they can assume that position at college level and then 
successfully transition on to the four-year school.
    All of these efforts are about collaboration. And I will 
speak to collaboration over and over. But it is also about 
energy and it is also about good educators caring about the 
students. We also tried to develop two-plus-two programs. We 
have developed a few where we work with the universities. I am 
an advocate of that seamless education. I work with the high 
schools. I work with the four-year colleges. And how I work 
with them is to understand the curriculum and where we meet and 
where we need to better meet. And those conversations are 
always, always beneficial. Most of the time it comes down to 
math when we are gearing up towards an agreement. And most of 
the time, it comes down to calculus. So we are working now to 
help prepare our students at Moraine Valley to be able to 
transfer to a university and do better at calculus. So----
    Dr. Lipinski. And I am relying on the Chairman here to 
close this down. We have to vote, so I am just going to--I am 
going to keep going until he does that.
    Chairman Inglis. Go right ahead, Dr. Lipinski. We will let 
you know when we have got to run to vote.
    Dr. Lipinski. Okay.
    The--in your testimony, Ms. Collins, you described Moraine 
Valley's involvement with the NSF advanced technology education 
program. What do you see is the--is there anything that you 
would recommend for changes to it?
    Ms. Collins. Our ATE center is very successful. In the past 
several years, we have trained over 800 faculty members 
throughout the country in areas of IT security, in wireless, in 
other emerging technologies. So the teacher training component 
of it is very successful, and it is an excellent model that 
should be replicated. I would definitely like to see those 
efforts in the areas of--the other areas of STEM that took on 
that flavor, because that has been hugely successful. Some of 
the issues that we have pertain to money or budgetary issues 
and working with six other institutions as we try to spend the 
money. Those kinds of conversations between and among 
institutions can be complicated, as we all do thing so 
differently. But we figure out a way. And the programs that we 
develop are certainly worth the effort and the headaches we 
have at times. But we will continue to challenge ourselves to 
spend that money and learn how to do it in a consortium-like 
atmosphere.
    Dr. Lipinski. Okay. Thank you.
    I think I probably should wrap--I will wrap up my questions 
here, I think.
    Thank you all very much. And thank you all for your 
testimony.
    Chairman Inglis. And we do thank all of you for your 
testimony. Thank you for taking time to be with us today. We 
appreciate your testimony and look forward to continuing to 
work towards solutions on this challenge. It is particularly 
gratifying as--being--having the opportunity to chair the 
Research Subcommittee, which authorizes the budget of the NSF 
to hear that earlier resounding note of approval of the NSF's 
work. And that is very encouraging to all of us on the 
Subcommittee, and I am sure encouraging to the people at NSF.
    There being no further business to come before this 
hearing, the hearing is adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Elaine Seymour, Author, ``Talking About Leaving: Why 
        Undergraduates Leave the Sciences;'' Former Director of 
        Ethnography and Evaluation Research, University of Colorado at 
        Boulder

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Regarding ethnic minorities and STEM, what in your experience is 
the best federally-funded program or entity to encourage minorities to 
enter STEM careers?

A1. Perhaps the most effective federally (and privately) funded 
programs in encouraging students of color to become interested in STEM 
careers (and that have successfully sustained them into such careers) 
have been the undergraduate research (UR) programs that have been 
specifically targeted towards groups that have been historically under-
represented in the sciences. Undergraduate research programs of this 
type have been better evaluated than most other UR programs so we know 
more abut their benefits.
    Our research group recently wrote a report (Melton et al., 2006) on 
the Significant Opportunities in Atmospheric Research and Science 
(SOARS) project which introduces young people of color to the 
environmental sciences. It is funded partially by the National Science 
Foundation (NSF) and partially by the program organizers, the National 
Center for Atmospheric Research (Boulder, Colorado). It is typical of 
UR programs targeting students of color in its emphasis on mentoring 
and support for its participants, all the way from high school 
recruitment to STEM graduation.
    Other studies of programs that aim to increase the participation of 
under-represented groups in the sciences, including men of color, women 
of all races and ethnicities, and first-generation college students, 
all show that undergraduate research experiences are the primary factor 
prompting these students' decisions to enter graduate school. 
(Foertsch, Alexander and Penberthy, 1997; Alexander, Foertsch and 
Daffinrud, 1998; Hathaway, Nagda and Gregerman, 2002; Adhikari and 
Nolan, 2002; Barlow and Villarejo, 2004, Russell, 2005). Bauer and 
Bennett (2003) found that UR alumni were about twice as likely as non-
UR alumni to pursue a doctoral degree and Russell (2005) found a 
significant correlation between UR participation by Hispanic and 
African-American students and their expectations of receiving Ph.D.s
    The success of these targeted UR programs argues for renewed and 
increased financial support via the NSF, the National Labs, and private 
foundations.
    My caveat about the undoubted value of targeted UR programs is that 
they can only serve relatively small numbers of students because of 
their labor intensive character. As the national figures for the 
production of minority STEM graduates show, despite considerable 
expenditure of money (both public, largely via the NSF, and private, 
via the Foundations) and over a decade of serious effort, we have made 
very little progress in drawing students of color into the sciences and 
sustaining them there into STEM careers.
    One prime cause of our failures is that we focused too much on 
encouraging students of color to become interested in the sciences and 
to aspire to STEM careers without providing them with an adequate K-12 
education in science and mathematics to support such ambitions. The 
effect has been to create a revolving door in which we increase 
minority STEM enrollment only to see these students fail out, field-
switch, or drop out of college altogether. As I indicated in my 
testimony, it is the height of cruelty to encourage seriously under-
prepared students to undertake a STEM major.
    My answer to the question, therefore, is that, to make a 
substantial improvement in both our enrollment, retention, and 
successful placement of students of color in STEM-based careers will 
require a proactive, well-funded policy of recruitment of seasoned and 
well-qualified mathematics and science teachers into middle schools and 
high schools in greatest need. These schools tend to be in inner 
cities, rural areas, and especially include schools with high minority 
enrollments. (I say ``seasoned'' because initiatives such as ``Teach 
for America'' have found it problematic to send young volunteer 
teachers into such settings; there is also a high drop out rate among 
trained young teachers in such schools.)
    Our national priority should be to improve the science and math 
preparation of all K-12 students. On the premise that a rising tide 
will lift all ships, such a policy will disproportionately enable more 
students of color (and also women) to participate in STEM careers. 
Without such a policy in place, encouraging seriously under-prepared 
students to aspire above what they can reasonably accomplish is a waste 
of money and damages young lives.

Q2.  How can we help teachers do their jobs better to captivate kids 
and encourage them to pursue STEM careers?

A2. My answer to this question is connected to that above. One root 
cause of our difficulties is (as outlined in my testimony) the serious 
(and worsening) shortage of adequately qualified science and 
mathematics teachers throughout our K-12 system. There are two ways to 
address the problem:

        1.  to improve the quality of the teaching force that we 
        already have

        2.  to induce more people with STEM undergraduate degrees to 
        enter K-12 teaching.

    The NSF has worked hard to address the first problem, through (for 
example):

        <bullet>  the Collaboratives for Excellence in Teacher 
        Preparation

        <bullet>  the Math and Science Partnerships

        <bullet>  the State (sand also Rural) Systemic Initiatives

        <bullet>  a variety of outreach programs that draw STEM faculty 
        and graduate students into working with local science and math 
        teachers to build their knowledge and research capacity, and 
        that often include working in K-12 classrooms to model what it 
        is to be a scientist and to convey to students what scientists 
        do

        <bullet>  enrichment workshops for science and math teachers.

    The NSF are currently hampered in these efforts because of serious 
cuts in their recent budgets for education support work.
    An example of the benefits both to STEM graduate students and to 
the middle and high school students that they teach may be found in our 
recent reports (Laursen et al., 2004; 2005) that evaluate the Science 
Squad Program for the Biological Sciences Initiative at the University 
of Colorado at Boulder.
    Thus, the answers to both questions include:

        1.  increasing and sustaining financial support for the NSF's 
        educational programs

        2.  launching a national campaign that will both enhance the 
        quality of the existing science and mathematics K-12 teaching 
        force, and actively recruit and support STEM undergraduates 
        into K-12 teaching. (Again, the NSF has an important ongoing 
        role to play in both endeavors.)

References Cited

Adhikari, N., & Nolan, D. (2002). ``But What Good Came of It at 
        Last?'': How to Assess the Value of Undergraduate Research. 
        Notices of the AMS 49(10):1252-1257.

Alexander, B.B., Foertsch, J.A., & Daffinrud, S. (1998, July). The 
        Spend a Summer With a Scientist Program: An Evaluation of 
        Program Outcomes and the Essential Elements of Success. 
        Madison, WI: University of Madison-Wisconsin, LEAD Center.

Barlow, A., & Villarejo, M. (2004). Making a Difference for Minorities: 
        Evaluation of an Educational Enrichment Program. Journal of 
        Research in Science Teaching 41(9):861-881.

Bauer, K.W., & Bennett, J.S. (2003). Alumni Perceptions Used to Assess 
        Undergraduate Research Experience. The Journal of Higher 
        Education 74(2):210-230.

Foertsch, J.A., Alexander, B.B., & Penberthy, D.L. (1997, June). 
        Evaluation of the UW-Madison's Summer Undergraduate Research 
        Programs: Final Report. Madison, WI: University of Wisconsin-
        Madison, LEAD Center.

Hathaway, R., Nagda, B., & Gregerman, S. (2002). The Relationship of 
        Undergraduate Research Participation to Graduate and 
        Professional Educational Pursuit: An Empirical Study. Journal 
        of College Student Development 43(5):614-631.

Laursen, Thiry & Liston, May, 2005. Evaluation of the Science Squad 
        Program for the Biological Sciences Initiative at the 
        University of Colorado at Boulder: 11 Career Outcomes of 
        Participation for Science Squad Members. Report prepared for 
        the Biological Sciences Initiative and the Howard Hughes 
        Medical Institute. Available on request from 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6e1d0f000a1c0f40020f1b1c1d0b002e0d0102011c0f0a01400b0a1b">[email&#160;protected]</a>

Laursen, S., Liston, C., Thiry, H., Sheff., E., and Coates, C. (2004). 
        Evaluation of the Science Squad Program for the Biological 
        Sciences Initiative at the University of Colorado at Boulder: 
        1. Benefits, Costs and Trade-offs. Report prepared for the 
        Biological Sciences Initiative and the Howard Hughes Medical 
        Institute. Available on request from 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="acdfcdc2c8decd82c0cdd9dedfc9c2eccfc3c0c3decdc8c382c9c8d9">[email&#160;protected]</a>

Melton, G., Pedersen-Gallegos, L., Donohue, R., Hunter, A-B (2006). 
        SOARS: A Research-With-Evaluation Study of a Multi-year 
        Research and Mentoring Program From Under-represented Students 
        in Science. Available on request from <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="76061312130405131a3615191a190417121958131203">[email&#160;protected]</a>

Russell, S.H. (2005, November). Evaluation of NSF Support for 
        Undergraduate Research Opportunities: Survey of STEM Graduates. 
        Contributors C. Ailes, M. Hancock, J. McCullough, J.D. 
        Roessner, and C. Storey. (Draft Final Report to the NSF.) Menlo 
        Park, CA: SRI International. Retrieved 2/19/06 from http://
        www.sri.com/policy/csted/reports/

                   Answers to Post-Hearing Questions

Responses by Carl Wieman, Distinguished Professor of Physics, 
        University of Colorado at Boulder

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Regarding ethnic minorities and STEM, what in your experience is 
the best federally-funded program or entity to encourage minorities to 
enter STEM careers?

A1. Although I am aware of several programs, I do not know enough to 
say which of them is best. Judging from the tiny number of ethnic 
minorities in my own field of physics, there is no program that is 
achieving significant success in encouraging ethnic minorities to go 
into physics. I have looked a little at the numbers of ethnic 
minorities graduating with Bachelor's and Ph.D. degrees in physics and 
they remain minuscule from essentially all the major colleges and 
universities in the U.S. except for HBCUs. There is no indication that 
anyone has found a successful way to attract and retain ethnic minority 
students at the college level, except for HBCUs, and few of them go on 
to get Ph.D.s at non-HBCUs.

Q2.  How can we help teachers do their jobs better to captivate kids 
and encourage them to pursue STEM careers?

A2. This is a big question that could have many different answers. I 
would say that one essential item is to have teachers who understand 
STEM subjects well enough so that they are not afraid of them and they 
understand the full intellectual richness and excitement of the 
subjects. Currently, only a very small fraction of K-12 teachers have 
that level of mastery of STEM subjects, and virtually no teachers do 
who teach at the critical K-6 grade levels. So pre-service and in-
service training for teachers to provide them with the necessary 
mastery and comfort level in STEM disciplines, as well as recruitment 
programs to attract people with talents in STEM disciplines into K-12 
teaching are essential steps. They are probably not the only things 
that need to be done to successfully encourage kids to pursue STEM 
careers, but if they are not done, it is hard to see how any other 
programs will be successful. I am aware of two very similar programs 
that have been quite successful at attracting talented STEM majors in 
college into K-12 teaching. They are the U-Teach program at University 
of Texas at Austin, and the STEM-Teacher Preparation program here at 
University of Colorado at Boulder.

                   Answers to Post-Hearing Questions

Responses by John E. Burris, President, Beloit College

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Regarding ethnic minorities and STEM, what in your experience is 
the best federally-funded program or entity to encourage minorities to 
enter STEM careers?

A1. Beloit College is a member of the Wisconsin Alliance for Minority 
Participation (which, as you know, is a Louis Stokes program). This 
works because it is a state-wide alliance with the entire University of 
Wisconsin system and several invited private colleges, including Beloit 
and Lawrence (both members of the Associated College of the Midwest). 
Within the Alliance, we participate in regional working groups (with 
several of the UW campuses) which have been very successful in planning 
joint internship activities for STEM students, beginning with rising 
first-year students, and also actively engaging students from the two-
year campuses in the undergraduate research opportunities sponsored by 
the Alliance. So to answer your question directly--programs such as 
WiscAMP work because of several reasons:

    First, the intent is to give students the experience of doing 
science-introducing them to the joy of discovery;
    Second, for the summer programs, the stipends replace what they 
might have earned in a summer job;
    Third, students join a community of scientists within the region, 
that includes successful upper-level minority students mentoring the 
younger ones, and we have a stellar group of faculty who are passionate 
about science and about students;
    Fourth, this is a five-year program, with challenging goals set for 
that time period, but without the annual applications that are so time 
consuming.
    Finally, I should emphasize that the program is built on ``what 
works'' on campuses like Beloit, which is recognized by our colleagues 
from public institutions in this state. This means that moving quickly 
and cost-effectively is possible and makes the best use of the 
investment of federal dollars.
    Further, I draw attention to the McNair Program, a program that 
serves the same students with the same goals. Although McNair is not 
exclusively for STEM undergraduates, several of our participants have 
pursued STEM careers. As a result of our involvement in WiscAMP, we 
currently have a cohort of students in STEM disciplines who will be 
entering the McNair Scholars Program in the next entering class. We are 
very proud of the success of our McNair scholars and have watched as 
they have pursued graduate careers in the sciences.

Q2.  How can we help teachers do their jobs better to captivate kids 
and encourage them to pursue STEM careers?

A2. Let me answer this question from the perspective of how to help 
``undergraduate'' teachers, and as a president. First, there have to be 
institutional programs and structures in place that address the need 
for faculty development. Dr. Wieman spoke directly about this at the 
Hearing on March 15, that the skills of teaching, of incorporating new 
pedagogies and technologies, of being able to incorporate research on 
learning into their scholarly work, are skills that have to be nurtured 
intentionally. We cannot expect that faculty can gain these skills 
without guidance in exploring models of effective practices. So the 
kind of NSF-funded workshops that Beloit colleagues John Jungck 
(BioQuest) and Brock Spencer (ChemLinks) have been leading for almost a 
decade are critical, and they should be part of a national agenda to 
strengthen student learning. Again, as with my discussion about 
WiscAMP, faculty are also better equipped to captivate students and to 
encourage them, when faculty are up-to-date with their field of 
research and have good connections to the world of work their students 
will enter upon graduation. This faculty development dimension of 
ensuring a strong STEM infrastructure must be taken seriously as we 
shape programs for the future.

                   Answers to Post-Hearing Questions

Submitted to Daniel L. Goroff, Vice President for Academic Affairs; 
        Dean of the Faculty, Harvey Mudd College

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Regarding ethnic minorities and STEM, what in your experience is 
the best federally-funded program or entity to encourage minorities to 
enter STEM careers?

Q2.  How can we help teachers do their jobs better to captivate kids 
and encourage them to pursue STEM careers?

                   Answers to Post-Hearing Questions

Responses by Margaret Semmer Collins, Assistant Dean of Science, 
        Business, and Computer Technologies, Moraine Valley Community 
        College

Questions submitted by Representative Eddie Bernice Johnson

Q1.  Regarding ethnic minorities and STEM, what in your experience is 
the best federally-funded program or entity to encourage minorities to 
enter STEM careers?

A1. The NSF ATE program is an excellent federally-funded program that 
encourages minorities to enter STEM educational/training opportunities 
that lead to STEM oriented careers. My direct familiarity with the 
Center for Systems Security and Information Assurances (CSSIA), an ATE 
funded regional center located at Moraine Valley Community College 
(MVCC), has provided me with first hand experience related to STEM 
promotion through curriculum alignment, high school partnerships, and 
collaboration with community based organizations. CSSIA works closely 
with the Mirta Ramirez Computer Science Academy, a charter high school 
on the northwest side of Chicago, which is supported by Aspira, a 
National Hispanic Not for Profit Organization. This collaboration 
provides learning opportunities for students otherwise unavailable to 
inner city Hispanic and Latino youth. The funding allows Moraine Valley 
Community College to work with the students directly while also 
affording professional development opportunity for high school faculty 
and staff. The results are concrete and long term as specific student 
feedback indicates an increased awareness about technology careers, a 
desire to attend college in a technology oriented program and ambition 
to achieve educational and career goals. I fully support funding that 
enables secondary and post-secondary educational institutions to work 
this closely. I encourage all partnerships that work towards aligning 
STEM curriculum, providing transitional services for high school 
students and involve community based ethnic minority organizations.
    Additional funding sources that have assisted in these efforts 
include the federal secondary and post-secondary Carl Perkins grant. 
This funding more specifically assists with program development, 
implementation and maintenance of the public high school and community 
college Career and Technical Education (CTE) and Tech Prep programs. 
These programs align more distinctively with engineering and technology 
programs. ATE funding has the ability to cast a wider net because in 
addition to technology programs, ATE encompasses science and math 
curriculum/programs in institutions other than community colleges. 
Nonetheless, Perkins funding and the benefit to students should never 
be underestimated with regard to STEM.

Q2.  How can we help teachers do their jobs better to captivate kids 
and encourage them to pursue STEM careers?

A2. Captivating kids and drawing them into STEM careers takes 
concerted, continual and big picture effort. This effort needs to begin 
early and should be incorporated into a developmental guidance program. 
Educational institutions should focus on technological literacy that 
begins in the primary grades for all students. Focused career awareness 
activities that emphasis STEM careers should be incorporated at the 
middle school years and career plans tied to educational plans should 
be required in the high school years.
    More so, kids today need to see STEM as cool. I have an eight-year-
old boy and a nine-year-old girl. From this experience, I see kids most 
captivated in any activities that allow them to use their hands and 
solve complex problems. They are engaged in activities that incorporate 
music, creativity and competition. They best enjoy math and science 
when it fully relates to every day experiences, activities and 
situations. They use technology to have fun first not realizing they 
are learning too. Kids will be captivated with fun, engaging and 
interactive STEM curriculum. Teachers must have an opportunity to 
develop skills to deliver STEM in this way and teachers should be 
technologically savvy. This skill development and awareness should 
occur preferably during teacher training prior to graduation/
certification or through concerted on-going professional development 
activities at the local level.
    At the post-secondary level, namely the community college, teachers 
should have opportunity through funding to develop mentoring programs 
and tutoring assistance geared at retention of STEM students. Funding 
for curriculum development that incorporates the most up to date and 
effective instructional techniques for teaching STEM courses should be 
made available. A priority should be placed on understanding how 
individuals learn, on understanding learning styles and on 
incorporating the most favorable for STEM success into existing 
curriculum. Community college teachers need easy access to professional 
development for this purpose.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
